<html>
<title> - CURRENT MINE SAFETY DISASTERS: ISSUES AND CHALLENGES</title>
<body><pre>[Senate Hearing 110-730]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-730
 
                    CURRENT MINE SAFETY DISASTERS: 
                         ISSUES AND CHALLENGES

=======================================================================



                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

       EXAMINING ISSUES AND CHALLENGES FACING CURRENT MINE SAFETY

                               __________

                            OCTOBER 2, 2007

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate


                   U.S. GOVERNMENT PRINTING OFFICE
38-173 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming,
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel

           Katherine Brunett McGuire, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                               __________

                               STATEMENTS

                        TUESDAY, OCTOBER 2, 2007

                                                                   Page
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor, and Pensions, opening statement..............     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     2
    Prepared statement...........................................     4
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah, 
  statement......................................................     7
Murray, Hon. Patty, a U.S. Senator from the State of Washington, 
  statement......................................................     8
    Prepared statement...........................................     9
Allard, Hon. Wayne, a U.S. Senator from the State of Colorado, 
  statement......................................................    12
Brown, Hon. Sherrod, a U.S. Senator from the State of Ohio, 
  statement......................................................    12
    Prepared statement...........................................    13
Stricklin, Kevin, Administrator for Coal Mine Safety and Health, 
  Mine Safety and Health Administration, Arlington, VA...........    14
    Prepared statement...........................................    16
Kohler, Jeffrey, Associate Director for Mine Safety and Health 
  Research.......................................................    23
    Prepared statement...........................................    24
Osterman, Joseph, Managing Director, National Transportation 
  Safety Board...................................................    27
    Prepared statement...........................................    29
O'Dell, Dennis, Administrator for Health and Safety, United Mine 
  Workers of America.............................................    45
    Prepared statement...........................................    48
Ferriter, Robert, Director of Mine Safety and Health Program, 
  Colorado School of Mines.......................................    54
    Prepared statement...........................................    58
Watzman, Bruce, Vice President for Safety and Health, National 
  Mining Association.............................................    65
    Prepared statement...........................................    67

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Letter from John Howard, M.D., Department of Health and Human 
      Services, Washington, DC...................................    79
    Letter from Cecil E. Roberts, United Mine Workers of America, 
      Fairfax, VA................................................    79
    Jennifer Joy Wilson, National Stone, Sand, and Gravel 
      Association, Alexandria, VA................................    80
    Response to Questions of Senator Enzi by:
        Dennis O'Dell............................................    84
        Robert Ferriter..........................................   113
    Response to Questions of Senator Murray by Dennis O'Dell.....   111
    Response to Questions of Senator Isakson by:
        Dennis O'Dell............................................   111
        Jeffrey L. Kohler........................................   115
        Robert Ferriter..........................................   115
    Response to Questions of Senator Hatch by:
        Dennis O'Dell............................................   112
        Jeffrey L. Kohler........................................   118

                                 (iii)


                   CURRENT MINE SAFETY DISASTERS: 
                         ISSUES AND CHALLENGES

                              ----------                              


                        TUESDAY, OCTOBER 2, 2007

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in SD-
430, Dirksen Senate Office Building, Hon. Edward M. Kennedy, 
chairman of the committee, presiding.
    Present: Senators Kennedy, Murray, Brown, Enzi, Hatch, and 
Allard.

                  Opening Statement of Senator Kennedy

    The Chairman. We all will come to order. Today our 
committee considers again the pressing problem of mine safety. 
We are joined by family members of the fallen miners and rescue 
workers from Crandall Canyon. Thank you for being here with us. 
The Nation held its breath, along with you during those long 
weeks this summer, hoping that your husbands, your brothers, 
fathers, friends, would be found alive, and we mourn their 
passing with you.
    Some of the family members from West Virginia are here as 
well. We know your losses were also very difficult to bear. 
You've been true champions for mine safety, and miners' 
families around the country. And miners are the better off for 
it.
    The tragedy at Crandall Canyon has again put mine safety on 
front pages across the country. Already this year, 24 men have 
been killed in the Nation's coal mines. Ineffective 
enforcement, outdated technology, and inadequate safety 
standards are the heart of the problem.
    After the terrible accident at the Sago mine last year, 
members of our committee went to West Virginia to talk to 
miners, their families, and to the community. We held a hearing 
on that disaster. We heard particularly about the inadequacy of 
emergency air supplies and communication technology.
    We left those hearings with a commitment to work together, 
Republicans and Democrats, to do all we could to correct the 
problem and prevent further tragedies. Senator Enzi, Senator 
Murray, Senator Isakson, Senator Rockefeller, Senator Byrd, 
Senator Hatch, and I worked to pass the MINER Act, the most 
comprehensive mine safety reform in a generation. It required 
more emergency air supplies, more mine rescue teams, and faster 
adoption of cutting-edge technology in the mines.
    That act has made a difference. Senator Murray, our 
subcommittee chair, held an oversight hearing this spring, 
which found that the legislation was making mines safer.
    But today, we find ourselves asking new questions about 
whether this did enough to make mines safer--make mining safe. 
For the sake of all miners, we need to understand what went 
wrong at Crandall Canyon. It is too early to expect these 
answers today, but at least we can begin to ask the right 
questions about the Crandall Canyon Mine, about whether MSHA is 
effectively doing its job, about whether the Congress must do 
more.
    MSHA's basic role is to see that mine plans are safe. At 
Crandall Canyon, however, MSHA apparently missed the warning 
flags about serious safety problems. We will hear from NIOSH 
today about its independent analysis of the Crandall Canyon 
plan, which raises very serious questions about whether MSHA's 
review process is strong enough and independent enough. Such 
questions about the review process are not just about Crandall 
Canyon, they have nationwide implications.
    Another major MSHA responsibility is to control the rescue 
effort when accidents take place. Mines are inherently 
dangerous, both for miners and for rescue workers. Tragically, 
in addition to the six miners, three rescue workers also died 
at Crandall Canyon. Clearly, something went very wrong.
    We had questions, too, after the Sago tragedy about whether 
rescue workers were used as effectively as possible and were 
adequately protected in their efforts. So we must also look at 
how decisions are made at the mine site after an accident takes 
place.
    In particular, we're concerned about MSHA's duty to manage 
information at mine rescue sites. In the MINER Act, we gave 
MSHA additional power to control information for the public and 
the miners' families. We must examine whether MSHA is 
sufficiently exercising that control in such disasters.
    Finally, our committee continues to press the need for 
better technology to locate and communicate with miners in an 
emergency. The deaths at Crandall Canyon clearly show that 
miners are paying the price for this lapse in technology. It's 
outrageous that the trapped miners could not be located. In the 
MINER Act, we sought to expedite the adoption of the latest 
technology. In this hearing, we'll discuss how we can do more 
and do it faster.
    Our work in Congress will continue after today's hearing. 
We will continue our investigation of the cause of the recent 
disaster and take up new legislation to strengthen current 
laws. We clearly need to do more to prevent such disasters, and 
will do our best to meet that responsibility.
    The Chairman. Senator Enzi.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman. I really appreciate 
your holding this hearing.
    Like all Americans, I'm saddened that we're here again 
discussing another tragic mining accident, in Crandall Canyon, 
Utah. Six miners have been lost and three rescue team 
professionals, who risked their lives to save them, have been 
lost, as well. I appreciate that the family of those who were 
lost are here today. I do want to take a moment to say publicly 
that we all share your terrible loss.
    In my home State of Wyoming, next door to Utah, just a few 
weeks ago a 17-year mining veteran lost his life when the 
vehicle he was operating underground overturned. I'd like to 
express my condolences to his family in the Green River Trona 
mining community as well.
    Every mining accident has a profound impact on the loved 
ones of those whose lives have been lost. Our prayers and 
sympathies go out to all of them. Every mining accident of the 
magnitude of Crandall Canyon demands thorough investigation and 
appropriate action against anyone found culpable. The 
investigation and law enforcement efforts, if any, must be 
carried out by those with the expertise and authority to do so.
    Every mining accident must be an occasion for us to learn 
and to change, if necessary. We honor those whose lives have 
been lost, when we act to ensure that the tragedy will not be 
repeated.
    Every mining accident should not, however, become an 
opportunity for political posturing. Likewise, while every 
mining accident should be a learning experience, not every 
mining accident will require legislative action. There is an 
understandable--but not always productive--tendency, among 
those involved in regulating the mining industry, to 
prematurely react to those accidents with significant 
fatalities, rather than taking a wider view of best practices 
and learning from every single accident, whether fatal or not.
    The MINER Act--the bipartisan legislation that Senator 
Kennedy referred to, that Senators Kennedy, Rockefeller, Byrd, 
Isakson, Murray, Hatch, and I drafted last year, was enacted to 
break that cycle--was done in record time, in a very bipartisan 
way. The MINER Act stands for individual mine-based accident 
prevention instead of a one-size-fits-all approach. With that 
law, we required that every mine become as best prepared as 
possible for an accident. We raised the standards for rescue 
teams, breathable air, communications technology, and seals, 
among other things. And we sought to turn the power of American 
inventiveness toward creating improved mine communication and 
rescue technology, and the emphasis is on inventiveness.
    The MINER Act is a law we can all be proud of. It's been in 
place a scant 16 months. Some of its provisions have not yet 
become effective. I would mention that that was the first 
change in mining law in 28 years. Yet, some are proposing that 
Congress amend the mining laws again. This is something we 
should look at very closely. Some are trying to connect the 
legislative proposal to the Crandall Canyon tragedy, but 
actually it would have done nothing to prevent that accident, 
and relates not at all to the high-cover mining, retreat mining 
techniques, seismic activity, and other issues that are raised 
by that tragedy that we have to look at.
    One of the reasons I'm so proud of the MINER Act, is that 
we wrote it in a way that I believe all legislation should be 
drafted. We brought in all of the stakeholders, the union, the 
industry, the safety experts, MSHA, the families, and we sat 
with them all and worked through the biggest safety concerns 
and the best way to approach them. MINER was the first major 
revision of the Mine and Safety Health Act in 28 years. I 
believe it's appropriate that we spend some time and get it 
right.
    That's not to say that there won't be lessons from Crandall 
Canyon, that may require changes, however, most changes in this 
highly technical area should be accomplished by safety experts, 
both inside and outside of government, that deal with these 
complex matters on a daily basis.
    In that regard, I'd note that this committee's current work 
on the MINER Act itself, is still not done. This committee 
significantly enhanced the mission of the Office of Mine Safety 
and Health within NIOSH, and I believe we're all very anxious 
to follow up on their research into wireless two-way 
communications and tracking devices that might actually help 
work in most underground mines.
    They're also exploring breathable air apparatus that will 
last longer, be less cumbersome for miners, and be safer to 
operate.
    I'm pleased to see Dr. Jeffrey Kohler from NIOSH here 
today. I've invited the mining experts here at NIOSH to come 
and brief me on the State of testing and research they're 
conducting, just how far we are away from wireless two-way 
communication systems that can really work on a consistent 
basis through rock. Of course, any of my committee colleagues 
that are also interested in these questions, are welcome to 
join in that briefing.
    Clearly, there is much this committee can do for miners. 
The Crandall Canyon tragedy should certainly re-double our 
commitment to this agenda. And to harness the promise of 
technology to ensure miners return home safely to their 
families. Let us honor those miners and all miners by focusing 
on real ways to improve mine safety, not just chasing 
headlines.
    I look forward to the hearing and the witnesses' testimony.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    I want to thank Chairman Kennedy for holding this hearing. 
Like all Americans, I am saddened that we are here again, 
discussing another tragic mining accident. In Crandall Canyon, 
Utah, six miners are presumed dead, and three rescue team 
professionals who risked their lives to save them are also 
lost. And in my home State of Wyoming just a few days ago, a 
17-year veteran in the underground Trona mines lost his life 
when the vehicle he was operating overturned. I'd like to 
express my condolences to his family and the mining community 
there in Green River.
    Every mining accident has a profound impact on the loved 
ones of those whose lives have been lost. Our prayers and 
sympathies go out to all of them. Every mining accident of the 
magnitude of Crandall Canyon demands thorough investigation; 
and appropriate action against anyone found culpable. The 
investigation and law enforcement efforts, if any, must be 
carried out by those with the expertise and authority to do so. 
Every mining accident must be an occasion for us to learn, and 
to change if necessary. We honor those whose lives have been 
lost best when we act to ensure that the tragedy will not be 
repeated. Every mining accident should not, however, become an 
opportunity for political posturing. Likewise, while every 
mining accident should be a learning experience, not every 
mining accident will require legislative action.
    In Wyoming, we are blessed with many natural resources and 
mining is a major source of employment. So it is very important 
to me that we do all we can here in the HELP Committee to keep 
mining as safe as it can be and to improve conditions wherever 
and whenever we can. In the case of Crandall Canyon, once all 
the facts are known and once the experts have fully analyzed 
the situation, we will then have an accurate picture of what 
may have gone wrong. This factual picture should be the guide 
for any future action.
    There is an understandable, but not always productive, 
tendency among those involved in regulating the mining industry 
to prematurely react to the last accident with significant 
fatalities, rather than taking a wider view of best practices 
and learning from every accident, fatal or not. One of the 
goals of the MINER Act, the bipartisan legislation Senators 
Kennedy, Rockefeller, Byrd, Isakson, Murray and I drafted last 
year and which was enacted, was to break that cycle.
    The MINER Act stands for individual mine-based accident 
prevention instead of a one-size-fits-all approach. With that 
law, we required that every mine become as best prepared as 
possible for an accident. We raised the standards for rescue 
teams, breathable air, communications technology and seals, 
among other things, and sought to turn the power of American 
inventiveness toward creating improved mine communication and 
rescue technology.
    The MINER Act is a law we can all be proud of. It has been 
in place a scant 16 months, and some of its provisions have not 
yet become effective. Yet some are proposing that Congress 
amend the mining laws again. This is something we should look 
at very closely. The legislative proposals some are trying to 
connect to the Crandall Canyon tragedy actually would have done 
nothing to prevent that accident, and relate not at all to high 
cover mining, retreat mining techniques, seismic activity or 
other issues raised by that tragedy.
    I would also like to bring to the committee's attention an 
article in the New York Times last week. They sent a reporter 
to Huntington, Utah to cover a meeting of the State Mine Safety 
Commission. The reporter wrote that every miner in attendance 
opposed new laws and believed current regulations were not 
inadequate. So that is the view of miners there in Utah, 
according to the New York Times. One of the reasons I am so 
proud of the MINER Act is that we wrote it in the way I believe 
all legislation should be drafted. We brought in all of the 
stakeholders--the union, the industry, the safety experts, 
MSHA--and we sat them all around the table and worked through 
the biggest safety concerns and the best way to approach them. 
MINER was the first major revision of the Mine Safety and 
Health Act in 28 years. I believe it is appropriate to wait at 
least 28 months before going into the statute again.
    That is not to say that there will not be lessons from 
Crandall Canyon that may require changes. However, most changes 
in this highly technical area should be accomplished by the 
safety experts both inside and outside of government that deal 
with these complex matters on a daily basis. We should listen 
to those experts to inform our decision about whether a change 
in the law is warranted. This is an area in which the experts 
should lead, and we should make sure the way is clear for them 
to do so.
    In that regard I'd note that this committee's current work 
on the MINER Act itself is still not done. This committee 
significantly enhanced the mission of the Office of Mine Safety 
and Health within NIOSH and I believe we are all very anxious 
to follow up on their research into wireless two-way 
communications and tracking devices that might actually work in 
most underground mines. They are also exploring breathable air 
apparatus that will last longer, be less cumbersome for miners, 
and be safer to operate. I am pleased to see Dr. Jeffrey Kohler 
from NIOSH here today. I have invited the mining experts there 
at NIOSH to come and brief me on the state of the testing and 
research they are conducting. Just how far away are we from 
wireless two-way communications systems that can really work on 
a consistent basis? Of course, any of my committee colleagues 
that are also interested in these questions are welcome to join 
in that briefing.
    Additionally, the committee is awaiting reports on the belt 
air technical review panel and on mine refuge chambers. The 
rescue team provisions from the MINER Act must be finalized by 
regulation before the end of the year, but there have been 
concerns raised in some States that have state-rescue teams 
that the new rules may be problematic. The HELP Committee has a 
responsibility to ensure that the MINER Acts' provisions are 
properly carried out so that they fulfill the promise we have 
made to miners. I hope we will do that.
    Following the Crandall Canyon tragedy Chairman Miller in 
the House and our own Chairman made it clear that they would 
initiate an aggressive oversight effort into what went wrong. 
Chairman Kennedy and I asked the Dept. of Labor Inspector 
General to investigate MSHA's actions at Crandall Canyon before 
and after the accident, and I'm glad to say that review is 
underway. The Secretary of Labor has also initiated an 
independent review by mining experts and the State of Utah has 
established a review panel. But these are not the only 
investigations going on. There are six official investigations 
into the Crandall Canyon accident, and by some counts as many 
as eight. Majority committee staff in both chambers are running 
separate and overlapping investigations, making extensive 
document requests of private citizens and State agencies, 
issuing subpoenas, questioning witnesses before MSHA has a 
chance to question them, and making multiple trips to the 
accident site. The Department of Labor's Solicitor has issued a 
warning that such committee activities could easily compromise 
MSHA's investigation and pleaded with Congress not to 
jeopardize MSHA's ability to hold those who may have violated 
the law accountable.
    Let me make it clear, I want to understand what went wrong 
and learn from this accident as much as anyone. But I believe 
that the best way to accomplish that goal is to allow experts 
to review these highly technical issues and issue reports. 
Based on these reports, Congress should determine whether there 
was misconduct by Federal agencies or mine operators and ensure 
that proper actions are taken. These multiple, overlapping 
investigations simply complicate the picture, delay results, 
add an unnecessary level of combativeness into the situation, 
and they cost a lot of money. When we are talking about 
protecting miners lives, it is certainly not something we put a 
price tag on. But the worst of the duplicitous investigations 
are not really targeted at protecting lives; they are about 
scoring political points. And the cost of this misuse will be 
taken out of the MSHA resources that really do protect miners' 
lives.
    Colleagues, we have established an Office of Inspector 
General for the Labor Department that has 423 employees and a 
budget of 71 million taxpayer dollars. They are investigating 
at our behest, and they have the access, expertise and staff 
necessary to conduct this investigation. Quite frankly, 
congressional committees do not. Let's allow the IG to perform 
their role and stop diverting resources away from MSHA's 
fundamental functions. We may be just one of the committees 
currently conducting this sort of oversight, but we could set 
an example for the others.
    Finally, I would like to point out another important 
responsibility this committee has towards miners. One I hope we 
will be able to keep. The Mine Safety and Health Review 
Commission (MSHRC) is an independent agency which acts as a 
lower court for questions of law and regulation under the Mine 
Safety and Health Act. This Commission is especially import now 
as many of the MINER Act provisions which will better protect 
miners are going into effect and facing challenges. Yet the 5-
member Commission is 2 members short and will lose a third by 
the end of the year. With only two members, it will be unable 
to make any rulings (but will still spend appropriations!). Two 
nominees for the Commission have been pending before the 
committee since January with no activity. I hope that we will 
move these nominations and ensure that the Commission is able 
to act to enforce our mining safety and health laws.
    Clearly, there is much this committee can do for miners. 
The Crandall Canyon tragedy should certainly re-double our 
commitment to this agenda. Let us honor those miners and all 
miners by focusing on real ways to improve miner safety, not 
just chasing headlines.

    The Chairman. Thank you, thank you very much, Senator Enzi. 
We would welcome to hear from Senator Hatch and maybe Senator 
Murray, if they'd like to, or other members. This is Senator 
Hatch's home State and he has been very much involved in 
working on this issue with all of us. We imagine he'd want to 
say a word. We'd welcome it if he did.

                       Statement of Senator Hatch

    Senator Hatch. Well, thank you, Mr. Chairman. I very much 
appreciate your holding this hearing. This is an important 
hearing today.
    I would like to just recognize my constituents who are in 
the audience today. I think I've got them all here. They are 
the family members of both the trapped and rescue miners, who 
gave their lives at the Crandall Canyon Mines in Huntington, 
Utah. We are joined this morning by family members of Manuel 
Sanchez, Kerry Allred, Louise Hernandez, Carlos Payan, Brandon 
Phillips, and Don Erickson, each of whom gave their lives in 
this noble profession of mining.
    Let us not forget the three brave rescue miners, who gave 
their lives in an attempt to rescue the six trapped miners at 
the Crandall Canyon Mine. We are also honored to be joined by 
members of their families, those of Mr. Brandon Kimber, Mr. 
Dale Black, and Mr. Gary Jensen. The three rescue miners who 
bravely gave their lives, made the ultimate sacrifice in an 
attempt to free their six trapped colleagues.
    All of these men are examples of the best of Utah. Their 
courage, their sacrifice, are why I'm so honored to serve the 
people of Utah, they are among some of the most selfless 
individuals in the country today. My thoughts and prayers are 
with each and every one of you at this time.
    I would also like to take another brief moment to thank all 
of those Utahans that participated in the rescue effort. My 
list is long and varied of the many that have sacrificed and 
given their time, knowledge, and resources to help with this 
tragedy. The list includes members, or officials from the 
Federal Mine Safety and Health Administration, Murray Energy 
Corporation, the U.S. Air Force, Utah's Transportation and 
Public Safety, Natural Resources, and Human Services, the Utah 
Air National Guard, local, State, and national government, and 
last but perhaps most importantly of all, the men, women, and 
children in the communities impacted by this tragedy.
    Mr. Chairman, these are good people. They're hardworking 
people and we understand how important mining is in our country 
today. We also understand that it's a dangerous profession. We 
want to get to the bottom of these things and see if there's 
any way we can protect more people in the future.
    I'm personally grateful for the work that you and Senator 
Enzi and others have done on the Mining Act and I'm very 
grateful that you're hosting this hearing this morning.
    Thank you very much.
    The Chairman. Thank you very much.
    We want to, if we could, hear from our chairman of our 
Subcommittee on Employment and Workplace Safety. Senator Murray 
has had a special interest in this subject matter, has had 
oversight hearings, and has been a leader in the legislative 
undertakings that we've had on this committee. If she'd say a 
word, we'd be grateful.

                      Statement of Senator Murray

    Senator Murray. Well, thank you very much, Mr. Chairman, 
for holding this hearing to talk about the tragic events that 
surrounded the Crandall Canyon Mine disaster and the ongoing 
mine safety concerns that face our country today.
    I want to join with others in recognizing the family 
members who are here and I want you to know that across the 
country, families are praying for all of you, from as far away 
as Washington State to the other end of the country. We all 
know what you're going through and are with you and want you to 
know that our thoughts and prayers are with you every day as 
you go through this.
    Mr. Chairman, we all know that miners work very hard every 
day on the job to provide the energy demands of our country and 
the needs of our families here at home. As a nation, I think we 
owe them a lot more than a debt of gratitude. We owe them our 
sincere efforts to ensure that each and every miner returns 
home safely. We also owe their families. We owe their families 
a guarantee that they will be treated with respect and with 
dignity and with consistency if they are ever faced with a 
tragedy.
    I know that many of my colleagues and the witnesses here 
have talked with a lot of these families who've lost husbands 
or fathers or brothers or sons to mining tragedies. The pain in 
their eyes is something that you just don't forget. I know that 
that will remain with all of us as we work our way through a 
response to this tragedy.
    As I watched from my home State of Washington, the tragedy 
play out at Crandall Canyon, I was angered that the families of 
the victims were subject to such an emotional rollercoaster 
caused by inaccurate and inconsistent information sharing. I 
think we can all agree that the families of victims deserve 
better than receiving life and death information from the 
nightly news. Tragedies like Sago, that we saw before, and 
Crandall are only compounded when family members are not given 
the best information first.
    So, Mr. Chairman, as a result, I've been working with 
others and will soon be introducing legislation, the Mine 
Disaster Family Assistance Act of 2007, to address that 
problem. I am also Chair of the Transportation Appropriations 
Subcommittee, and I am very familiar with the model that is 
used by NTSB to ensure that families have the best information 
when a tragedy occurs. I believe that we should incorporate 
elements of that highly effective model, when we deal with the 
Nation's mine safety legislation.
    We are very fortunate to have Mr. Joseph Osterman, who's 
the Managing Director of NTSB, with us today. He will be 
testifying about the NTSB model and help us learn how we can be 
more effective in supporting miner families during a tragedy.
    I want the families that are here today to know that we 
watched what you've gone through, we have learned from that, 
and we want to make sure that other families, if they're ever 
faced with a tragedy like this--we obviously want to prevent 
any tragedies first--but if they are ever faced with a tragedy, 
don't have to go through what all of you have suffered through. 
I appreciate your being here today.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Murray follows:]

                  Prepared Statement of Senator Murray

    Thank you, Mr. Chairman, for calling this important hearing 
to examine the tragic events surrounding the Crandall Canyon 
Mine disaster and the ongoing mine safety concerns facing our 
country today.
    I would like to take a moment to join my colleagues in 
expressing my deepest sympathy to the families of the brave men 
who lost their lives in this tragedy, many of whom are here 
with us today. Thank you for honoring us with your presence 
during such a difficult time.
    Miners work hard on the job every day to provide for the 
energy demands of our country and the needs of their families 
at home. As a nation, we owe them more than a debt of 
gratitude--we owe them our sincerest efforts to ensure that 
each and every miner returns home safely and that their 
families will be cared for with respect, dignity, and 
consistency if they are ever faced with tragedy.


                            pain of families


    As I know many of my colleagues and the witnesses here have 
done, I have talked with many of the families who've lost their 
husbands, fathers, brothers, and sons in previous mining 
tragedies. The pain I saw in their eyes is something very few 
of us have had to endure. And, it's something I'll never 
forget.
    After the tragedies in West Virginia last year, Senators 
from both sides of the aisle quickly worked together toward the 
same goal--crafting bi-partisan legislation designed to improve 
mine safety in the hope that tragedies like Sago and Alma would 
never be repeated.
    The MINER Act was a landmark piece of legislation and an 
important first step in meeting our goals but, as we have seen, 
we still have work to do.
    As was the case in Sago, we can't undo what happened and we 
can't take away the pain. But we can resolve to work together 
to give miners better protection and, when tragedies do occur, 
ensure that their families receive the best care possible. And 
that's why we're here today.


            miner health and safety enhancement act of 2007


    That's also why I, along with Senators Kennedy and Byrd, 
introduced the Miner Health and Safety Enhancement Act of 2007 
earlier this year, to address critical improvements to mine 
safety.


              mine disaster family assistance act of 2007


    But tragedies like the one at Crandall Canyon don't just 
focus our attention on the thousands of brave men who enter our 
coal mines every day to produce the energy our Nation relies 
on--they remind us that there are families who anxiously await 
word on their loved ones during times of disaster. And they 
deserve honest and clear answers from their government.
    We need to do more to make sure that if there is a mining 
incident they have access to accurate and consistent 
information from government officials.
    As Chair of the Transportation Appropriations Subcommittee, 
I am very familiar with the model used by the National 
Transportation Safety Board (NTSB) to ensure families have the 
best information first in the aftermath of an accident. And I 
believe we should consider incorporating elements of this 
highly effective model into the Nation's mine safety 
legislation.
    I think we can all agree that tragedies like Sago and 
Crandall are only compounded by inaccurate and inconsistent 
information sharing. That's why I'm proud to soon introduce the 
Mine Disaster Family Assistance Act of 2007 to address this 
problem.
    Modeled after the NTSB model, my bill does three things:

    <bullet> First, it establishes a family care and support 
program director at MSHA that puts the concerns of the accident 
victim's family first. Oftentimes there is confusion about the 
responsibilities of the party's involved and who is 
communicating with the family and the public about what is 
happening during an emergency. This bill defines those 
responsibilities and delegates a family support services 
director to ensure family members are getting support services 
and accurate information from a credible source. The program 
would work closely with an organization that specializes in 
disaster assistance, such as the American Red Cross, along with 
mine operators and other vital partners in mine safety.
    <bullet> Second, this bill requires all mine operators to 
develop a disaster family assistance plan that must be approved 
by MSHA, requiring mine operators to strategically plan for 
family care before an incident happens.
    <bullet> Finally, this bill establishes a task force to 
provide MSHA with additional recommendations on how to support 
families during mining disasters. It includes vital partners in 
the conversation such as the Bureau of Land Management, the 
American Red Cross, mine operators, including operators of 
smaller mines, union representatives, and, most importantly, 
families who have lost loved ones in past mining tragedies.

    It is critically important that family members who have 
experienced these tragedies have a voice in deciding how 
families in the future are cared for after an incident, and 
this bill aims to make that a reality.
    We're fortunate that Mr. Joseph Osterman, the managing 
director of the National Transportation Safety Board, could 
join us today to discuss the NTSB model and help us learn how 
it can be effective in supporting miner families. I understand 
that several members of your staff including Ms. Bryson, who's 
here with you today, have been very helpful to my staff during 
this process, and I would like to express my gratitude for 
their efforts.


                  implementing promising technologies


    Finally, we also need to make sure that if promising 
technologies are available, they're implemented sooner rather 
than later. I'm anxious to hear a progress report on that from 
NIOSH.
    As I've said before, I hope that as we move forward, we 
will not allow the perfect to be the enemy of the good. We know 
that every technology has limits, and nothing is foolproof, but 
if there are steps we can take to make progress--we shouldn't 
hold back.
    So, we have an important mission, Mr. Chairman. As Chairman 
of the Employment and Workplace Subcommittee, I look forward to 
working with my colleagues to identify how we can prevent 
future mining tragedies and better care for families during an 
emergency.

    The Chairman. I want to thank Senator Murray. That's 
enormously important, the issue in question and one that she's 
been very much involved in. We certainly welcome her leadership 
in this area.
    We have two other members here, who represent States which 
have important and significant mining responsibilities. I'd 
welcome a brief comment from Senator Allard then Senator Brown, 
if they would, and then we'll get on with the witnesses.

                      Statement of Senator Allard

    Senator Allard. Mr. Chairman, thank you. I understand that 
you're anxious to get on to hear from the witnesses as I am, so 
I will keep my comments very brief. I wanted to thank you and 
Senator Enzi for holding this hearing. This is an important 
hearing.
    I'd also like to express my sympathies to the Senators from 
Utah, as well as the families that we have here in the hearing 
room today.
    I would also like to welcome Robert Ferriter, who is the 
Administrator of Mine Safety and Health, from the Colorado 
School of Mines, and his testimony here. I won't be able to be 
here for the full hearing and may very well miss his testimony 
because I have a conflict with another meeting.
    But I am very interested in what happens in this hearing. I 
think that we have to be ever vigilant. I come from a State 
where we've had mine tragedies occur and I can relate to many 
of their concerns. I'd also, just again, say that I think this 
is a very important hearing because it's been 16 months since 
we passed new legislation and I think we need to see how things 
are operating as far as mine safety is concerned, so that we 
fully understand the facts and take whatever action may be 
necessary to prevent tragedies from happening again.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, and we'll look forward 
to listening to the Professor. He has a very interesting 
background and a wide range of experience. I know his testimony 
will be very helpful.
    Senator Brown.

                       Statement of Senator Brown

    Senator Brown. Thank you, Mr. Chairman.
    I would like to acknowledge the many Utah families that 
have traveled here today and offer you my condolences as you go 
through this period of mourning, and my prayers.
    Sometime during, after the tragedy, there was an article 
online where a woman wrote, and I'd just like to quote from 
what she said. She wrote,

          ``I'm a coal miner's wife as well as a coal miner's 
        daughter. I think that everyone that can not physically 
        or otherwise assist in the rescue efforts needs to pray 
        and ask God to take care of these families and their 
        loved ones who are under that mountain. This is a fear 
        you live with every day in the mining community. I also 
        want to say that these men know what they're going 
        into, they know the risks, they do it anyway. My 
        husband would never do anything else. It's like it's in 
        their blood. They are the most respectful, loyal 
        individuals you'll ever meet.''

    How important their services are to this Nation as a whole. 
For the last 6 or 7 years, I have worn on my lapel a little pin 
that depicts a canary in a bird cage. You all, of course, know 
this story a hundred years ago, of the miners taking the canary 
down into the mines. That really represents to me, a lot about 
mine safety, worker safety, protections for workers. It 
illustrates to me how far we've come in mine safety, but it 
also challenges us, that we need to do a good bit more on mine 
safety and on all the issues that Senator Murray talked about.
    You--the mine workers--do their jobs every day. We, in the 
Senate, need to do our jobs.
    Thanks, Mr. Chairman.
    [The prepared statement of Senator Brown follows:]

                  Prepared Statement of Senator Brown

    I would like to acknowledge the many Utah families that 
have traveled here today.
    My condolences go out to you. And I pray that you will find 
strength and peace in your time of mourning.
    I would also like to thank the HELP Committee Chairman, 
Senator Kennedy for calling this important meeting.
    In response to an online article written about the tragedy 
in Crandall Mines in Utah, a reader posted comments that I 
imagine mirror the way many people in this room feel today.
    Her words were straightforward and plain. She wrote,

          ``I am a coal miner's wife, as well as a coal miner's 
        daughter. I think that everybody that cannot physically 
        or otherwise assist in the rescue efforts, needs to 
        pray, and ask God to take care of these families, and 
        their loved ones who are under that mountain. This is a 
        fear you live with everyday in the mining community.''

    She continued,

          ``I also want to say that these men know what they 
        are going into. They know the risk and do it anyway. My 
        husband would never do anything else. . . . It is like 
        it is in their blood.''

    She finished,

          ``They are the most respectful, loyal individuals you 
        will ever meet. How important their services are to 
        this Nation as a whole.''

    Coal miners, and their families, are a humble people who 
proudly perform their jobs. They provide for their families and 
take pride in their communities. Our country depends on them to 
extract the resources necessary to power this country.
    More than anyone else, coal miners and their families 
understand the dangers of a coal mine. They live with that risk 
day-in and day-out. As that coal miner's daughter stated, 
``They know the risk and do it anyway.''
    But to the extent we can minimize the risks coal miners 
face, we must do it. And we must do it now.
    It was only a short time ago that this committee was 
discussing the Sago and Alma disasters. And yet here we are 
today, again, reeling from a mine disaster, holding yet another 
hearing on mine safety.
    You would have thought that we would have finally learned 
our lesson. You would have thought that we had experienced 
enough loss and heartbreak. The most frustrating fact of this 
hearing today is how tragically familiar it sounds. If the loss 
was not so painfully real, you would think we were simply 
reliving the past.
    Unfortunately, that's not the case. Another miner has lost 
his life, another spouse has lost a partner, and another child 
has lost a parent.
    The passage of the MINER Act was a step in the right 
direction. It provided needed updates to the outdated 1977 law. 
The MINER Act finally provided miners with emergency plans, 
increased supplies of oxygen, and improved rescue teams.
    The MINER act was a step in the right direction, but it is 
only a first step. Tragedies like the one at Crandall Canyon 
demonstrate the need for the continued improvement of our 
mining practices, regulations and equipment.
    We owe it to the Crandall Canyon coal miners and their 
families to take action. Congress, MSHA and coal mine operators 
must work together to learn from our mistakes. We must pledge 
not to repeat them.
    The miners we lost in Utah went to work every day and 
simply did their jobs. It's time for us to do ours.

    The Chairman. Thank you very much.
    Our first witness, Kevin Stricklin, worked for MSHA for 26 
years and has been the Administrator of Coal Mine Safety and 
Health at MSHA since October 2006. He's been involved in many 
mine emergencies throughout his career as District Manager of 
Coal Mine Safety and Health, MSHA's Morgantown, West Virginia 
District Office. Mr. Stricklin's a graduate of the University 
of Pittsburgh with a degree in mining engineering.
    Then we'll hear from Jeffrey Kohler, who's an Associate 
Director of Mine Safety and Health Research at the National 
Institute for Occupational Safety and Health. Dr. Kohler served 
as the Director of the NIOSH Pittsburgh Research Laboratory 
from 1998 to 2004, which is internationally renowned for its 
work in all areas of mining safety and health. He holds a B.S. 
in engineering science, M.S. and Ph.D. degrees in mining 
engineering, all from Pennsylvania State University.
    Joseph Osterman has served as the Managing Director of the 
National Transportation Safety Board since March 2005, has 
worked for the Board since 1986. He is responsible for the 
Family Assistance Center, which cares for family members of 
transportation disasters. He has been involved with, or 
overseen the investigation of, over 2,500 serious 
transportation accidents and the issuance of over 900 safety 
recommendations.
    Gentlemen, welcome. You are here and we'll ask Mr. 
Stricklin if he would start, please?

   STATEMENT OF KEVIN STRICKLIN, ADMINISTRATOR FOR COAL MINE 
   SAFETY AND HEALTH, MINE SAFETY AND HEALTH ADMINISTRATION, 
                         ARLINGTON, VA

    Mr. Stricklin. Chairman Kennedy, Ranking Member Enzi, 
members of the committee, I am pleased to appear before you 
today.
    My name is Kevin Stricklin, and I currently serve as the 
Administrator for Coal Mine Safety and Health. I have 28 years 
of experience in mining, including 27 with the Mine Safety and 
Health Administration.
    I am deeply saddened by the tragic accident that occurred 
at the Crandall Canyon Mine on August 6, which claimed the 
lives of six miners and by the subsequent accident that claimed 
the lives of three rescue workers, including one MSHA employee 
on August 16. Such losses are always felt deeply by all of us 
in the mining community, including the personnel of MSHA.
    We will not know the cause of these tragedies until MSHA 
completes its accident investigation, which is now ongoing. As 
in every investigation, MSHA has committed to providing a full 
report as expeditiously as possible to the public when the 
investigation is complete. We're also cooperating with 
officials from Governor Huntsman's Office, as well as Utah 
State Mining Commission, and has offered to provide all 
relevant information to the Commission as soon as possible 
without prejudicing its ongoing law enforcement investigation. 
A separate investigation of the Agency's role into this matter 
is being directed by another investigative team headed by 
experienced mining professionals who are not MSHA employees. 
That report will also be made public.
    MSHA's records indicate the first plan for retreat mining 
at Crandall Canyon Mine was approved on September 27, 1989. 
Retreat mining is a common practice nationwide, where coal 
pillars are mined--where coal is mined from coal pillars. When 
this coal is mined the roof normally falls in a structured 
manner to relieve the pressure placed on the underground mine 
workings.
    Currently, 223 underground mines have approved roof-control 
plans that allow for pillar removal, which represents about 48 
percent of all active underground coal mines. When conducted 
according to proper engineered roof-control plans that are 
developed by mine operators and reviewed and approved by MSHA, 
retreat mining can be done safely, especially with today's 
technology advances that include mobile remote-controlled roof 
supports.
    Overall, the roof fall fatality rate in the U.S. 
underground coal mines has averaged .001 per 200,000 hours 
worked in recent years, prior to the Crandall Canyon accident, 
which is significantly down from its average in the past.
    But while this practice has become safer, mine operators 
must still follow the approved roof-control plans to ensure 
that the practice is safe. By way of comparison, the entire 
mining industry fatal rate, incident rate is .0142.
    Since Murray Energy took control of the mine in August 
2006, MSHA has approved two amendments to the roof-control plan 
that allowed for pillar extraction in both the North Barrier of 
main west and in the South Barrier of main west. Prior to the 
approval of these amendments, an MSHA roof-control supervisor 
and specialist visited the mine to assess the conditions in the 
north main barrier. And based on their observations, required 
additional roof support.
    The operator subsequently amended the plan to meet the 
additional MSHA requirements and then the plan was approved. 
The operator submitted another amendment to its roof-control 
plan, asking for permission to use retreat mining in the south 
main barrier on May 17. Again, an MSHA roof-control supervisor 
and a specialist were underground on the section on May 22, to 
evaluate the submitted plan. The retreat plan, with the 
increased pillar dimensions, was approved on June 15 of this 
past year.
    Before each of these plan amendments were approved, MSHA 
technical specialists in the area of roof-control support made 
onsite visits to the mine, reviewed the technical supporting 
data submitted by the operator, and made evaluations of the 
proposal, based on their knowledge of deep-mine conditions that 
prevail in the Rocky Mountain underground coal mines.
    With more mining operations moving into reserves under 
deeper overburden and/or below previously mined areas, there is 
a need to understand methods to prevent, and in the event they 
do occur, to mitigate the consequences of bumps in such new 
circumstances. For this reason, MSHA is reviewing the 
operator's ground control plans, to assure operators minimize 
the dangers associated with bumps.
    In District Nine, which has jurisdiction over the mines in 
Utah, we have rescinded all room and pillar retreat mining 
plans in areas with greater than 1,500 foot of cover.
    Again, thank you for inviting me to be here today, and I'll 
look forward to answering any questions that any of you may 
have.
    [The prepared statement of Mr. Stricklin follows:]
                Prepared Statement of Kevin G. Stricklin
    Chairman Kennedy, Ranking Member Enzi, members of the committee, I 
am pleased to appear before you today.
    My name is Kevin Stricklin, and I currently serve as the 
Administrator for Coal Mine Safety and Health. I have 28 years of 
experience in mining, including 27 years with the Mine Safety and 
Health Administration (MSHA).
    I am deeply saddened by the tragic accident that occurred at the 
Crandall Canyon mine on August 6, 2007, which claimed the lives of six 
miners and by the subsequent accident that claimed the lives of three 
rescue workers, including one MSHA employee on August 16, 2007. Such 
losses are always felt deeply by all of us in the mining community, 
including MSHA.
    We will not know the cause of these tragedies until MSHA completes 
its accident investigation, which is now ongoing. As in every 
investigation, MSHA has committed to providing a full report to the 
public when the investigation is complete. A separate investigation of 
the Agency's role in this matter is being directed by another 
investigative team headed by experienced mining professionals who are 
not MSHA employees. That report will also be made public.
                             retreat mining
    Retreat mining is a common practice nationwide where coal is mined 
from coal pillars. When this coal is mined the roof normally falls in a 
structured manner to relieve the pressure placed on the underground 
mine workings. Currently, 223 underground coal mines have approved roof 
control plans that allow for pillar-removal. This represents 48 percent 
of all active underground coal mines. When conducted according to 
properly engineered roof control plans that are developed by mine 
operators and reviewed and approved by MSHA, retreat mining can be done 
safely, especially with today's technological advances that include 
mobile, remote controlled roof supports. Overall, the roof fall 
fatality rate in U.S. underground mines has averaged 0.001 per 200,000 
hours worked (or 1 annually per 100,000 full-time miners) in recent 
years (prior to the Crandall Canyon accident), down significantly from 
its average in the past. But, while the practice has become safer, mine 
operators must follow the approved roof control plans to ensure that 
the practice is safe.
                 retreat mining at crandall canyon mine
    MSHA's records indicate the first plan for retreat mining at 
Crandall Canyon Mine was approved on September 27, 1989. Prior to 
Murray Energy taking control of the mine, longwall mining at Crandall 
Canyon had been completed and the previous ownership was conducting 
retreat mining at various locations. Since Murray Energy took control 
of the mine in August 2006, MSHA approved two amendments to the 
Crandall Canyon roof control plan that allowed for pillar extraction in 
both the North Barrier of Main West and in the South Barrier of Main 
West of the mine. The first plan for retreat mining under Murray Energy 
Corp.'s ownership was submitted on January 3, 2007, and approved on 
February 2, 2007. The roof-control plan for the mine was amended to 
allow retreat mining of the North Barrier of the Main West and was 
signed by the MSHA District Manager Allyn Davis. A second amendment to 
the roof control plan was approved on June 15, 2007, for retreat mining 
of the South Barrier of the Main West. The accident on August 6, 2007, 
occurred in the South Barrier of Main West. Before each of these plan 
amendments were approved, MSHA technical specialists in the area of 
roof control support made onsite visits to the mine, reviewed the 
technical supporting data submitted by the operator and made 
evaluations of the proposal based on their extensive knowledge of deep 
mining conditions that prevail in the Rocky Mountain underground coal 
mines.
    As part of the operator's submission for roof control approval of 
the North Barrier, two geotechnical reports by Agapito Associates, Inc. 
(Agapito) were provided, upon request, to MSHA for review and 
consideration. In their reports, Agapito concluded that retreat mining 
could be conducted safely in that area of the mine. Prior to the 
approval of the plan, a MSHA roof control supervisor and specialist 
visited Crandall Canyon to assess the conditions in the North Main 
Barrier and based on their observations, required amendments to the 
roof control plan for additional roof supports. The operator 
subsequently amended the plan to meet the additional MSHA requirements 
and then the plan was approved.
    Mining took place on the North Main Barrier until March 2007, when 
a mountain bump occurred, but MSHA was not officially notified about 
this bump or the magnitude. According to Murray Energy this was not a 
reportable incident because the outburst did not significantly disrupt 
mining activity, impair ventilation, or impede passage in the area. 
However, after the bump, mining was abandoned in that section. The 
accident investigation team will confirm whether the incident was 
required to be reported to MSHA as part of its work. The operator 
submitted another amendment to its roof control plan asking for 
permission to use retreat mining in the South Main Barrier. Murray 
Energy again commissioned Agapito to evaluate the stability of that 
section of the mine. While Agapito again concluded that retreat mining 
could be conducted safely, it also suggested enlarging the dimension of 
coal pillars that were left to support the roof from 80 by 92 feet to 
80 by 129 feet. A MSHA roof control supervisor and a roof control 
specialist were underground in the South Barrier Section on May 22, 
2007, to evaluate the operator's submitted plan to retreat mine. The 
retreat mining plan with the increased pillar dimensions was approved 
by MSHA on June 15, 2007.
              msha inspection activity at crandall canyon
    Under the Mine Safety and Health Act, MSHA is required to inspect 
all underground coal mines four times a year. Since the purchase of the 
Crandall Canyon mine by Murray Energy, MSHA performed five regularly 
scheduled inspections and two spot inspections, responded to a safety 
complaint from one of the miners, and performed a roof control 
technical inspection. One of the regularly scheduled inspections was 
occurring when Murray Energy Corp. purchased the mine.
                               mine bumps
    One of the most difficult, longstanding engineering problems 
associated with mining is the catastrophic failure of mine structures 
known as bumps. Coal and rock outbursts caused by bumps or bounces have 
presented serious mining problems for decades in metal, nonmetal, and 
coal mines. Fatalities and injuries have resulted when these 
destructive events occur.
    Bumps have been categorized as either pressure or shock bumps. A 
pressure bump occurs when a pillar in a developed area is statically 
stressed past the failure strength of the pillar. A shock bump is 
caused by dynamic loading of the pillar through dramatic changes in 
stress distribution within the overlying strata as the result of 
breaking of thick, massive strata. In many cases bumps are the result 
of the combination of both pressure and shock forces. Bumps occur when 
complex arrangements of geology, topography, in situ stress and mining 
conditions interact to interfere with the orderly dissipation of 
stress. Strong, stiff roof and floor strata not prone to failing are 
also contributing factors when combined with deep overburden. Questions 
about the influence of individual factors and interaction among factors 
arise, but are difficult to answer owing to the limited experience at a 
given mine.
    Bumps have occurred in all types of mining systems. A U.S. Bureau 
of Mines report that reviewed bumps that occurred between 1936 and 1993 
found that pillar retreat mining accounted for 35 percent of the bumps, 
barrier splitting for 26 percent, longwall mining for 25 percent, and 
development mining for 14 percent. Longwall mining methods have 
increasingly replaced pillar retreat mining since the 1960's and would 
most likely account for a higher percentage of bumps today.
    With more mining operations moving into reserves under deeper 
overburden and/or below previously-mined areas, there is a need to 
prevent, and, in the event they do occur, to mitigate the consequences 
of bumps in such new circumstances. For this reason, MSHA is reviewing 
operators' ground control plans to ensure operators minimize the 
dangers associated with bumps, and District 9 has rescinded all room 
and pillar retreat mining plans in areas with greater than 1,500 feet 
of cover.
                   the crandall canyon mine accident
    On August 6, at approximately 2:50 a.m. Mountain Daylight Time, a 
mine bump occurred at the Crandall Canyon mine, located near 
Huntington, Utah. The force of this mine bump was registered by 
seismographs, and the U.S. Geological Survey National Earthquake 
Information Center initially disclosed that an earthquake with a 
magnitude of 3.9 on the Richter Scale occurred near the mine. 
Seismologists with the U.S. Geological Survey National Earthquake 
Information Center in Colorado and the University of Utah have since 
stated that the seismic event was a mine collapse, not an earthquake. 
Inside the mine, the force of this bump was so intense that it blew the 
ventilation stoppings out through cross-cut 95--more than a mile from 
the area where the miners were working. After the event, six miners--
Manuel Sanchez, Brandon Phillips, Alonso Hernandez, Don Erickson, 
Carlos Payan, and Kerry Allred--were missing. The subsequent rescue 
attempt within the mine moved slowly, because safety dictated the 
installation of rib supports consisting of 40-ton rock props, chain-
link fence and steel cables to protect the rescue workers from further 
mine bumps. These safety precautions--which were recommended by experts 
from MSHA and outside the agency--proved not strong enough to prevent a 
second burst from fatally injuring three rescue workers. At that point, 
MSHA halted the rescue attempts inside the mine, while continuing the 
rescue work from the surface.
                    crandall canyon accident outline
    On the early morning of August 6, 2007, a ground failure occurred 
at the Crandall Canyon Mine in Huntington, Utah, that, according to the 
U.S. Geological Survey, registered 3.9 on the Richter Scale, and was 
initially reported by the Associated Press as an earthquake. MSHA's 
call center was subsequently notified and MSHA quickly dispatched an 
inspector to the mine site. Before arriving onsite, MSHA issued a 
section 103(k) order over the phone which required management to 
evacuate the mine and effectively secure the site. This verbal order 
was put into writing early on the morning of August 6.
    MSHA ``(k) orders'' are an enforcement tool used to ensure the 
safety of any person in a mine when accidents occur. The mine operator, 
in consultation with any appropriate State representatives must, under 
a (k) order, obtain MSHA's approval of its rescue or recovery plans. 
The original (k) order issued by MSHA was modified several times in the 
days following the initial mine collapse. At Crandall Canyon, MSHA 
modified the (k) order to allow recovery operations to continue in 
accordance with approved site specific plans. These plans were signed 
by the senior onsite mine operator's official and by the senior onsite 
MSHA official prior to their implementation.
    Shortly after arriving onsite, the MSHA inspector contacted the 
MSHA Field Office to report that a six-man crew was working in the 
South Barrier section when a bounce occurred that extensively damaged 
the mine's ventilation controls. These individuals were unaccounted 
for, but they were believed to be working approximately four miles from 
the mine's entrance.
    On the afternoon of August 6, 2007, with MSHA's approval, Murray 
Energy Corp. began removing coal and debris from the No. 4 entry at 
crosscut 120. Meanwhile, a mine rescue team had breached the No. 1 seal 
in Main West, hoping to be able to get behind that seal and clear an 
easier pathway to reach the trapped miners. Unfortunately, the rescue 
team encountered significant amounts of coal blocking its pathway, and 
then had to withdraw altogether from the sealed area because another 
bounce occurred.
    Mucking or clearing out the fallen coal from the main entry was a 
time-consuming process and Murray Energy and MSHA believed that it 
needed to reach the trapped miners more quickly to save their lives, if 
they survived the initial collapse. Thus, following the first day of 
the rescue operation, Murray Energy decided, with MSHA's consultation 
and approval, to drill bore holes into the mine from the surface in an 
attempt to establish contact with the miners and to assess the 
conditions in the area where they were believed to be.
    By August 7, drilling had begun on the first borehole, which was a 
two-inch hole at crosscut 138. The mine operator selected all of the 
borehole locations with input and approval from MSHA. These locations 
were based upon the probable locations of the missing miners after the 
first bounce occurred on August 6. The first set of boreholes was 
drilled to intersect the mine at the location where the miners were 
last thought to be working at the time of the accident. Mine survey 
coordinates were used to pinpoint specific drilling locations.
    In all, seven boreholes were drilled (the rest being 8 and 5/8 
inches in diameter) but rescuers were not able to determine the 
location of the miners. In every borehole, rescuers attempted to insert 
a microphone and camera to either hear or see the trapped miners. 
Rescue workers also tapped repeatedly on the drill steel to signal to 
the trapped miners; miners are trained to reply by tapping below the 
surface. However, none of these communication efforts were successful.
    As the rescuers continued to drill boreholes from the mine's 
surface, another group continued the mucking and clearing efforts in 
the mine's entry until another bounce occurred on August 16, which 
claimed the lives of three of the rescuers and injured six others. 
Because of that bounce, mucking efforts within the mine were suspended 
indefinitely. Neither MSHA, nor the outside experts brought to the mine 
site to review the mining conditions and rescue plan could devise a way 
to stabilize and reenter the mine. MSHA believed the plan it approved 
for the rescue operations prior to August 16 provided the maximum 
amount of protection to the rescuers possible, but it was not enough.
            msha's communication response at crandall canyon
    Immediately after MSHA was notified of the Crandall Canyon 
accident, MSHA began acting as the primary communicator with the 
families, policymakers, the public and the media; a responsibility 
which MSHA takes very seriously after the Sago Mine accident.
    On the morning of August 6, 2007, MSHA dispatched three family 
liaisons to the location where the family members were gathered to 
begin regularly updating them on the rescue operation. MSHA also 
provided interpreters for the Spanish speaking families. Clergy and 
counselors were also available. In the evening of August 6, MSHA began 
participating in these briefings providing updates and answering family 
members' questions.
    MSHA also acted as the primary communicator with the media. MSHA 
held regular briefings every day for reporters off of the mine site at 
the sheriff 's command center. During these briefings, we provided 
detailed updates regarding the rescue effort and answered reporters' 
questions. MSHA also provided regular updates on the Agency's Web site 
regarding the rescue effort and issued media advisories concerning our 
updates at the mine site.
    In addition, MSHA personnel regularly updated Utah's governor and 
congressional delegation on the status of the rescue operations, both 
on and off-site. I also briefed the Utah Legislature at an open public 
forum on August 29, 2007, in Salt Lake City.
                               conclusion
    Mr. Chairman, thank you for inviting me to testify today to present 
a technical review of the accident at Crandall Canyon. I look forward 
to answering any questions you may have.
                                 ______
                                 
           Appendix 1: Crandall Canyon Roof Control Timeline
    In spring 2006, Genwal Resources, Inc. (Genwal) discussed the 
possibility of pillar mining the Main West barrier pillars. (Robert 
Murray is the current Controller of Genwal.) MSHA required an adequate 
justification for this activity.
                           september 8, 2006
    <bullet> Genwal provided MSHA with two Agapito geotechnical 
engineering reports that concluded the Main West barrier pillars could 
be safely developed and retreat mined.
                              october 2006
    <bullet> MSHA reviewed the Agapito geotechnical reports.
    <bullet> MSHA reviewed accident/injury data for the mine.
    <bullet> MSHA reviewed retreat mining data from other mine areas.
                           november 13, 2006
    <bullet> MSHA received Genwal's site-specific plan to develop North 
Main West barrier pillar.
                           november 21, 2006
    <bullet> MSHA completed its review and approved the 4-entry 3-
pillar development of the North Main West barrier pillar.
    <bullet> MSHA requested additional information regarding the 
Agapito report data.
                             december 2006
    <bullet> MSHA discussed the Agapito report data with mine personnel 
and clarified outstanding issues.
                            january 3, 2007
    <bullet> MSHA received Genwal's site-specific plan to retreat mine 
North Main West barrier pillar.
                            january 9, 2007
    <bullet> MSHA conducted an onsite evaluation of ground conditions 
in the North Main West barrier pillar development; MSHA then made 
recommendations for additional bleeder entry support and top coal roof 
support.
                            january 18, 2007
    <bullet> MSHA completed its review and approved a plan revision 
that allowed top coal in areas of weak immediate roof.
                            january 31, 2007
    <bullet> MSHA e-mailed the mine to stipulate the minimum 
requirements that would provide acceptable support for the bleeder 
entry.
                            february 1, 2007
    <bullet> MSHA received the requested information with bleeder 
support revisions.
                            february 2, 2007
    <bullet> MSHA completed its review and approved the plan to retreat 
mine the North Main West barrier pillar.
                           february 23, 2007
    <bullet> MSHA received Genwal's site-specific plan to develop South 
Main West barrier pillar.
                             march 6, 2007
    <bullet> MSHA received the Agapito report, dated December 8, 2006, 
onsite visit to North barrier development; in-mine conditions reflected 
accuracy of computer models.
                             march 8, 2007
    <bullet> MSHA completed review and approved the 4-entry 3-pillar 
development South Main West barrier pillar.
                             march 12, 2007
    <bullet> MSHA received information from Genwal that pillar mining 
in North Main West barrier had stopped due to ground stability 
problems.
                              may 15, 2007
    <bullet> MSHA received the Agapito report containing 
recommendations for mining the South Main West barrier pillar.
                              may 17, 2007
    <bullet> MSHA received the plan to retreat mine the South Main West 
barrier pillar.
                              may 22, 2007
    <bullet> MSHA conducted an onsite evaluation of ground conditions 
in the South Main West barrier pillar development and made 
recommendations against mining the eight pillars from crosscut 139 to 
crosscut 142 to protect the bleeder entry; Genwal agreed with the 
recommendation.
                             june 15, 2007
    <bullet> MSHA completed its review and approved the plan to retreat 
mine the South West Main barrier pillar.
                                 ______
                                 
                     Appendix 2: Accident Timeline
                             august 7, 2007
    <bullet> In the early morning hours, repairs to damaged ventilation 
systems continued. MSHA's roof control personnel traveled into the mine 
to evaluate conditions to help determine whether or not clearing this 
entryway could resume safely.
    <bullet> The drilling equipment used to drill the first 2 inch 
borehole was put in place at crosscut 138 approximately where the 
miners were believed to be the evening before and drilling began.
                             august 8, 2007
    <bullet> In the morning, MSHA approved a new mine rescue plan 
presented by Murray Energy to allow clearing the No. 1 entry, but with 
extensive rib support.
    <bullet> In the evening, drilling of the second borehole began. 
This borehole was drilled with an 8 and 5/8 inch bit.
                             august 9, 2007
    <bullet> In the evening, the drill for the first borehole broke 
through the mine cavity and a microphone was lowered in to determine 
whether or not any underground activity could be heard. No activity was 
detected and rescuers continued drilling the second borehole.
                            august 10, 2007
    <bullet> An analysis of the atmosphere in the first borehole 
revealed low oxygen readings, but a 3\1/2\ foot void was detected in 
the bored area in the mine.
    <bullet> In addition, a two-man team tried to advance in the No. 1 
entry but to no avail.
                            august 11, 2007
    <bullet> Early in the morning, the second borehole (8 and \5/8\ 
inches) broke through the mine cavity, but no communication was 
detected from underground. A roof height of 8 feet was detected and a 
camera was lowered into the cavity but only wire mesh in the roof was 
detected.
                            august 12, 2007
    <bullet> In the evening, another camera was lowered into the number 
2 borehole and compressed air began to be pumped in. No response from 
the trapped miners was detected.
    <bullet> In addition, a pad for a third borehole began to be 
constructed.
                            august 13, 2007
    <bullet> Early in the morning a third camera was lowered into the 
second borehole, and again no sign of the miners was detected.
    <bullet> In addition, the drilling equipment was moved from the 
second to the third borehole and drilling began in the evening.
                            august 14, 2007
    <bullet> Drilling of the third borehole continued while a drill pad 
began to be constructed for a fourth borehole.
                            august 15, 2007
    <bullet> Mid-morning, the third borehole broke through the mine 
cavity. A microphone was lowered into the hole but no communication 
with the trapped miners resulted. Seismic equipment, however, picked up 
an unidentified vibration that was not heard again. A camera was 
subsequently lowered into the hole, but nothing of note was seen.
                            august 16, 2007
    <bullet> In the early morning, the drilling equipment was moved to 
the site of the fourth borehole and drilling began.
    <bullet> Later in the evening, a significant bounce occurred in the 
mine and several rescuers were covered up by coal. In the end, six 
rescuers were injured and three were killed, including one MSHA 
employee.
    <bullet> As a result, rescue efforts proceeding inside of the mine 
were halted indefinitely after advancing over 900 feet. These have not 
resumed because no way to proceed safely has been identified by either 
MSHA or outside ground control experts.
                            august 18, 2007
    <bullet> In the morning, the fourth borehole broke through the mine 
cavity. No response from the trapped miners was detected.
    <bullet> In the evening a camera was lowered into the hole and 
nothing was detected. Nothing was detected with seismic equipment.
                            august 19, 2007
    <bullet> In the evening, rescuers began drilling a fifth borehole.
                            august 22, 2007
    <bullet> Drilling in the fifth borehole broke through the mine 
cavity. Rescuers could not, however, get a camera into the hole because 
the hole became blocked.
                            august 23, 2007
    <bullet> Rescuers began drilling a sixth borehole in the evening.
                            august 25, 2007
    <bullet> Drilling in the sixth borehole broke through the mine 
cavity. A camera was lowered into this hole in the early morning of 
August 26, but there was no sign of the trapped miners. On August 27, 
rescuers also attempted to lower a robot into this hole, but were 
unable to complete this task because there was too much debris in the 
area.
                            august 28, 2007
    <bullet> In the early morning, rescuers began drilling a seventh 
borehole, which broke through the mine cavity on August 30, 2007.
                           september 1, 2007
    <bullet> MSHA declared that it exhausted all known options to reach 
the six miners after 25 days of rescue and recovery operations.
                                 ______
                                 
    Appendix 3: Inspection Record for Crandall Canyon During Murray 
                            Energy's Control


----------------------------------------------------------------------------------------------------------------
                                                                               Beginning                  Event
               Inspection Code                        Inspection Type             Date     Ending Date   Number
----------------------------------------------------------------------------------------------------------------
E01.........................................  Regular Inspection............     7/5/2006    9/22/2006   4476247
E01.........................................  Regular Inspection............    11/2/2006   12/13/2006   4474244
E01.........................................  Regular Inspection............   12/29/2006    3/29/2007   4476407
E01.........................................  Regular Inspection............    5/30/2007     7/2/2007   4474428
E01.........................................  Regular Inspection............     7/5/2007      Present   4474193
E03.........................................  Hazard Complaint Investigation     2/1/2007     2/7/2007   4474269
E16.........................................  Spot..........................    9/25/2006    10/3/2006   4477639
E16.........................................  Spot..........................    4/11/2007    4/11/2007   4474279
E20.........................................  RC Technical Investigation....    5/22/2007    5/22/2007   4476485
----------------------------------------------------------------------------------------------------------------


    The Chairman. Thank you very much.
    Dr. Kohler.

 STATEMENT OF DR. JEFFREY KOHLER, ASSOCIATE DIRECTOR FOR MINE 
                   SAFETY AND HEALTH RESEARCH

    Mr. Kohler. Good morning, Mr. Chairman, and other 
distinguished members of the committee. My name is Jeffrey 
Kohler, and I am the Associate Director for Mine Safety and 
Health Research, at the National Institute for Occupational 
Safety and Health, which is part of the Centers for Disease 
Control, within the Department of Health and Human Services. I 
am pleased to be here today to give you an update on NIOSH's 
mine safety activities, including those that have been 
initiated under the MINER Act.
    Mine safety has improved significantly over the years, yet 
the mine disaster in 2006, and the recent disaster at the 
Crandall Canyon Mine, serve as painful reminders of the dangers 
inherent to this industry, as well as drawing attention to our 
need to ensure the safety of all miners.
    Moreover, these tragedies expose the challenges associated 
with escape and rescue, and underscore the importance of 
prevention of disaster.
    The Crandall Canyon Mine disaster has focused attention on 
coal mine ground control. The prevention of fatalities and 
injuries from failures of the roof, pillars or floor has been a 
priority area at NIOSH for many years, and significant 
improvements has been achieved.
    Coal bumps have been a longstanding hazard in some mines in 
the Southern Appalachia, Colorado and Utah coal fields. Bump 
prevention was the subject of intensive research by NIOSH and 
the former Bureau of Mines, and this work has resulted in the 
development of best practices booklets and mine planning tools, 
such as computer models.
    Over the past decade, for example, we have conducted many 
workshops out in the coal fields, and now NIOSH tools such as 
the Analysis of Retreat Mining Pillar Stability, known as 
ARMPS, are widely used to improve ground control.
    This program, along with others, provides an excellent 
basis for properly designing coal mine pillars for a wide range 
of mining conditions.
    We have moved ahead with our responsibilities under the 
MINER Act with a sense of urgency, and today I am pleased to 
share examples of our progress, which has been facilitated by 
the $10 million emergency supplemental appropriations provided 
to us in 2006.
    Emergency communications and tracking technologies--our 
goal is to improve both the coverage and survivability of these 
systems, such as leaky feeder and wireless mesh, in the near 
term, while providing a platform that can be expanded in coming 
years to realize even better performance. We've had some 
notable breakthroughs in the past few months.
    For example, in tests at two underground mines, 
transmissions from a wireless system were successfully received 
over a 2-mile 
distance, despite twists and turns in the mine entries. 
Addition- 
ally, we have demonstrated the feasibility of combining medium-
frequency systems with UHF leaky feeder systems, a significant 
benefit for both improved coverage and survivability.
    These tests have not yet yielded a final product, but they 
tell us that technologically feasible systems are achievable 
within the timeframe of the MINER Act.
    Recently, we initiated promising, through-the-earth, two-
way voice systems work, and the in-mine installation of the 
improved leaky feeder and wireless mesh systems is still on-
target for 2008. While none of these will be the perfect 
system, they will represent important improvements that will 
bring benefits to miners.
    The next generation Self-Contained Self-Rescuer will have 
improved performance, and will allow miners to replace their 
oxygen supply without removing the mouthpiece. The first 
prototypes were successfully demonstrated a month ago, and 
delivery of the final units for NIOSH certification should be 
expeditious.
    Separately, we are tackling the more difficult challenge of 
replacing the mouthpiece with a full-face mask.
    The refuge alternatives--our work to advance these on-
schedule, and based on findings to date, we anticipate that 
practical means for refuge can be made available in the near 
future. Also, we are addressing training to ensure that refuge 
becomes part of effective escape and rescue strategies.
    In closing, I'd like to tell you about collaborations with 
our Federal partners under the interagency working group that 
was established by the MINER Act. for example, the Naval 
Research Laboratory in NASA have offered their knowledge on 
human performance and survivability in closed systems, and are 
working with us to apply this to our refuge chamber research. 
Collaborations within this interagency working group will 
promote rapid development and implementation of needed 
technology.
    I appreciate the opportunity to present our work to you, 
and I thank you for your continued support. I am pleased to 
answer any questions that you may have.
    [The prepared statement of Mr. Kohler follows:]
              Prepared Statement of Jeffrey Kohler, Ph.D.
                              introduction
    Good morning Mr. Chairman and other distinguished members of the 
committee. My name is Jeffrey Kohler, and I am the Associate Director 
for Mine Safety and Health Research at the National Institute for 
Occupational Safety and Health (NIOSH), which is part of the Centers 
for Disease Control and Prevention (CDC), within the Department of 
Health and Human Services. I am pleased to be here today to give you an 
update on NIOSH's mine safety activities, including those that have 
been initiated under the Mine Improvement and New Emergency Response 
Act of 2006 (MINER Act).
    The United States is fortunate to have an abundance of mineral 
resources to power the economy and the highly skilled men and women who 
work in the mining industry every day are our most precious resource. 
Mine safety has improved significantly over the years, yet the mine 
disasters in 2006 and the recent disaster at the Crandall Canyon Mine 
in Utah serve as painful reminders of the dangers inherent to this 
industry, and our shared responsibilities to ensure the safety and 
health of our mineworkers. These tragedies raise serious concerns about 
coal mine safety among all constituencies of the mining industry. In 
the wake of a mining disaster, NIOSH is available to assist MSHA and 
provide technical assistance and support as needed. We have a long and 
rich history of advancing mine worker safety and health and we remain 
vigilant to the practices that we recognize work to prevent future 
disasters.
    Under the legislative mandates provided in the MINER Act of 2006, 
current changes are underway, and represent the most significant 
improvement in mine safety in three decades. New communications and 
tracking technologies, Self Contained Self Rescuers (SCSRs), and refuge 
alternatives are being developed. New and more effective training 
programs, emergency procedures, and mine safety practices are being 
designed using innovative risk analysis and management systems. Any one 
of these alone would improve mine safety, but in combination the effect 
is expected to be great. The legislative mandates have created an 
unprecedented environment of partnership among labor, industry, and 
government.
                 progress on niosh miner act activities
    Under the Mine Improvement and New Emergency Response Act of 2006 
(MINER Act) (P.L. 109-236), NIOSH was given the responsibility of 
conducting research to help develop new technologies for the survival 
and successful rescue of trapped miners after a mine emergency.
    Inside the mine, survival hinges on the availability of safe 
shelter and breathable air. Above ground, because every hour counts, 
rescue crews need reliable and precise means of locating and 
communicating with those who are trying to escape or have become 
trapped. Specifically, the legislation gave us the responsibility for 
meeting these needs through research critical for developing new 
technologies for communication and tracking, safe refuge, and oxygen 
supply.
    Underground mines are uniquely rugged and complex environments. In 
working to advance beyond current technologies for survival and 
communications, researchers must test their technical expertise and 
ingenuity against some basic laws of nature. For example, in seeking 
improvements in communications and tracking technologies in 
emergencies, we face fundamental limitations in both types of systems--
wired and wireless--that are used for transmitting voices or signals 
over long distances or through the earth.
    Signals sent by wireless systems, such as radio signals, are 
blocked by rock and other barriers. This poses a basic hurdle, whether 
the intent is communication from above ground to trapped miners 
hundreds or thousands of feet below, or communication from the mine 
opening into a tunnel that has been blocked by rock after an explosion 
or a mine collapse.
    Wired transmissions depend on signals sent along wires and cables. 
Wires and cables are susceptible to being snapped or damaged beyond use 
in an explosion or a crushing roof collapse. The breaks or damage may 
occur at locations that are not readily accessible.
    To engage such challenges, we have had to apply a mix of scientific 
know-how and creativity, our close-working knowledge of the underground 
mine environment, and persistence in working through the technical 
questions that always come up in scientific studies.
    We have also had to design research across several related but 
different tracks, and to administer contracts and award funds to 
outside partners with resources and expertise that complement ours. We 
have moved ahead with a sense of urgency while doing everything we can 
to assure high-quality research.
    Some of the more significant accomplishments include:

    <bullet> Communications and Tracking Technology.--We have awarded 
seven research contracts to outside partners that address key needs for 
advancing communication technologies. The partnerships join NIOSH's 
resources and expertise with complementary outside resources and 
expertise. The projects address several related but separate targets 
for improving communication systems in emergencies. Among these, three 
important targets are: (1) a more survivable leaky feeder system; (2) 
an improved medium frequency capability that is integrated with either 
leaky feeder or wire mesh systems; and (3) a through-the-earth, two-way 
voice system. Taken in total, reaching these targets will contribute to 
the overall goal of significantly improving both the coverage and 
survivability of emergency communications systems. We expect that 
combinations of these technological innovations will become available 
within the timeframes specified by the MINER Act.
    <bullet> A Subterranean Wireless Electronic Communication System.--
We achieved a notable milestone in August in the research to improve 
communication technologies. In tests at two underground mines, 
transmissions from a wireless system were successfully received over a 
2-mile distance, despite twists and turns in the mine tunnel and other 
physical barriers. To date, such barriers have limited two-way wireless 
communications to much shorter distances. In simplest terms, we tested 
a system in which a signal would hop along all available conductors 
such as electrical wires and water lines to get around barriers. The 
tests have not yielded a final product, but they tell us that it is 
technologically feasible to develop a system that communicates over 
much longer distances than existing systems, which was a fundamental 
challenge that we faced. We are proceeding toward next steps of this 
research with our partners, to address questions about other key 
aspects of this promising approach.
    <bullet> Self-Contained Self-Rescuer (SCSR).--The major goal of the 
oxygen supply work is to develop a next generation Self-Contained Self-
Rescuer (SCSR), which will be ``dockable'' \1\ and will overcome 
existing performance problems. Under the Emergency Supplemental 
Appropriations Act for Defense, the Global War on Terror, and Hurricane 
Recovery, 2006 (P.L. 109-234), which provided $10 million to NIOSH for 
mine safety technology research, the first prototypes of this unit have 
been designed, built, and evaluated. All of the performance parameters 
have been achieved. At a meeting with industry and labor 
representatives, in which they examined the new units, concerns were 
raised about their shape and the comfort in wearing them. Accordingly, 
the manufacturer has been directed to redesign the housing to make the 
units smaller and easier to wear. The new prototypes are expected 
within the next 9 months.
---------------------------------------------------------------------------
    \1\ The docking port mechanism is designed to allow the user to 
plug in additional oxygen units without opening the breathing circuit 
to the potentially poisonous atmosphere.
---------------------------------------------------------------------------
    <bullet> Refuge Alternatives.--All of our work in advancing safe 
shelter or refuge alternatives is on schedule, and we expect to 
complete the report required of us under the MINER Act by the deadline 
set by the act. In a related project, we have also offered to help the 
State of West Virginia by developing and conducting a test program for 
refuge chambers. Although the program has been delayed as we wait for 
test equipment to be delivered, and it has placed additional demands on 
our limited number of staff, our stakeholders have emphasized to us 
that this is an important need, and we agree. We expect to begin 
testing within a few weeks. Based on findings to date, we anticipate 
that practical means for refuge or safe shelter can be made available 
to mines in the near future. However, it will be important to establish 
appropriate training and other administrative procedures for mines, to 
ensure that alternatives for refuge become a part of more effective 
escape and rescue strategies.

    We have also pursued a flow of information back and forth with 
other Federal agencies, with whom we have been collaborating under the 
Interagency Working Group that was established by the MINER Act. Our 
Federal partners have made us aware of technologies currently used in 
other applications that may be adaptable to our needs in the mining 
environment, and are helping us to see how they may fit. For example, 
the Naval Research Laboratory and NASA have offered their knowledge on 
human performance and survivability in closed systems that protect 
humans from hostile environments, such as submarines and spacecraft. 
They have worked with us to see how this knowledge may advance our 
research on refuge chambers. The U.S. Army and the Department of 
Homeland Security are leveraging their knowledge and needs in regard to 
communications and tracking systems with ours. These and other 
partnerships will save time, resources, and trial-and-error for NIOSH, 
and we hope that these collaborating agencies will benefit similarly. 
The partnerships will also help us meet our duties under the MINER Act 
more quickly and efficiently.
                  ground control in underground mining
    The recent disaster at the Crandall Canyon Mine in Utah has brought 
several topics to national attention in the area of ground control in 
underground mining. The prevention of fatalities and injuries from 
failures of the roof, pillars or floor has been a priority area of 
research, development, demonstration, and research to practice 
activities at NIOSH for many years. Significant safety improvements 
have been achieved. Coal bumps, bounces, and outbursts have been a 
longstanding safety hazard in some mines in the Southern Appalachian, 
Colorado, and Utah coal fields. A coal bump is the sudden and violent 
failure of highly stressed coal or surrounding strata. Bumps caused 
many fatalities in past decades, and were the subject of intensive 
research by NIOSH and its predecessor agencies. The results of this 
research were best practices documents and mine planning tools, such as 
computer models. Over the past decade, for example, many workshops have 
been conducted and now the NIOSH tools are widely used to improve 
ground control in the mines.
    NIOSH has developed several computer programs to help mine planners 
design coal pillars. For longwall mining, there is the Analysis of 
Longwall Pillar Stability (ALPS). For room-and-pillar and retreat 
mines, there is the Analysis of Retreat Mining Pillar Stability 
(ARMPS). Both of the programs are widely used throughout the United 
States. These programs, along with others developed by industry or 
academia, provide an excellent methodology for properly designing coal 
mine pillars for a wide range of mining conditions. Important 
enhancements to the NIOSH models are the associated databases, which 
document observed in-mine failures and successes of various designs.
    The application of seismic monitoring has been mentioned in recent 
weeks as a potential technology for predicting coal bumps. For more 
than 30 years scientists and engineers around the world have invested 
hundreds of millions of dollars attempting to understand coal bumps and 
rock bursts, and to develop systems that could predict or warn of 
impending events. Much has been learned about the events and how to 
reduce their occurrence through engineering design, but no success has 
been achieved in prediction. Today, seismic monitoring is used more in 
hardrock mining, as part of a risk management program, but very 
infrequently in coal mining. Despite advances in technologies, such as 
geophones, signal processing equipment and computers, many of the 
fundamental barriers that existed 30 years ago remain today. 
Notwithstanding, there could be value in applying seismic monitoring at 
mines with a history of bumps, as part of a larger risk management 
program, as is done in Australian and many European coal mines.
                               conclusion
    In closing, NIOSH continues to work diligently to protect the 
safety and health of mineworkers. The relevance of our past work and 
continued need for further safety and health research is highlighted by 
the recent mine disasters. We have made significant improvements in the 
areas of communication and tracking, oxygen supply, and refuge 
alternatives. Moreover, our safety and health research program is 
addressing the critical areas identified by our customers and 
stakeholders, and through our research, development, demonstration, and 
diffusion activities, we are enabling a shift to a prospective harm 
reduction culture in the mining industry. I appreciate the opportunity 
to present our work to you and thank you for your continued support. I 
am pleased to answer any questions you may have.

    The Chairman. Thank you.
    Mr. Osterman.

   STATEMENT OF JOSEPH OSTERMAN, MANAGING DIRECTOR, NATIONAL 
                   TRANSPORATION SAFETY BOARD

    Mr. Osterman. Good morning, Chairman Kennedy, Ranking 
Member Enzi, and members of the committee. Thank you for 
allowing me the opportunity to present testimony on behalf of 
the National Transportation Safety Board during today's hearing 
regarding mine safety disasters.
    Let me add that Ms. Sharon Bryson, Director of our 
Transportation Disaster Assistance Program, is here with me 
today.
    The Safety Board is an independent Federal agency charged 
by Congress with investigating every civil aviation accident, 
and significant accidents in other modes of transportation, and 
the NTSB makes recommendations from those investigations to 
prevent similar accidents from happening again.
    Eleven years ago, the Board assumed the additional 
responsibility of coordinating assistance to victims and their 
families, following major aviation accidents.
    This responsibility grew out of a series of major aviation 
disasters in the 1990s when a number of family members shared 
with the Board and congressional leaders, their experiences 
involving the lack of a coordinated response from the airlines.
    In response, Congress passed the Aviation Disaster Family 
Assistance Act in 1996, that designated the Safety Board as the 
lead Federal agency for coordinating information and services 
of local, State, and Federal agencies to victims and their 
families, impacted by a major aviation disaster.
    It gave the Board additional responsibilities to facilitate 
the recovery, and identification of fatally injured passengers, 
ensure family members briefings prior to a public release, and 
inform family members of the Board's public hearings and 
meetings.
    The Safety Board created the Office of Transportation 
Disaster Assistance, and carefully recruited experienced 
individuals in the primary disciplines of victim recovery and 
identification, mental health, and emergency response 
operations. This four-member unit travels with the 
investigative teams to all major aviation disasters, as well as 
selected major accidents in other modes of transportation.
    The act also details the responsibilities of the air 
carriers, including publicizing a reliable toll-free telephone 
number, providing trained staff to handle calls from family 
members, timely notification to families of passengers about 
the accident, and assisting family members in traveling to the 
accident city. Carriers must file their plans about these 
responsibilities with the U.S. Department of Transportation and 
the Safety Board.
    The 1996 legislation also requires the establishment of a 
task force comprised of representatives from Federal agencies, 
the American Red Cross, air carriers, and family members 
involved in aircraft accidents to make recommendations to those 
agencies and the air carriers regarding their family assistance 
plans, and to devise best practices.
    The recommendations became the foundation for the 
development of the Board's Federal Response Plan for Aviation 
Disasters. The input of these stakeholders has been critical to 
the success of the NTSB Program.
    Our Family Assistance Program also continues after the on-
scene response. TDA staff communicate with the family members 
throughout the investigative process, they provide updates, 
information regarding the Board's public hearings and meetings, 
and respond to family members' questions. For the air carriers, 
the NTSB serves as a neutral agency that helps facilitate 
coordination and communication with family members by serving 
as the single-source of factual information concerning the 
accident, allowing the carriers to respond more effectively.
    The two largest industry groups--the Air Transport 
Association and the Regional Airline Association--both strongly 
support the Program, and advise TDA staff on air carrier 
concerns.
    At the time the legislation was passed, there were some 
concerns that the primary investigative agency--the Safety 
Board--may not be the best-suited organization to execute the 
responsibility for Family Assistance. However, the TDA team 
quickly earned a reputation for handling its tasks effectively, 
and became an integral part of every go-team launch in all 
transportation modes.
    The Family Assistance Program's effectiveness resides 
largely in our ongoing interaction with our private and public 
partners to ensure their readiness to respond. Because of its 
success, the TDA team has assisted other Federal agencies in 
developing Family Assistance Plans and training, and has worked 
with representatives of the Mine Safety and Health 
Administration on family assistance issues and challenges.
    In 2002, the Board assisted MSHA in training, and sharing 
best practices, and in January 2007, the TDA team delivered a 
2-day training course to members of MSHA, to the MSHA Family 
Liaison Program.
    This concludes my statement, Mr. Chairman, and I will be 
happy to respond to the questions you may have.
    [The prepared statement of Mr. Osterman follows:]
                 Prepared Statement of Joseph Osterman
    Good morning Chairman Kennedy, Ranking Member Enzi, and members of 
the committee. Thank you for allowing me the opportunity to present 
testimony on behalf of the National Transportation Safety Board 
regarding mine safety disasters. In particular, I will provide 
testimony regarding the NTSB experience providing assistance to victims 
and their families following a transportation disaster. The NTSB is an 
agency dedicated to the safety of the traveling public and it is my 
privilege to represent such an agency.
    As you know, the Safety Board is an independent Federal agency 
charged by Congress with investigating every civil aviation accident in 
the United States and significant accidents in other modes of 
transportation--marine, highway, railroad and pipeline. In addition, 
the Board conducts safety studies on issues of national significance 
such as personal watercraft safety and operator fatigue. Based upon 
these investigations and studies, the Board makes recommendations to 
prevent similar accidents from happening again. Eleven years ago, the 
Board assumed the additional responsibility of coordinating assistance 
to victims and their family members following a major aviation 
disaster.
    I would like to take a moment to first explain how the Board was 
identified for this important responsibility and then briefly discuss 
how the program has worked.
    After a series of major aviation disasters in the early to mid-
1990s, including USAir flight 427 in Aliquippa, Pennsylvania, ValuJet 
flight 592 in the Florida Everglades, and TWA flight 800 off Moriches, 
New York, a number of family members began sharing with the Board their 
experiences involving a lack of a coordinated response from the 
airlines, continuous busy signals on the airline's 800 number, untimely 
and often incomplete notification of the accident, misidentified 
remains of loved ones, personal effects being destroyed without family 
members' consent, and the use of confidential information in 
litigation. Family members felt abandoned and in some cases abused at a 
time when they needed guidance, assistance, and compassion. These 
feelings were not isolated but shared by family members of many other 
accidents.
    In response to these concerns, Congress passed the Aviation 
Disaster Family Assistance Act in 1996. This legislation designated the 
Safety Board as the lead Federal agency responsible for coordinating 
information to victims and their families impacted by a major aviation 
disaster. This act gave the Board its authority to bring together 
Federal, State and local government agencies to assist victims and 
their families when an aviation disaster occurred. It gave the Board 
additional responsibilities to facilitate the recovery and 
identification of fatally injured passengers, ensure to the maximum 
extent possible that family members were briefed about the 
investigation prior to any public release, and make sure family members 
were informed of and allowed to attend any public hearings and meetings 
on the investigation that was held by the Board. Additionally, it 
directed the Board to designate a director of family support services 
who would be responsible for acting as a primary point of contact 
within the Federal Government and act as a liaison between the carrier 
and the family members. The act also directed the Board to designate an 
independent non-profit organization to be responsible for coordinating 
the emotional care and support of those family members. The Safety 
Board designated the American Red Cross to be that independent 
organization.
    To carry out the assigned task, the Safety Board created the Office 
of Family Affairs, currently the Office of Transportation Disaster 
Assistance (TDA). The Office has carefully recruited skilled and 
experienced individuals in the primary disciplines of victim recovery 
and identification, mental health, and emergency response operations. 
Members of the TDA team travel with the investigative teams to all 
major aviation disasters as well as selected major accidents in other 
modes of transportation. The team also provides assistance on a case-
by-case basis to the Board's regional investigators handling general 
aviation accidents. For the first time in history, a trained and 
experienced team is now in place to coordinate the response to 
transportation accident victims and their families.
    In addition to the Board's disaster assistance role, the act also 
requires air carriers to prepare for and assist victims and their 
families. All domestic air carriers are required to have a plan to 
publicize a reliable, toll-free telephone number and provide trained 
staff to handle the calls from family members and have the plan on file 
with the U.S. Department of Transportation and the Safety Board. The 
plan must also include a process for notifying families of passengers 
in a timely manner that an accident has occurred, an assurance that the 
carrier will assist the family members in traveling to the location of 
the accident, and provide for their physical care while they are in the 
accident city.
    Following a 1997 crash in Guam, the Board realized that foreign air 
carriers flying in and out of the United States were not covered by the 
1996 legislation. As a result, Congress passed the Foreign Air Carrier 
Family Support Act of 1997 that required foreign air carriers serving 
the United States to develop family assistance plans and fulfill the 
same responsibilities as domestic air carriers. This helped to ensure 
equitable support and assistance to anyone impacted by an aviation 
disaster occurring in the United States.
    The 1996 legislation also required the establishment of a Task 
Force that consisted of representatives from the Department of 
Transportation, the National Transportation Safety Board, the Federal 
Emergency Management Agency, the American Red Cross, air carriers, and 
family members who have been involved in aircraft accidents. The Task 
Force was convened to make recommendations to government agencies and 
the air carriers regarding the implementation of their family 
assistance plans and to devise ``best practices'' for conducting family 
assistance operations. The recommendations collaboratively developed by 
this group of individuals were delivered to Congress approximately 1 
year after the passage of the legislation. These recommendations became 
the foundation for the development of the Board's Federal Response Plan 
for Aviation Disasters. The Board believes the input and ``buy-in'' of 
all of the stakeholders through this Task Force has been critical to 
the success of its work in assisting victims and their family members.
    The Safety Board has learned through extensive experience in all 
modes of transportation that no one agency or person can manage 
catastrophic events alone. The Board is also aware that each and every 
event is unique and therefore must be met with a well thought out 
response. This Federal Response Plan solicits the support of private 
and public agencies through a series of Victim Support Tasks (VSTs). 
Again, the Task Force members articulate the needs of family members, 
and the Federal Response Plan, through the VSTs, identifies the agency 
most capable of assisting the family members. While on scene, all of 
the responding agencies are required to coordinate through a Joint 
Family Support Operations Center (JFSOC). The JFSOC is managed by the 
Board and is designed to be the primary location to address the issues 
of victims and their families.
    While the Board has important responsibilities during the initial 
response to a transportation accident, our contact and support to the 
victims and their families continues throughout the Board's process by 
continuing to communicate with the family members through investigative 
updates, providing information regarding the Board's public hearings 
and meetings, responding to family members' questions on recovery and 
return of personal effects, recovery and identification of their loved 
one, and other issues and concerns. The Board has learned that it is 
critical to provide family members easy access to trained professionals 
who can provide answers to their questions.
    The interaction between TDA staff and family members underscores 
the importance of the process of family assistance. Families frequently 
comment on their desire for a consistent source of factual information, 
an understanding of what to anticipate in the days, weeks, and months 
following the accident, and most importantly compassion. The family 
assistance process provides this in a focused way. A family member from 
a recent accident commented ``the process of family assistance gave me 
some positive memories that I was able to carry with me as a source of 
hope beyond the horrible experience of the disaster.''
    For the air carriers, the NTSB serves as a neutral agency that 
helps alleviate unproductive tensions that may exist with family 
members by being the single source of factual information concerning 
the accident. The Air Transport Association and the Regional Airline 
Association, the two largest industry groups, both strongly support the 
NTSB family assistance program and help advise TDA staff on air carrier 
concerns. This ongoing relationship with the associations and the air 
carriers has allowed the airlines to respond more effectively.
    While today we enjoy a well-integrated and effective family 
assistance program, that has not always been the case. Many 
individuals, even some at the Safety Board, did not believe the Board 
should have the responsibility for family assistance. Some were 
concerned that this additional role would detract from and interfere 
with the Board's independence and make it more difficult to maintain 
objectivity. To address those valid concerns, the Board put a 
``firewall'' between the TDA team and the investigative team. The TDA 
team quickly earned a reputation for handling its tasks effectively 
while also protecting the integrity of the investigation. Over time, 
the TDA team has become an integral part of every go-team launch, and 
our accident investigators in all modes of transportation have grown to 
depend on their expertise in communicating with family members and rely 
on their assistance throughout the investigative process.
    While we believe our program has established the ``gold'' standard 
in victim and family assistance, we know there is always more work to 
be done. The TDA team remains involved with its private and public 
partners to ensure their readiness to respond. Regular meetings are 
held with the air carriers, our Federal partners and with non-profit 
agencies. In addition, due to the demand for information, the TDA team 
has developed several courses on Family Assistance which are currently 
held at the NTSB Training Center.
    The NTSB model of family assistance is evolving beyond large 
aviation accidents. In addition to serving NTSB in both general 
aviation accidents and non-aviation disasters, the TDA team has also 
been asked to assist other Federal agencies in developing plans and 
providing training to their teams to respond to victims and their 
family members. Those teams include the Federal Bureau of 
Investigation, the Department of Health and Human Services following 
Hurricane Katrina, and the Mine, Safety, and Health Administration 
(MSHA) on family assistance issues and challenges.
    As far back as 2002, the Board was asked by MSHA to provide 
training and share ``best practices.'' In January 2007, members of the 
TDA team traveled to the MSHA Academy where they delivered a two-day 
training course to members of their family liaison program. There have 
also been a number of MSHA employees who have attended our Basic Family 
Assistance course offered at our Training Center.
    While the Board has responsibility for coordinating assistance to 
victims of major transportation disasters and their families, it is 
very much aware that it takes 
the hard work of many agencies and individuals to be effective. The 
Board is also prepared to assist our colleagues in other agencies to 
develop and enhance their 
programs. The Board has discovered that assistance to families and 
victims during disasters not only helps them cope, but it improves our 
ability to investigate those disasters.
    This concludes my statement, and I will be happy to respond to any 
questions you may have.

    The Chairman. Thank you, thank you very much, a lot of 
material to cover, we're very grateful for all of your 
testimony, and also for your services.
    Mr. Stricklin, I listened carefully to your testimony. What 
was the announcement that you made with regards to the retreat 
mining now, that are suspended? Could you tell us that, and 
what its implications are, just quickly?
    Mr. Stricklin. Yes, that was done toward the end of August. 
Basically, me and the District Manager had a conversation and 
we decided to pull all the retreat mining plans in District 
Nine, which is west of the Mississippi in any mine that has a 
cover over 1,500 feet.
    The Chairman. You're going to review those plans? Is that 
what your intention is?
    Mr. Stricklin. Well, we're going to review and make sure 
that the plans can be done safely, based on what has occurred 
at Crandall Canyon.
    The Chairman. And that's a pretty big chunk of the market, 
is it not? And it covers about how many people, could you just 
give us an estimate?
    Mr. Stricklin. I don't know how many people, but I think 
there were eight mines involved in that.
    The Chairman. OK.
    Mr. Stricklin. District Nine has approximately 30 
underground mines, so it would be one-fourth of their mines.
    The Chairman. Let's just, if we could, go back and follow 
the sequence here, Mr. Stricklin. One of the most important 
jobs is to test and analyze the mining plans before they're 
implemented, make sure they're safe. What I find troubling 
about the Crandall Canyon Mine situation is that MSHA 
apparently missed several red flags about the safety of mine 
plans.
    The report the committee has received from NIOSH suggests 
that there were significant weaknesses in the analysis of the 
Crandall Canyon Mine plan that Murray Energy submitted to MSHA. 
Yet, MSHA approved the plan.
    Of course, the investigation into the incident is ongoing, 
but can you help us understand the process that led to the 
approval of the Crandall Canyon Mine plans? Who reviewed the 
Crandall Canyon plan?
    Mr. Stricklin. Typically, a mine operator will submit a 
plan to our District Office, in this case it would be located 
in Denver, CO, and it would go through the Roof Control Group, 
in this case. They, basically, would do a review of the 
information, in addition, they may want to do an onsite 
investigation to include in that review. In both cases, both in 
the northern barrier and the southern barrier, the roof control 
supervisor, and a roof control specialist went onsite. As well 
as, in the District Office, there was a graduate engineering 
student who basically investigated the Agapito information that 
was submitted to us.
    The Chairman. Agapito is an independent company, and they 
do the review in terms of the mine safety. They're basically 
contracted by the mine operators, is that correct?
    Mr. Stricklin. That's correct, sir.
    The Chairman. So, you're relying on, here, they're the 
independent company that's paid by the miner operators 
themselves, now they are doing the review, and they submit that 
information to MSHA, is that correct?
    Mr. Stricklin. Yes, sir.
    The Chairman. And they----
    Mr. Stricklin. What----
    The Chairman. Go ahead.
    Mr. Stricklin. What occurs is the mine operator would pay 
the services of Agapito to do that information, and then the 
mine operator would submit that to us.
    The Chairman. OK, and you have a chance to review that?
    Mr. Stricklin. Yes, sir.
    The Chairman. And you did, with regards to the North 
Barrier?
    Mr. Stricklin. Yes, sir.
    The Chairman. But, it is true that you didn't re-run the 
models for the South Barrier, is that so?
    Mr. Stricklin. I'm not exactly sure of that. My 
understanding was the graduate student looked at the 
information that was submitted to us from Agapito. I did not 
hear what you may have heard, that he didn't run it for the 
South Barrier.
    The Chairman. Just so that we have on this chart here that 
you're very familiar with, but it's helpful to some of us, 
these are the North Barrier and the South Barrier. The North 
Barrier is the place where--as you just mentioned--the MSHA 
took the information from Agapito and said that it met the 
safety standards, and they went ahead in that area in March 
2007. The circled black area is the place where they had the 
bump, as I understand it, does that seem--can you see well 
enough from there?
    Mr. Stricklin. Yes, sir.
    The Chairman. I'm sure you know this like the back of your 
hand. That was the area.
    Now, that is an area that is how far from the red 
designated area, would you say--as I understand it, it's about 
900 feet--does that sound about right to you?
    Mr. Stricklin. Yes, it does.
    The Chairman. And so, you had the bump on the north area, 
and they stopped, effectively, the mining, and then went to the 
other area, which is designated here in July 2007, and the red 
square indicates where the tragedy took place, the loss of 
life.
    Mr. Stricklin. Yes, sir.
    The Chairman. So, they went from what they call the North 
Barrier here, they used the NIOSH models, they contracted with 
Agapito, MSHA made the judgment to go ahead. Then they have 
this bump that took place, which threatened this whole process 
in that particular section, so they made a judgment and 
decision to go in this other area, where they also ask Agapito 
to conduct a review. They make a review, and this is paid for 
by the company itself, and they move ahead in the mining of 
that area. Is that your understanding?
    Mr. Stricklin. The one thing I want to mention to you is, I 
don't think my folks in MSHA knew of the extensiveness of this 
bounce, or bump that occurred in the North Barrier section.
    The Chairman. If they had, what would have been their 
recommendation?
    Mr. Stricklin. I guess they would have probably dug into it 
further, and evaluated further. But, at the time our 
understanding was that they were pulling out of that section 
based on the fact they could not travel the bleeder entry, 
which is a ventilation course to the back of that area. And we 
were unaware of the extensiveness of the bounce that we found 
out after this occurrence on August 6.
    The Chairman. So, when approving the plan to do the South 
Barrier, just 900 feet away, did the MSHA--as I understand from 
your response here--the MSHA's analysis of whether the March 
bump indicated that the retreat mining in this area was 
hazardous, MSHA didn't know the magnitude of the March bump?
    Mr. Stricklin. Yes, our understanding----
    The Chairman. Can you tell us a little bit why--my time is 
moving on, and your answers have been very fair, and I 
apologize for, sort of, moving through this--but why wasn't 
MSHA more concerned that the deteriorating condition in the 
North Barrier would be repeated in the South Barrier?
    Mr. Stricklin. Again, the reason that we had heard that 
they were pulling out of that area was because they could not 
travel to the back end of the bleeder system. That's typical 
when you have retreat mining sometimes, to have conditions in a 
bleeder entry that could cause travel to be hindered. A mine 
operator would submit a plan to say that he wanted to move an 
evaluation point, and not travel to the back end. We had told 
the operator that we would not move that evaluation point, 
allow him to come out, we wanted them to travel to the back 
end. That was the determination they made, that they were going 
to seal that section.
    The Chairman. Just finally, Mr. Kohler, can you explain the 
significance of the report we received on Friday, from NIOSH?
    Mr. Kohler. The report--at your request--took a 
retrospective analysis of the Crandall Canyon North and South 
mains, using the NIOSH ARMPS Program and recommended 
procedures, and also with the laminar model, the model. The use 
of the ARMPS Program indicated that there was an elevated risk 
of coal bumps in both the North and the South mains, in which 
the stability factors were significantly less than those that 
had been published by NIOSH in previous reports.
    The Chairman. So, how would you summarize that? That's a 
good statement, and a fair one. But, in layman's language, how 
would you characterize it?
    Mr. Kohler. Well, in layman's language, the NIOSH 
scientists over a period of 10 or 15 years went out to more 
than 100 mines, and collected several hundred case studies of 
which pillars failed and which pillars did not fail. They 
attempted to understand why they did or didn't fail.
    Based on all of that, they put together a database from 
which one could find suggested or proposed stability factors to 
reduce the risk of having a bump. If the published stability 
factor of 2.0 is adhered to, the risk of, the number of cases 
in which a bump would be likely to occur approaches zero, if 
it's less than the recommended or suggested factor of 2.0, the 
risk goes up, maybe, to 60 percent.
    So, in layman's language, the ARMPS Program and database 
provides the mine planner with a first step to inform the 
decision of how to design the pillars to prevent failures.
    The Chairman. My last question to Mr. Stricklin--why didn't 
MSHA recognize the problem with Agapito's use of the models, do 
you think?
    Mr. Stricklin. I think that's something that the 
investigation team is going to have to come up with. I mean, 
we're in a process of interviewing people, and determining what 
evaluations that we did use, and see if we agreed or disagreed 
with Agapito.
    The Chairman. Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    Dr. Kohler, what are the technical options that NIOSH has 
been studying to provide reliable deep mine communication that 
would remain usable in a post-accident situation? What's the 
current distance that solid material wireless signals can be 
reliably transmitted through? And, is there wireless 
communication through large amounts of solid material? Is it 
technologically possible?
    Mr. Kohler. Senator, as you're aware, the technical 
challenges of communicating in an underground coal mine 
environment surpass even the technical challenges in 
communicating between, say, the earth and the moon.
    The issues with the rock layers in between, the limitations 
on power usage in the underground mine to prevent the 
communications equipment from causing an explosion in itself--
all of those present formidable challenges.
    Despite all of the challenges, however, we believe that 
there are three or four different technologies, all of which we 
are advancing in parallel--we believe that of those, some of 
them will come online within the timeframe of the MINER Act to 
provide increased coverage and survivability. Really, the key 
issue is, after the explosion, after the disaster, we want to 
increase the chances that the system will remain operable.
    Second, we'd like to increase the distance from which the 
miner can be, and still utilize the communication system, that 
is, to increase coverage. As I indicated in my opening 
statement, just a few weeks ago at a couple of mines in West 
Virginia, we had some important breakthroughs which 
demonstrated that within the timeframe of the MINER Act, we 
will have technologies that will provide improved--not 
perfect--systems, by any means, but will provide improved 
communications capabilities. So, we've got a number of things 
that are showing great promise.
    Senator Enzi. I know the Navy has trouble with some deep 
transmissions through water. This is deep transmissions through 
solid material. At present, is wireless communication through 
that feasible?
    Mr. Kohler. Under certain conditions, for smaller 
distances. Certainly, maybe not with 1,500 feet of cover, but 
we believe it can be done.
    This summer, we had a group of experts from all branches of 
the military, NASA, Homeland Security, other agencies, and we 
addressed this very problem. They had no silver bullet to 
offer, but we agreed that jointly there are some very promising 
approaches.
    We recently initiated work with, I believe it was, Lockheed 
Martin, to apply some defense-type technologies for through-
the-earth two-way voice communication. No guarantees that it 
will work, but we believe it shows considerable potential to 
get to the goal that we really want, and that would be ultimate 
in survivability, no dependence on infrastructure in the mine, 
would go straight through the earth layers themselves.
    Senator Enzi. I think that as long as there's an increased 
use of coal, that there will be increased inventions for mining 
in coal.
    What can Congress do most effectively to assist NIOSH in 
research and development of better deep mine communication 
technology?
    Mr. Kohler. I think that the emergency supplemental 
appropriations that Congress provided, both in 2006 and in 2007 
have been a tremendous benefit to us. We have seen more 
developments, and interest, in the past year than we have in 
the entire course of the program.
    Currently, I think that in the last few months, we've 
received as many as 50 or so proposals for new ideas for 
improving survivability, communications, rescue, all of those 
technologies. We're very grateful for that. I think that that 
money has really positioned us to do the job that we need to 
do.
    You know, beyond that, it takes this amount of time, the 
timeframe of the MINER Act, that is our target, we think that 
there is some important things that are achievable there, and 
you know, we're anxious to continue working toward that goal.
    Senator Enzi. Thank you, that's very encouraging.
    Mr. Osterman, as we've all witnessed, the National 
Transportation Safety Board plays an important role in incident 
management in post-accident settings. There has been some 
question as to whether or not MSHA should adopt the NTSB model. 
In thinking about this issue, there are a number of differences 
between a serious mining accident, and for example, a 
commercial airliner crash.
    In a mining disaster, the victims and their families 
typically live in close proximity to the mine. In an airline 
disaster, the victims and families could be from all over the 
country, and typically are at a great distance from the 
disaster site.
    Also, mining disasters almost always involve protracted 
rescue efforts, while--unfortunately--most airline tragedies 
are limited to recovery operations. Do you think that these, 
and other distinctions, should dictate a different approach to 
incident management by MSHA than that utilized by the National 
Transportation Safety Board?
    Mr. Osterman. Senator, I think the model that is utilized, 
and that is derived from the legislation from 1996 is very 
sound, but we recognize, even within the modes that we deal 
with at the NTSB, the differences that exist between aviation, 
and highway, marine and so on. So, each of these programs has 
to be modeled on some sound principles, but also tailored to 
the specific needs of that community. As you correctly pointed 
out, each of these industries--even in transportation--are 
vastly different. Although the tragedy is identical for the 
families, their needs do change with the nature of the 
disaster, and the industry.
    Senator Enzi. Thank you, I'm not aware of any major NTSB 
accident investigations that have involved two contemporaneous 
congressional investigations, a State investigation, as well as 
other investigations aimed at reviewing the same physical 
evidence, interviewing the same witnesses, all for the purpose 
of determining the cause of the accident, and the potential 
culpability of any of the parties. In my view such multiple 
investigations are, at best, enormously wasteful of time and 
resources, and at worst, jeopardize the integrity of the 
process, as well as any possible subsequent law enforcement 
efforts.
    In the first instance, we need to leave accident 
investigations in the hands of experts that have the knowledge 
and resources to conduct them. I'd appreciate your comments as 
to how the NTSB typically operates, and whether or not you 
agree with these kinds of multiple accident investigations, and 
how they would interfere with a typical NTSB investigation?
    Mr. Osterman. Well, Senator, the National Transportation 
Safety Board is the primary Federal agency responsible for the 
investigation of transportation disasters. In that role, we 
work with our other Federal partners, but are recognized as the 
lead agency for those investigations. As we conduct our 
investigations, however, there are frequently concurrent 
criminal investigations that are underway at the State, and 
sometimes, Federal level. Frequently there are other program 
audits or reviews being conducted by the Department of 
Transportation Inspector General, for example, or the 
Government Accountability Office.
    We have learned over our history that the best method to 
ensure that we're delivering--not only the right probable cause 
and thorough investigation, but are working with these other 
entities to deliver the best products for the American people--
is to, early on, meet with these organizations, and identify 
our different pathways and authorities. Now, that seems to have 
worked out very well for us, we definitely do not want to 
interfere, in any way, with criminal investigations when they 
occur, and we are very successful in--early on--meeting with 
the prosecutors or the District Attorneys, the ADAs and 
defining the parameters of our investigation and theirs. We 
work very hard to protect evidence so that it can be used for 
both investigations.
    But we do segregate the accident investigation activity 
exclusively to the NTSB.
    Senator Enzi. Thank you, I have a number of follow up 
questions, but I too have over-utilized my time, and I've got 
some that are related for Mr. Stricklin, but I'll submit those 
in writing, and would appreciate answers to them, so we can 
figure out how best to handle it. Thank you.
    The Chairman. Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    Mr. Stricklin, let me start with you--the MINER Act does 
require MSHA to temporarily assign a DOL official as a family 
liaison between the Agency and families in an incident with 
multiple deaths. For those employees that are designated as 
family liaisons, is this their primary duty, or do they serve 
the organization in other capacities?
    Mr. Stricklin. They serve the organization in other 
capacities. What we did after Crandall Canyon occurred was 
immediately notified three of the trained family liaisons to 
get to Utah as quickly as possible, and we had someone there 
around the clock and they basically dedicated their time in 
Utah to being the family liaison.
    Senator Murray. Typically, what kind of professional or 
educational background do those liaisons have?
    Mr. Stricklin. I believe, the three that was out there, one 
was an engineer, one was a geologist, and I'm not sure what the 
third individual was. But they were trained by the family 
liaison training conducted at the Academy that the NTSB 
participated in.
    Senator Murray. Does MSHA currently have any kind of 
structured program, or dedicated staff, with the sole 
responsibility of providing a full range of support for needs 
of families?
    Mr. Stricklin. No, they do not.
    Senator Murray. They do not.
    Were you aware of the March 10 bump at Crandall Canyon that 
resulted in the abandonment of the North Canyon?
    Mr. Stricklin. Not until after the accident occurred, after 
August 6.
    Senator Murray. Would you have--if you had known--
reassessed the South Barrier roof plan?
    Mr. Stricklin. Yes, we would have.
    Senator Murray. Do you know Bob Murray?
    Mr. Stricklin. Yes, I do.
    Senator Murray. Are you aware of the news accounts, 
describing retribution from Bob Murray that resulted in the re-
assignment of an MSHA Inspector to a different district?
    Mr. Stricklin. I've heard of those.
    Senator Murray. Can you tell us, is it common knowledge 
among inspectors that Bob Murray had an MSHA Inspector 
reassigned?
    Mr. Stricklin. I think a lot of people heard those 
allegations, I don't know if that is true or not.
    Senator Murray. Have you ever been contacted by an elected 
representative, making requests on behalf of Bob Murray?
    Mr. Stricklin. No, I have not.
    Senator Murray. OK.
    From recent press articles and the September 5 hearing that 
we had in our Labor, HHS Subcommittee, I understand that MSHA 
is significantly behind in their regular quarterly inspections 
in District Four, and that they have endorsed using these spot 
inspections as a replacement for the regular quarterly 
inspections.
    I also understand that you approved the spot inspection 
program, and I don't think it's difficult to understand that 
Congress included those required inspections in the MINER Act 
to identify potential problems before they turned into 
disasters, and we fully expected MSHA to comply.
    If you are 60 percent behind in District Four, it leads me 
to ask you--how far behind were you in District Nine?
    Mr. Stricklin. District Nine was pretty close to being on 
target. District Four was the one District that was the 
hardest-hit with attrition--you're aware of the Aracoma 
disaster taking place, we had some initiatives down in that 
area that we felt needed our attention. What occurred when the 
District Manager who's in place now got the job last August, he 
evaluated his needs and decided----
    Senator Murray. Last August, like in several months ago? Or 
last August, like in----
    Mr. Stricklin. I'm sorry, August 2006, over a year ago. 
When he got the job, he realized that he was not going to be 
able to complete every EO-1 inspection. So, what he did was a 
risk analysis of the mines that he had, and decided which ones 
he needed to ensure got the EO-1 inspections done, and he 
basically laid out a plan that he wanted participation or 
inspectors at each other's mine, even though he knew that he 
did not have enough people to complete the EO-1 inspection.
    Senator Murray. Can you tell us what MSHA's plan is for 
fulfilling its statutory requirement on these quarterly 
inspections?
    Mr. Stricklin. Well, the one big thing is, Congress has 
passed a supplemental hiring, and allowed us to hire 170 
additional inspectors. Since June 2006 until the present, I've 
hired 253 inspectors. They're in training now, but I know help 
is on the way.
    Senator Murray. Do you have a written plan?
    Mr. Stricklin. Yes, I do.
    Senator Murray. Can you submit that for this committee's 
peruse?
    Mr. Stricklin. Yes.
    Senator Murray. I appreciate that.
    I just have a few seconds left, and I do have some other 
questions, but let me just ask, Mr. Osterman, can you tell me 
what the catalyst was for the creation of NTSB's Disaster 
Assistance Program?
    Mr. Osterman. The catalyst, Senator Murray, was a series of 
major aviation accidents that occurred in the mid-1990s in 
which the airlines, quite frankly, were unprepared, and poorly 
handled dealing with the families. So much so, that it was 
mentioned in one of the members previous statements, they were 
learning about issues from the television.
    Senator Murray. OK, thank you very much.
    The Chairman. Senator Hatch.
    Senator Hatch. Mr. Stricklin, what are the strengths and 
weaknesses of using a collaborative command approach that would 
include MSHA, State and local operators in directing rescue 
efforts?
    Mr. Stricklin. With a rescue effort, I think it's important 
that you try to get everybody working together. My boss who was 
onsite, Richard Stickler, really promoted that idea, that we 
all need to work together for a common goal of getting in there 
as quickly as we can. That still gave us the ability to 
oversee, and supersede any plan that we did not like. But, 
basically, we wanted to work as a team to try to get in there 
as quickly as possible, unfortunately in this case, that did 
not occur. But typically, after a disaster, an emergency, you 
have the company, the Union, the State and MSHA all working 
together in a rescue effort.
    Now that the investigation has started, all bets are off. I 
mean, we're on our own, and there's no collaborative effort. 
But during the rescue operation, we try to work as a team.
    Senator Hatch. I see.
    Now, Mr. Kohler, as you know, the MINER Act was designed to 
enhance the intra-governmental sharing of research and 
information that would aid in the development of better mine 
safety technology. Now, is NIOSH currently receiving sufficient 
cooperation and assistance from other agencies and departments?
    Mr. Kohler. Yes, we are, in fact, the level of cooperation 
has exceeded any expectation I had as we moved into that 
process. We're getting full access to information and people.
    Senator Hatch. OK, Mr. Stricklin, how would you 
characterize the safety record at the Crandall Canyon, prior to 
the incident of August 6--what was the record of MSHA 
violations at Crandall Canyon? Was the mine's safety and 
citation record higher or lower than other mines of comparable 
size?
    Mr. Stricklin. It was basically about average, I would say.
    Senator Hatch. About average.
    Mr. Stricklin. Yes, sir.
    Senator Hatch. OK, what was the inspection history at 
Crandall Canyon? How often were MSHA inspectors present at the 
mine in the 6-month period prior to the August 6 collapse?
    Mr. Stricklin. We had conducted two complete regular 
inspections, or EO-1s, and in addition, we had done a couple of 
spot inspections that included the Roof-Control investigations. 
We had been onsite and we were in the process of conducting a 
special investigation, dealing with a complaint that we 
received, I believe, the inspections were ongoing.
    Senator Hatch. I see.
    What steps does MSHA take to fulfill its role as a primary 
source of public communication in a post accident setting? In 
that regard what challenges does MSHA face in this respect, 
generally, and what challenges did it face, specifically in the 
Crandall Canyon Mine disaster?
    Mr. Stricklin. The first challenge we faced was making sure 
that the families were aware of all of the information, prior 
to going to the press. When Richard Stickler arrived onsite on 
August 7, his interest was making sure that the families were 
aware and having two meetings with the families per day.
    Sometimes he offered the opportunity to them that he would 
meet one-on-one, in case they did not want to ask a question in 
front of other people, or they just wanted to talk to him. 
Unfortunately, sometimes the press conferences were set up to 
start up immediately after these family meetings. So, in my 
opinion, he did the right thing by staying there to talk to the 
family members, and sometimes the press conference got started 
just a little bit before he showed up. I think we kind of 
worked through that a little later in the emergency, and 
basically started holding off on the press conferences until 
Richard showed up to be the lead person to talk at those news 
media hearings.
    Senator Hatch. I, personally, thought that Mr. Stickler did 
a good job of that, and did his very best while he was down 
there, having been there a number of times myself.
    But, Mr. Osterman, let me just ask you one final question--
given that an airliner or train operator has a right, and may 
have an interest, in making public statements following a 
transportation accident--what procedures or protocols does NTSB 
have in place to ensure the dissemination of accurate 
information?
    Mr. Osterman. Well, Senator, there's really two processes, 
one is the investigative information, which is channeled 
through the NTSB. We control the information that is delivered, 
so that we can ensure its accuracy and that it's factual in 
nature.
    As parties to our investigation, the airlines and the 
aircraft manufacturers, and other agencies are essentially 
restricted from discussing the investigation in the press. It 
does not prohibit them from talking about other issues, but it 
does confine the investigative information to the NTSB.
    Second, with the families, the NTSB is the neutral liaison 
between the carriers and other entities to the family members, 
so that we can guarantee that the information that they are 
receiving is timely, it is first, and it is, in fact, accurate, 
it is not conjecture. We also spend a great deal of time 
answering their questions, and working on those kinds of things 
that they have heard that may be speculative.
    Senator Hatch. Thank you, Mr. Chairman, if I could ask just 
one other question, I know my time is expired.
    Mr. Stricklin, I know that the Governor of Utah set up a 
special Commission to review this and study this, too, and 
they're a little bit uptight about the fact that--maybe more 
than a little bit uptight--that MSHA is not willing to work 
with them or cooperate with them. Is there anything we can do 
about that?
    Mr. Stricklin. Well, I think we're trying to sit down and 
work through some of these issues. We do have a State 
representative that does participate with us in our interview 
process and our investigation at the mine. That's been in place 
since we started the investigation. We were just a little 
concerned that sharing information with the Utah Commission, 
possibly if it ever got out into the press or something like 
that, it could affect the other people that come in to testify. 
Maybe their information that they share with us won't be as 
firsthand as we would like it to be.
    We're willing to share as much as we can with them, we just 
don't want to compromise our interview process with the 
accident.
    Senator Hatch. Well, I think I understand that. They have 
some very good people on this Commission, and of course, 
naturally we're very concerned in Utah, and of course, the 
Governor has been extremely concerned, as has the congressional 
delegation. To the extent that you can cooperate, I would like 
you to do that. But I do also understand how important it is to 
be able to get the interviews done, and get them done in a way 
that--without media interference or any other type of third-
party interference. So, I do understand.
    But, to the extent that you can cooperate with them, I know 
the people on the Commission, they're very good people, and I 
think that they would be capable of being very discrete in 
handling any information without going to the media.
    Mr. Stricklin. My understanding is the Solicitor from the 
Department of Labor and the chairman of the Commission is going 
to be in discussions tomorrow, to see how we can work better 
together.
    Senator Hatch. That would be great. Well, anything you can 
do, I think we'd appreciate it out there. I know the people on 
the Commission, and there's some very, very good people. We'd 
appreciate any kind of cooperation you can give.
    I personally have appreciated the work of you and Mr. 
Stickler and others of MSHA at the mines, staying on top of it 
throughout the process. I know how difficult it was for the 
families, it was just awful, and it was very difficult for you 
folks, as well.
    Thank you, Mr. Chairman.
    The Chairman. Just some wrap-up questions.
    Mr. Stricklin, did I understand earlier in response to a 
question that, when Murray submitted the plan to MSHA, this was 
approved by a graduate student?
    Mr. Stricklin. No, it was not, it was evaluated by a 
graduate student. It would have gone through the process of the 
roof-control supervisor looking at it, a roof-control 
specialist. My----
    The Chairman. What was the evaluation? What was his role? 
What was the graduate student's role?
    Mr. Stricklin. He basically would have evaluated the 
numbers that Agapito had submitted, and looked at it from the 
MSHA standpoint, and basically given a recommendation to the 
roof-
control supervisor, who would have done the same thing with the 
numbers.
    The Chairman. Yes. And how much training do they have?
    Mr. Stricklin. As far as evaluating, they would go through 
the Mine Academy in Beckley, WVA, as well as travel with 
inspectors. In this case, this was an engineer, so he would 
have had an engineering background to evaluate it, as well.
    The Chairman. Just, finally, in looking at the NIOSH 
report, they have these kinds of observations, on page 16, the 
BPSF, which is the barrier pillar stability factor, says,

          ``The Barrier Pillar Stability for these structures 
        were 1.0, significantly lower than the 2 percent 
        guidelines that was based on the deep cover case 
        histories collected by NIOSH. A BPSF of 2 would have 
        required barrier pillars that were approximately 250-
        feet wide, without such substantial barriers, the 
        pillars developed within the original are subjected to 
        substantial abutment loads which likely exceed their 
        load-bearing capacity.''

    Then it continues along on page 16, Agapito's calculation 
uses another model that you've used the word results have 
proved to be ``misleading.'' I'm just wondering. And then on 
page 9, you have NIOSH criticizing Agapito's analysis as not 
conservative enough on safety. It uses these words,

          ``The result is a very unconservative analysis, 
        because a solid 210-foot barrier has far more load-
        bearing capacity than 130-foot solid pillar, plus a row 
        of 60 or 60-foot square pillars.''

    I'm just wondering, as you go through this, whether it 
doesn't raise sufficient kinds of issues that are enormously 
distressing?
    Mr. Stricklin. I understand your position. On our 
investigation, we've put two mining engineers who have a lot of 
roof-control expertise, and basically they're evaluating the 
same thing that you're looking at here, looking at the NIOSH 
report, and discussing with our own folks their thought process 
in approving these plans.
    The Chairman. OK. Well, thank you very much.
    Senator Murray. Mr. Chairman, if I could just follow up----
    The Chairman. Sure. Yes.
    Senator Murray [continuing]. With two clarifications that I 
understand--in response to a question you were just asked, Mr. 
Stricklin, about safety inspections at the Crandall Mine you 
said, about average. For those of us who don't know what 
``average'' is, can you tell us what ``average'' means? How 
many safety violations were there?
    Mr. Stricklin. It depends on the size of the mine. In this 
case, it was just basically a one-section mine, so I wouldn't 
expect to see the large number of violations that we issue at a 
mine, say, that has six sections.
    I guess my position is, there's no good mines, and no bad 
mines. There are just mines, and if we find it, we issue it.
    Senator Murray. But, about average. You can't tell us how 
many safety violations occurred over, say, the last 6 or 8 
years?
    Mr. Stricklin. We would have those numbers available to us, 
I don't have them in front of me, but I can get you those, 
Senator Murray.
    Senator Murray. I did ask my staff, there was 154 
violations in 2003, 129 in 2004, 70 in 2005. Those numbers 
sound fairly high for ``about average.'' Were there a lot of 
fines assessed with that, as well?
    Mr. Stricklin. They would have had to meet the criteria 
that the regulations spell out, as far as how many violations 
you get--there's a formula that's used to determine those 
numbers.
    Senator Murray. Well, if you could supply the committee 
with what they've actually paid in fines, and how many safety 
violations, I think that would clarify for us what average is.
    Mr. Stricklin. I guess, Senator Murray, just--we have coal 
mines that we issue over 1,000 violations in a 1-year period.
    Senator Murray. My other question, really quickly--do 
graduate students typically approve plans?
    Mr. Stricklin. There was no approval by a graduate student, 
approval has to be done by the District Manager.
    Senator Murray. What did the graduate student do?
    Mr. Stricklin. He basically evaluated, when Agapito 
submitted the report to us, he had a firsthand look----
    Senator Murray. Based on his evaluation, that's what the 
approval was done on? Graduate students, are they the ones who 
are doing the evaluations? That you then look at and approve 
from?
    Mr. Stricklin. In this case, he just talked to the roof-
control supervisor, gave him his opinion, and then the roof-
control supervisor did, basically, an evaluation of the plan as 
well. I may have misspoke and gave you the impression that the 
graduate student was the one who approved the plan. He, 
basically, had the first look at the plan, and then it went to 
the roof-control supervisor who basically did the same type of 
thing.
    Senator Murray. Well, let me ask again--are graduate 
students typically the ones who are doing the evaluations for 
your, then, later use?
    Mr. Stricklin. No, ma'am.
    Senator Murray. Can you give the committee, in writing 
then, how often the only evaluation that is done, is done by a 
graduate student? For the record?
    Mr. Stricklin. Could you repeat that?
    Senator Murray. Could you, for the record, give us, the 
committee, the information on how often a graduate student is 
doing the evaluation that MSHA then uses for their final 
approval?
    Mr. Stricklin. I can do that.
    Senator Murray. Thank you.
    Senator Hatch. Mr. Chairman, could I just ask one further 
question?
    The Chairman. Yes, sure. Senator Hatch.
    Senator Hatch. To folks who may not understand mining, 100 
violations or thereabouts, seem like a lot of violations. Could 
you give us some idea of what the range of violations, what 
type of violations they are, and especially if you can tailor 
it to the Crandall Mine it would be helpful to us.
    Mr. Stricklin. The most violated mines in the country last 
year, Senator Hatch, probably had about 1,000 to 1,200 
violations.
    Senator Hatch. What kind of violations, from minor ones to 
major ones.
    Mr. Stricklin. It could be anything from what we refer to 
as a non-S&S violation--that basically costs about $112 to a 
flagrant violation, that could go up to $220,000.
    Senator Hatch. Describe those violations, what would be a 
non-S&S violation?
    Mr. Stricklin. Non-S&S violation would be that the Port-a-
Potty on the section wasn't ready for use.
    Senator Hatch. I see.
    Mr. Stricklin. A flagrant violation would be a mine 
operator who continues to mine coal when he knows that the fan 
is not operating.
    Senator Hatch. Do you know how many flagrant violations 
there were, or near-flagrant violations there were at Crandall 
Canyon?
    Mr. Stricklin. At Crandall Canyon, there were no flagrant 
violations.
    Senator Hatch. I see.
    OK. Thank you, Mr. Chairman.
    The Chairman. Just to finish this up in my own mind, isn't 
it true that Andalex, prior to the Murray ownership, considered 
the mine to have been completely mined out, and that the Bureau 
of Land Management agreed?
    Mr. Stricklin. My understanding, Andalex completed all of 
the long-wall mining.
    The Chairman. That's a lot less risky, as I understand, is 
that correct?
    Mr. Stricklin. Well, basically it took up most of their 
property that had already been mined, and it left these areas 
that Murray Enterprise wanted to come in and mine. I don't know 
anything about the BLM report.
    The Chairman. Well, as I understand, you're the expert on 
it. They have to get the approval to mine, they have to get the 
sign-off that the mining is terminated, at the very end. Don't 
they have to get that?
    Mr. Stricklin. Well, basically, we have no involvement with 
BLM.
    The Chairman. No. Well, that's another point I want to just 
mention, because, some people believe that it's not 
coincidental that you had the earlier owners basically close 
that mine down. And then you have the BLM report,

          ``On October 27, 2004, John Lewis, Mining Engineer of 
        Andalex called and informed me that Genwal would need 
        to seal off the west portion of the main west mains at 
        the Crandall Canyon Mine (those are the North and South 
        Barriers). Conditions were deteriorating,''

and it has the whole report here, here's the BLM--yet you don't 
know--you don't get that information. This is like the CIA not 
talking to the FBI when we're getting attacked by the 
terrorists. I mean, here's the Bureau of Land Management making 
these judgments here, and you don't know about it, they're not 
supposed to let you know, the Bureau of Land Management make 
these judgments? ``The situation in Main West is untenable for 
future pillar recovery''--I mean, did that grad student know 
this? Did they have this information?
    Mr. Stricklin. That information was not shared with us, 
that I'm aware of, sir.
    The Chairman. Don't you think it's useful if they do 
share--Bureau of Land Management, they make a report on safety 
issues that they give you a copy or include you?
    Mr. Stricklin. I think that's important that we would have 
that, yes, sir.
    The Chairman. OK.
    Thank you very much.
    Our next panel will be Dennis O'Dell, who oversees Health 
and Safety Operations for the United Mine Workers of the United 
States. Mr. O'Dell sits on several boards for mine safety, 
including NIOSH Mine Safety and Health Research Advisory 
Committee. Also, he is a member of the Utah State Commission 
investigating the Crandall Canyon disaster.
    And then we'll have Robert Ferriter, who has served as the 
Director of Mine Safety Programs at the Colorado School of 
Mines since 1999. In that role, he develops programs to provide 
training, professional education, on a wide variety of topics 
related to safety and occupational health in mining, including 
risk assessment, regulatory compliance and safety management.
    Mr. Ferriter previously spent 26 years at the Mine Safety 
and Health Administration at the Department of Labor. We thank 
you very much, thank all of our guests here, and Mr. O'Dell, if 
you'd wish to proceed, we'd be glad to hear from you.

   STATEMENT OF DENNIS O'DELL, ADMINISTRATOR FOR HEALTH AND 
             SAFETY, UNITED MINE WORKERS OF AMERICA

    Mr. O'Dell. Thank you, sir. Mr. Chairman, Ranking Member, 
Senator Enzi, and members of the committee, I appear before you 
today, currently serving as the Administrator of Occupational 
Health & Safety for the United Mine Workers of America.
    The Chairman. Excuse me, I didn't, Bruce Watzman, I 
apologize, I didn't introduce you on this. The National Mining 
Association Vice President for Safety and Health, and is 
responsible for the development of NMA's policy position on the 
matters when pending before both the Congress and governmental 
agencies.
    Responsibilities also include working with member companies 
in the design of safety and health programs for use in the 
mines with Federal and State regulators on the management of 
safety and health programs. We're delighted to welcome you 
here. Thank you very much.
    Mr. O'Dell.
    Mr. O'Dell. Yes, sir. I appear before you today currently 
serving as the Administrator of Occupational Health & Safety 
for the United Mine Workers of America, but more proudly, I am 
a coal miner with 30-years experience in the industry, 20 
years, approximately of which I mined coal.
    It is with great sadness that I appear before you today to 
discuss, yet again, and in far too short a span of time, the 
deaths of mine workers. We pray for the families of the six 
miners who remain trapped in the Crandall Canyon Mine and for 
the families of the brave rescuers who perished trying to 
rescue them.
    We have family members attending this hearing today. I wish 
to both acknowledge their presence, and to personally express 
my deep sorrow to them, as well as my gratitude for their 
coming to the halls of Congress to witness and participate in 
the legislative process.
    Together, we seek to ensure that what happened at Crandall 
Canyon will never be repeated.
    Unfortunately, all of the factors that led to the 
catastrophic collapse at Crandall Canyon Mine may not yet be 
evident, and they may never be fully known.
    What is apparent, after reviewing the available information 
and examining the mine map, which you have before you, is that 
the conditions that led to this tragic event should have been 
avoided. Contrary to what some may tell you, there is little 
doubt that this was a man-made disaster.
    Let me explain why I believe this to be true, not only as a 
safety expert, but from a coal miner's perspective.
    It is important to understand that the Crandall Canyon Mine 
was in the last stages of its productive life. The previous 
operator, Andalex Resources, had extracted most of the mine's 
recoverable reserves, utilizing a technique that we call long-
wall mining.
    After a completion of the final long-wall panel, the only 
remaining reserves were the barrier pillars and the mine's main 
entry pillars, Andalex Resources deemed this remaining coal 
crucial to maintaining the mine's stability.
    In documents filed with the Utah Division of Oil, Gas and 
Mining, the Company stated,

          ``Although maximum recovery is a design criteria, 
        other considerations must be looked at in the final 
        analysis of the extraction of the coal. These factors 
        consider the insurance of protection of personnel and 
        the environment.''

    In their statement they say,

          ``Solid barriers will be left to protect the main 
        entries from being mined-out panels, and to guarantee 
        stability of the main entries for the life of the 
        mine.''

    This means that only the North and South Barrier pillars 
separated the mine's main entries from vast areas of 
unsupported roof.
    Yet, Murray Energy sought to mine in this area. They 
submitted plans to MSHA, and it was improved by MSHA's District 
Nine office in Denver, CO. Because of the extent of the 
previous long-wall mining, there can be no doubt that the 
overburden was exerting extreme pressure on the remaining coal 
reserves, adversely impairing and impacting the conditions of 
the mine.
    In early March 2007, you heard that the mine then 
experienced a large mountain bump while pillar extraction was 
being conducted in the North Barrier. The bump was so severe 
that Murray Energy abandoned its plans to develop the remaining 
North Panel, and sealed that area off.
    While it's unclear if Crandall Canyon Mine management 
officially notified MSHA of this event, the resulting seal plan 
that they had submitted to the Agency should have, at least, 
raised questions about why the operator has abandoned that 
large area of a mine to where they left approximately 54 blocks 
of coal that they intended to mine.
    As we all know, in August, another catastrophic mountain 
bump trapped 6 miners in the south section, approximately 900 
feet due south from the north area that had been abandoned for 
the same reason. This is why I believe that the plans to 
perform pillar development and extraction of the barrier 
pillars should never have been submitted. Further, and perhaps 
more importantly, MSHA--which is charged with protecting 
miners' health and safety--should have never approved such 
request.
    As I said earlier, we may never fully know, because the 
main parties involved in this investigation are MSHA and Murray 
Energy. Utah Governor Huntsman recently appointed me to the 
Utah Safety Commission as one of his members. Our Chairman, Mr. 
Scott Mathison, has made several requests to MSHA to be 
provided the information from MSHA's investigation, as it 
progresses, so that our Commission can make recommendations to 
Governor Huntsman to improve miner's protection as a result of 
what happened at Crandall Canyon Mine.
    MSHA is refusing to cooperate, saying that they will only 
provide information to us that they release to the general 
public. In other words, we're being shut out, and therefore, 
handcuffed from being able to make recommendations that will 
improve the safety at the miners' workplace.
    MSHA has to allow independent parties to be a part of their 
investigations to restore the miner's and miners' families 
trust and faith in them. As it stands now, the company which 
submits the mining plans, and MSHA who approves the plans, are 
the only parties involved in this investigation, other than one 
observer from the State, which means that they are 
investigating themselves. This is preposterous, because they 
are the two parties with the most at risk when it comes to 
uncovering the failures and shortcomings that caused this 
disaster to occur in the first place.
    I can also tell you that Mr. Scott Mathison, our Chairman 
from the Utah Mine Safety Commission, is equally frustrated 
with MSHA's roadblock. I am also equally disappointed that MSHA 
has also refused the United Mine Workers of America the ability 
to represent the families during the investigation, as they had 
requested by us.
    What is it that they are trying to hide? By MSHA taking 
this approach, a great injustice is being imposed on the 
miners, and miners' families.
    I'm closing up, but let me further clarify that I am not 
referring to MSHA inspectors, when I talk about MSHA. These 
inspectors are in the mine on a day-to-day basis, trying to do 
the best job they can. These are dedicated, hardworking 
individuals that are trying to ensure our mines are safe to 
work for our miners. I am referring to the culture of the 
Agency, of those running the Agency, the policymakers. They're 
the ones that need to change. Our inspectors need to be 
restored with the tools necessary to allow them the ability to 
do their job.
    Miners are still dying, unnecessarily. There are many more 
improvements that need to be made, and I have included them in 
my written testimony. I hope that you will be able to take the 
time to review these, so that more improved regulations can be 
made to ensure our miners get the health and safety protections 
we deserve.
    Mr. Chairman, members of the committee, I thank you for 
your time and devotion to this very important matter. I will be 
happy to answer any questions that you may have.
    [The prepared statement of Mr. O'Dell follows:]
                  Prepared Statement of Dennis O'Dell
    On behalf of the United Mine Workers of America (``UMWA''), I 
appreciate having this opportunity to testify about the many health and 
safety issues and challenges that continue to confront miners in this 
country. The UMWA has been an unwavering advocate for miners' health 
and safety for 117 years.
    It is with great sadness that I appear before you today to 
discuss--yet again, and in far too short a span of time--the deaths of 
mine workers. We pray for the families of the six miners who remain 
trapped in the Crandall Canyon mine, and for the families of the brave 
rescuers who perished trying to rescue them. Seven of those miners have 
family members attending this hearing. I wish to both acknowledge their 
presence, and to personally express my deep sorrow to them as well as 
my gratitude for their coming to the halls of Congress to witness and 
participate in the legislative process. Together we seek to ensure that 
what happened at Crandall Canyon will never be repeated.
    I come out of the coal fields, having been an underground coal 
miner for 19 years where I was elected and served as Chairman of the 
Local Union health and safety committee. From there I was appointed as 
an International health and safety representative for the United Mine 
Workers of America for 9 years. In 2005 and currently I serve as the 
Administrator of the UMWA's International Health and Safety Department 
giving me 30 years experience in the coal mining industry. I have 
participated in and spoken about the recent and most tragic mining 
disasters of the last decade, including the Jim Walters No. 5 mine 
explosion in September 2001, the three multi-fatal coal mine accidents 
of 2006: Sago and Aracoma, both in my home State of West Virginia and 
Darby in Kentucky, as well as other mine fatal-related investigations. 
I was also recently appointed by Utah Governor Huntsman to the Utah 
Mine Safety Commission to consider a number of issues that arose in 
connection with the Crandall Canyon disasters.
    Last year this committee was instrumental in enacting legislation 
that brought about the first improvements to miners' health and safety 
legislation for nearly 30 years. Nevertheless, there are many more 
improvements yet needed to ensure that miners can return home after a 
day's work, and not fall ill from their work. I will offer you some of 
my thoughts about areas of concern based specifically on the Crandall 
Canyon disasters, as well as the coal mining disasters of 2006.
    I appeared before this committee's Subcommittee on Employment and 
Workplace Safety earlier this year to express thoughts about progress 
made since the MINER Act was passed last year and about the areas still 
requiring legislative attention. Today I will update and expand upon 
those remarks. The Crandall Canyon disaster demonstrates that the 
remaining needs are substantial.
                       communication and tracking
    Despite passage of the MINER Act over a year ago, very little has 
changed concerning the inability to communicate with and locate trapped 
miners. Despite the repeated assurances at press conferences by Bob 
Murray that he knew exactly where to find the miners trapped in the 
Crandall Canyon Mine, 8 weeks later the six trapped miners still have 
not been located. It goes without saying that until they can be 
located, recovering them is virtually impossible. Yet, we still ask 
that the miners be recovered and brought home.
    The situation at Crandall Canyon stands in stark contrast to the 
experiences last year when a Polish miner was pulled from wreckage 
after he was located through use of a tracking device, and when 
Canadian miners trapped underground were safely retrieved from the 
safety chamber to which they had retreated. Throughout the last 18 
months, we have learned more about what is available in terms of 
communications and tracking, but very few operators have taken 
advantage of the technology and equipment that is available. Yet, if 
other countries' miners can survive and escape these disasters, then so 
should American miners. We need change, and we need it now. Why our 
miners do not have the benefits of these protections is a key question 
that demands an answer in the wake of the Crandall Canyon disaster.
    MSHA and the industry must aggressively require the use of improved 
communication systems and tracking devices. Improved communication and 
tracking technology, including one-way text messaging and two-way 
wireless systems, is available now and should be immediately installed 
in all mines. Any system that can increase the ability for miners to 
escape or be rescued from a mine emergency, even if it is limited in 
scope, must be utilized. The Federal Government, through NIOSH and 
MSHA, should fund and direct continued studies and research to develop 
the next generation of tracking and communication devices. As this 
newer technology becomes available, mine operators should be required 
to upgrade existing systems at all their operations.
              the risks of pillar mining at crandall canon
    Unfortunately, all the factors that lead to the catastrophic 
collapse at Crandall Canyon Mine may not yet be evident, and they may 
never be fully known. However, what is apparent after reviewing the 
available information and examining the mine map, is that the 
conditions that lead to this tragic event were man-made. The disaster 
at Crandall Canyon could and should have been prevented. Contrary to 
what some may say, there is little doubt that this was a man-made 
disaster.
    We hope that by figuring out all that went wrong at Crandall Canyon 
we will be able to prevent further needless death. It is important to 
understand that the Crandall Canyon Mine was in the last stages of its 
productive life; it had already been in operation for about 50 years.
    The previous operator, Andalex Resources, had extracted most of the 
mine's recoverable reserves utilizing a technique known as longwall 
mining. After completion of the final longwall panel the only remaining 
reserves were the ``barrier pillars'' and the mine's main entry 
pillars. Andalex Resources deemed this remaining coal crucial to 
maintaining the mine's stability. In documents it filed with the Utah 
Division of Oil, Gas and Mining that company stated,

          ``Although maximum recovery is a design criteria, other 
        considerations must be looked at in the final analysis in the 
        extraction of coal. These factors consider the insurance of 
        protection of personnel and the environment. Solid barriers 
        will be left to protect the main entries from the mined out 
        panels and to guarantee stability of the main entries for the 
        life of the mine.''

    Despite these expressed concerns of Andalex Resources, e-mail 
correspondence between the engineering firm of Agapito Associates, Inc. 
and Mr. Lane Adair of GENWAL Resources on August 9, 2006, indicated it 
had completed a preliminary review of the ``. . . proposed retreat 
mining sequence in the Main West Barriers. . . . '' This correspondence 
occurred on the same day that Murray Energy Corp. apparently became the 
``controller'' of the operation. On December 10, 2006, Agapito 
President and Director, Michael Hardy, sent a letter to Mr. Adair after 
visiting the mine to ``. . . review the ground conditions of the room 
and pillar mining in the north pillar along Main West. Mr. Hardy 
determined that, ``There was no indication of problematic pillar 
yielding or roof problems that might indicate higher-than-predicted 
abutment loads.'' Beginning 10 days later, December 20, 2006, Murray 
Energy's subsidiary, UtahAmerican Energy, Inc. (hereafter referred to 
as ``Murray Energy'') submitted several amendments to the roof control 
plan to develop entries into the North Barrier, Main West; it sought to 
remove pillars from those entries during retreat mining operations 
after the entries were developed. MSHA, District 9 Office in Denver, 
Colorado approved each of these plans.
    In early March 2007, the Crandall Canyon Mine experienced a large 
``mountain bump'' while pillar extraction was being conducted in the 
North Barrier. The bump was so severe that Murray Energy abandoned its 
plans to develop the remaining north panel (consisting of approximately 
54 pillars), and sealed the area. While it is unclear if Crandall 
Canyon Mine management officially notified MSHA of this event, the 
resulting seal plan that had to be submitted to the Agency should have 
at least raised questions about why the operator was abandoning that 
large area of the mine. It will be interesting to see whether MSHA will 
decide that the mountain bump of March 2007 was ``reportable'' under 
existing law; if that comes back negative, then we should consider what 
changes are needed to ensure that future events of that magnitude are 
considered by MSHA when it reviews a mine's operating plans.
    Before the large ``mountain bump'' in early March, Murray Energy 
had submitted plans to develop the South Barrier of Main West. On March 
8, 2007, MSHA approved a request by mine management to pillar the area. 
Pillar extraction continued until August 6, 2007, at which time the 
retreat mining was almost due south of the area where the bump had 
caused the operator to abandon the North Barrier section. At that time, 
a catastrophic ``mountain bump'' trapped the six miners in the working 
section. The force of the bump registered approximately 3.9 on the 
Richter Scale at the University of Utah Seismic Stations.
    Considering that only the North and South Barrier pillars separated 
the mine's main entries from vast areas of unsupported gob, and that 
the previous owner refused to mine these barriers for safety reasons, 
it is deeply distressing that Murray Energy sought to mine in this 
area, and submitted such plans to MSHA. Because of the extent of the 
previous mining there can be no doubt that the overburden was exerting 
extreme pressures on the remaining coal reserves. It is impossible to 
believe that development and pillar extraction of the barrier pillars 
in the Main West area of the mine, which began sometime after August 
2006, would not adversely impact the conditions in the mine.
    From all that we have seen, we believe that plans to perform pillar 
development and extraction of the barrier pillars at the Crandall 
Canyon Mine should never have been submitted. Further, and perhaps more 
importantly, MSHA is charged with protecting miners' health and safety, 
and should never have approved such a request. It is high time for mine 
operators and MSHA to realize that miners' lives, and not the mining 
product, is the most valuable resource of the mining industry. Only 
when this happens can we arrest the needless loss of life in our 
Nation's coal fields.
          external communications problems at crandall canyon
    It is unfortunate that the management team at the Crandall Canyon 
Mine spent so much energy trying to deflect blame in this tragedy. It 
is equally unfortunate that MSHA ignored the will of Congress in its 
reaction to this disaster.
    Section 7 of the MINER Act states that MSHA ``shall serve as the 
primary communicator with the operator, miners' families, the press and 
the public.'' Nevertheless, in Utah, it appeared as though MSHA 
surrendered its role as chief communicator. As a result, a great deal 
of inaccurate and misleading statements and information went over the 
airwaves. The effect was that millions of Americans were given 
incorrect and misleading information right from the start of this 
disaster, and MSHA allowed it to happen. Here are some examples:

    1. From the very beginning, Murray Energy's Owner and Chief 
Operating Officer, Robert Murray, asserted that ``an act of God'' in 
the form of a natural earthquake caused this catastrophe. He suggested 
that the ``seismic activity'' at the mine was uncontrollable and 
unrelated to his company's activity. However, from tapes made of calls 
to the local Sheriffs office that same morning, it is apparent that 
from the time it occurred, University of Utah seismologists believed 
the activity was the result of coal mining.
    2. Time and time again Mr. Murray emphatically stated that he knew 
exactly where the trapped miners were. Yet 8 weeks and many boreholes 
later he still has not been able to locate the miners.
    3. Mr. Murray also strenuously objected to reports that miners were 
performing a final method of mining referred to by the media as 
``retreat mining.'' Again, he was not giving true information: from the 
approved mining plan it is evident that this mine was in the process of 
``pulling pillars,'' which is a particular type of retreat mining. Not 
only was this operation performing ``pillar mining'' or ``pillar 
extraction,'' but in communications involving this mine, principals 
characterized this mining process as ``retreat mining.''
    4. Mr. Murray claimed that the mine was perfectly safe when he 
invited non-
essential personnel from the media and families to tour the underground 
rescue work. However, not only did they experience a ``bump'' while 
they were underground, but it was in the same vicinity where nine 
rescuers were injured and three were killed just days later.
    5. Mr. Murray stated that he had not had any major accidents at any 
of his mines prior to this. The truth is that four miners have been 
killed at Mr. Murray's mines. Any time a miner is killed, that 
constitutes a major accident.
    6. Mr. Murray continually said that the UMWA was trying to organize 
the Crandall Canyon mine, and that somehow was intended to suggest 
nothing we had to say about this incident could be trusted. While we 
strongly believe that all miners should have the benefits of a union 
contract--not the least of which is the enhanced safety language 
written into our contracts--we were not engaged in an organizing 
campaign at that mine at the time of the incident there, nor had there 
been any organizing activity at that mine for years.
    7. Mr. Murray also claimed that the UMWA was responsible for the 
stories about the company intending to reopen a part of the mine to 
production, when in fact it was his own Murray Energy vice president 
who made those statements to reporters.

    These are but some examples of the inaccurate and misleading 
statements Mr. Murray made that met with no contradiction from MSHA--
statements that were seen by many as having an ``official'' stamp of 
approval since in most cases they were made with MSHA officials looking 
on, making no attempt to correct him.
    What was so astounding about the press conferences at Crandall 
Canyon is that the conduct of Mr. Murray, and MSHA's indulgence of him, 
were directly contrary to Section 7 of the MINER Act, which Congress 
expressly added to prevent the kind of misinformation debacle that 
occurred at the Sago mine. There, the families were first told their 
loved ones were alive and were leaving the mine, whereas the reality 
was that only 1 of the 13 survived; it was hours before the 
misinformation was corrected.
    Regardless of whether Mr. Murray may have wanted to convene and 
conduct press conferences, there was no reason, requirement or benefit 
to the miners, their families or the public for MSHA to participate in 
the events that he, as the private operator, staged. As the Federal 
Agency affirmatively charged with communicating with the families and 
press, MSHA should have exercised its power and conducted independent 
press conferences to provide objective reports of developments at the 
disaster site. Instead MSHA representatives yielded their authority; at 
best they stood in the shadows as the coal operator spun his story, at 
worst they cowered out of view refusing to correct the half truths and 
misstatements. Further, it has been widely reported that Mr. Murray's 
attitude was abrasive and demeaning to these grieving family members. 
MSHA's responsibility to serve as the liaison should have protected the 
families from him.
             families facing a mine disaster deserve better
    In the MINER Act, Congress took action to ensure that families 
facing mining disasters would be treated with the dignity they deserve 
and would be kept abreast of the most accurate information available. 
This did not happen for the families of the trapped miners at Crandall 
Canyon. Like the Sago families in January 2006, they were held almost 
as captives, awaiting any bits of information (or misinformation) 
delivered by the coal operator.
    How is it possible that MSHA could get it so wrong in Utah? How 
could it ignore the mandates of Congress, which requires the Agency to 
take charge of such accidents and serve as the liaison with the 
families and press? By allowing this mine owner to take center stage, 
MSHA ignored the directives of the MINER Act. In so doing, it failed 
the families at Crandall Canyon. They deserved--and still deserve--much 
better. If the leadership of MSHA is not willing or able to limit the 
activity of a single mine operator in the face of express authority to 
take such control, how can we expect them to effectively lead the 
Agency that is charged with regulating an entire industry?
    On behalf of their loved ones, the families of those trapped at 
Crandall Canyon asked the UMWA to serve as their miners' 
representative. They want their designated representative to 
participate in the accident investigation. However, MSHA has rejected 
their request, claiming that it would have to first verify that the 
miners themselves made the designations. Obviously, a trapped miner 
cannot provide that assurance. Their next of kin attempted to fill the 
void to ensure that the trapped miners have a representative looking 
out for their interests.
    By denying the family members a right to designate a miners' 
representative for their trapped miners, MSHA has essentially said that 
when miners are trapped in a mine, they forfeit their right to 
designate a section 103(f) representative; their Mine Act rights are 
thereby nullified through no fault of their own. In denying the 
families the right to make such a designation for their trapped miners, 
MSHA has prevented those most affected by the tragedy from having a 
voice at the table during the investigation. This is offensive and must 
be corrected.
    MSHA's spokesperson criticized the UMWA for attempting to serve as 
the trapped miners' designated representative, claiming that we ``are 
trying to use a law enforcement investigation for its own purposes.'' 
We confirm that the UMWA does have its own purpose in mind. The reason 
is simple: we want honest and complete information about everything 
that happened--from before the latest mining plan got prepared, 
submitted and approved. We want to make sure no more miners' lives are 
needlessly lost. The UMWA is the ONLY organization in this country that 
is dedicated to advocating for miners' health and safety. We are proud 
of advancements that have been made at our urging, and we don't plan to 
stop anytime soon.
    So yes, the UMWA does have a purpose of its own here: to fight for 
and improve mine safety in America. We invite MSHA to join us in that 
endeavor, instead of casting veiled aspersions on our efforts on behalf 
of coal miners and their families.
    To the extent that MSHA feels current law may not allow it to 
recognize the UMWA as a miners' representative absent proof that the 
miners themselves have made the designations--something the trapped 
miners obviously cannot satisfy--we urge Congress to change the law. 
Family members of those trapped, injured, or killed in a mine accident 
should have the right to designate a trusted representative to 
participate in the accident investigation.
    MSHA has further indicated that regardless of whether the UMWA 
would be recognized as the miners' section 103(f) representative, the 
Agency plans to limit attendance at witness interviews to just MSHA and 
representatives of the State of Utah. Not only is the Agency excluding 
the UMWA, but MSHA is refusing to share access to interviews and 
documents with the Utah Mine Safety Commission until after MSHA 
completes its investigation, which will likely be many months from now. 
It is also denying such access to the press.
    While MSHA claims that providing such access might ``compromise the 
integrity of the investigation and potentially jeopardize MSHA's 
ability to enforce the law,'' we are skeptical of the asserted bases 
for restricting access. Moreover, this is materially different from how 
MSHA conducted investigations of the Jim Walters and Sago disasters. I 
participated in both of those investigations and the UMWA had access to 
information while MSHA pursued its investigation. After making our own 
independent review of the facts from each disaster, the UMWA issued 
separate reports: they were critical of MSHA, as well as the respective 
operator. In considering MSHA's rationale for denying access during its 
investigation at Crandall Canyon, it is important for you to know that 
MSHA has never claimed that access to other interested parties during 
either the Jim Walters or Sago investigations in any way compromised 
the Agency's ability to engage in its law enforcement efforts.
    We have asked Secretary Chao to reverse the position MSHA has taken 
both in response to our effort to serve as the trapped miners' 
designated representative, and our request to attend the witness 
interviews. We await her reply.
    Further, and as we have written to you, the UMWA feels that it is 
imperative that there be a truly independent investigation of this 
tragedy. A copy of the letter President Roberts sent to congressional 
leaders is attached. Curiously, Secretary Chao claims to have appointed 
an independent team, but those she appointed assuredly are not 
independent. Rather her team is being lead by two retired MSHA 
inspectors. Thus, MSHA and the operator are once again investigating 
what they themselves (i.e., their colleagues) did. This is not the best 
way to ask the hard questions or to get the full truth. Our goal must 
be to learn from what went wrong at Crandall Canyon so that no more 
families will suffer such needless loss of life.
                     collection of civil penalties
    In the MINER Act, Congress charged MSHA with revising and enhancing 
its penalty structure. While it has adjusted the penalty structure, the 
Agency still needs to do a better job of tracking and collecting the 
fines it imposes and enhancing the pressure when operators refuse to 
pay final penalties.
    Last year MSHA blamed computer problems on its inability to track 
fines; we understand that it still faces some technological challenges. 
If that is the case, then MSHA needs to fix the problem. When fines go 
unpaid it not only gives an unfair competitive advantage to the 
delinquent operator, but that operator's disregard for the mine health 
and safety laws and regulations imposes excessive risk on its 
employees. Moreover, the fine system itself is not working well. 
Indeed, GAO reported that almost half of the fines that underground 
coal operators challenge are compromised, and that of those contested 
the fine has typically been cut by about 50 percent!
    To the extent that MSHA takes the position that it cannot close an 
operation for having substantial unpaid fines, we submit that Congress 
should expressly grant the Agency such authority. MSHA's top personnel 
claim that if MSHA had that authority the Agency would exercise it to 
close operators who refuse to pay their fines. We would welcome that.
                      msha hotline and retaliation
    The Union has complained for some time that the current hotline 
system miners use to report hazardous conditions is ineffective. When a 
UMWA member called the 800 number listed on MSHA's Web site to report a 
problem at the mine, his call was answered by a contract employee who 
did not have any knowledge of mining, making it extremely difficult for 
the miner to convey his message. Further, the individual at the call 
center was not remotely familiar with MSHA's District structure and 
therefore did not know which office should receive the complaint.
    The Union has stressed on many occasions that the MSHA hotline 
should be staffed 24 hours a day, 7 days a week by MSHA personnel with 
an understanding of both the mining industry and the Agency. The 
current practice of contracting this work out to call centers lessens 
miners' health and safety.
    Also, many miners are reluctant to voice their concerns about 
safety and health problems due to a fear of retaliation and black-
balling. Coal mining jobs are good jobs and in many mining communities 
they are by far the best (if not only) jobs to be had. Unfortunately, 
the problem of retaliation plagues the entire industry, from East to 
West, and North to South.
    The most recent examples involve Crandall Canyon Mine owner Bob 
Murray. He has sent threatening letters to at least some of those who 
criticized him while the Crandall Canyon disaster was playing out. We 
understand that he has sent such letters to press and private citizens, 
as well as politicians.
    The UMWA has its own experience defending against such claims of 
Mr. Murray. He sued the UMWA's Secretary Treasurer for comments made 
during a labor dispute we had with some of his Eastern operations. 
Though the UMWA successfully defended those suits and both were 
dismissed by the courts, his threats could serve to silence some would-
be critics, and we suspect that is his chief goal. His threats are 
inconsistent with this country's notion of free-speech, though they 
illustrate the kind of challenges a rank and file miner might worry 
about before daring to speak out.
    When miners fear that speaking out will cost them their livelihood, 
they remain silent, even when they have bona fide concerns about mine 
health and safety. I submit that no job is worth sacrificing your 
health or safety. It is the role of the government to protect miners' 
safety and health. The Mine Act states that plainly. Nevertheless, when 
miners are afraid to speak out, the government is not doing its job of 
providing them with adequate protection.
                           mine rescue teams
    We are also troubled by MSHA's failure to undertake meaningful 
action to facilitate the creation and training of additional mine 
rescue teams. Over the past 20 years MSHA and some operators have 
weakened how the regulations regarding mine rescue teams are 
interpreted and applied. The existing mine rescue team structure is 
spread too thin. It takes a lot of time and much practice for any mine 
rescue team to function well.
    Congress in the MINER Act clearly outlined its intent regarding the 
need for additional mine rescue teams. In addition, the language 
clearly defines how this is to be applied at both large and small 
mines. Nevertheless, MSHA's newly proposed regulations fall far short 
of what is needed. We will be submitting comments through the 
rulemaking procedure, but I can tell you today that the regulations 
bear little resemblance to what we anticipated, and what is needed.
    The MINER Act contains language that was negotiated between the 
union and management representatives based on numerous shared concerns. 
Both sides of the table were concerned about the inadequate number of 
rescue teams as well as the fall-off in training opportunities, and 
teams' participation in contests that offer them a chance to experience 
mock emergencies so they can respond with skill and confidence when 
they confront real disasters. The proposed regulations do not meet the 
statutory language or its intent.
    Though the MINER Act provided for MSHA to certify mine rescue teams 
every 5 years, the certification process MSHA has proposed consists 
largely of paperwork reviews, rather than testing of rescue teams' 
practical skills. Thus, not only is the mine rescue system no better 
today than it was in January 2006 when it took many hours for the first 
teams to arrive at Sago, but the regulations MSHA has proposed will not 
induce the creation of more highly-skilled mine rescue teams. The need 
is real and it is immediate.
    We believe MSHA will require additional funding to do the kind of 
certifications that are needed to ensure that mine rescue teams are 
qualified as contemplated by the MINER Act. The UMWA has training 
facilities and is willing to provide mine rescue training and first 
responder training if we receive the necessary funding. Miners cannot 
afford to wait any longer for the training of new teams to begin.
                additional safety issues and challenges
    <bullet> Miners should be provided multi-gas detectors to alert 
them to the mine atmosphere they are working in.
    <bullet> Atmospheric monitoring systems should be mandated at all 
mines to alert miners if any dangers occur throughout the entire mine, 
not just in the area they are working.
    <bullet> We need to push the development of a new self-rescuer that 
will last longer and be more user-friendly when switching from one to 
another if necessary during escape.
    <bullet> Stronger ventilation controls should be required that are 
used to separate our fresh air escapeways that miners have to travel in 
the event of a mine fire.
                additional health issues and challenges
    While my concern for miners' safety is substantial, I would be 
remiss if I did not also speak briefly about challenges miners confront 
with regard to outstanding health issues:

    <bullet> Miners are still dying from Black Lung. The use of a new 
device called a Personal Dust Monitor can be a very helpful tool in 
keeping miners from being overexposed to high levels of dust 
concentrations.
    <bullet> With the development of the PDM we also need to explore a 
new dust standard that would reduce the miners level of exposure to 
coal dust and silica.
    <bullet> A new rock dust standard should be put in place that would 
decrease the amount of coal dust that is currently allowed to 
accumulate on the mine roof, ribs, and floor.
    <bullet> Equipment manufacturers should be made to design less 
noisy mining machinery, which would help reduce hearing loss.

    Addressing these matters would represent a good start in addressing 
today's challenges. If and when we can address all these issues then 
maybe we would bring our safety and health standards up to the 21st 
century. There are still other recommendations listed in the UMWA's 
Sago report, which has already been made available to you. That report 
can also be seen on our Web site at UMWA.org. We expect to be making 
further recommendations after more information comes to light about all 
that transpired throughout the Crandall Canyon disaster.
    We are most appreciative that Congress has worked towards 
increasing MSHA's budget so that more mine inspectors can inspect mines 
to ensure compliance with the Mine Act, which it now fails to 
accomplish. The need is immediate and continuing. We also need to take 
the next step in being more proactive in our approach to miners' 
protection. Operators have long been quick to introduce new 
technologies that improve production. It is time that they dedicate the 
same resources to the miners' health and safety.
    I also urge you to do all that you can to ensure that the 
investigation of the Crandall Canyon disaster is full and independent 
and that the families touched by this disaster get all the answers they 
want and deserve.
                               conclusion
    Although some changes have been made, I am sorry to report that 
MSHA's efforts over the past year have done little to change much for 
miners confronting a mine emergency. The Crandall Canyon disaster made 
that all too apparent.
    We are here to demand that MSHA commit to a full and consistent 
enforcement of both the Mine Act and the MINER Act, to improve miners' 
health and safety so that our industry will never again experience 
another mine disaster like Jim Walters, Sago, Alma, Darby, or Crandall 
Canyon. New technology is progressing on a daily basis and the UMWA 
urges MSHA to require mine operators to employ these technologies as 
they become available.
    We also seek assurances that MSHA will be aggressive in performing 
all mandated inspections, protecting miners who speak out for mine 
health and safety, assessing and collecting meaningful penalties when 
operators violate the law, and taking the lead when disaster strikes.
    I thank you for your attention today and your interest in miners' 
health and safety. I would be happy to answer your questions.

    The Chairman. Senator Allard introduced you before, if you 
want to expand on that, otherwise we'll go right to his 
testimony. Thank you.
    Senator Allard. Mr. Chairman, thank you for the 
opportunity.

   STATEMENT OF ROBERT FERRITER, DIRECTOR OF MINE SAFETY AND 
            HEALTH PROGRAM, COLORADO SCHOOL OF MINES

    Mr. Ferriter. Good morning, Mr. Chairman, and other 
distinguished members of the committee. My name is Robert 
Ferriter, I am the Director of the Mine Safety Program at the 
Colorado School of Mines in Golden, CO, and I very much 
appreciate the opportunity to add my comments, and address the 
events of the Crandall Canyon Mine disaster.
    I know that we are running short on time, so I'm going to 
abbreviate my remarks and just go to the meat of the things, 
because a lot of this has already been said.
    First of all, I'd like to clarify for the committee what a 
coal mine bump is. What is a coal mine bump? We've heard that 
expression used here several times this morning. What causes a 
coal mine bump? It's the fact that we have a very strong roof 
and floor, sediments above and below the coal deposit. These 
sediments in the area of Crandall Canyon, as a matter of fact, 
in the entire Wasatch Plateau--we have these sediments that are 
ranging in depth from two to three hundred feet. They are very 
heavy, very stable and what they do is squeeze the coal, or 
load the coal, until the coal is mined, and then it can 
explode.
    The Bureau of Mines in its previous research stated that a 
bump is an explosive-like failure of a pillar, part of a 
pillar, or many pillars. And if you saw some of the videos that 
were taken in Crandall Canyon, you see all of the debris, and 
the floor heave, we know this was a bump. It was caused by 
excess pressure on the overlying, on the strata.
    To move on, quickly, my personal experience with coal mine 
bumps, having been an MSHA technical person, about 10 years in 
the supervisory capacity and about 17 years working in the 
different coal mines in Utah and other places--I have always 
been of the opinion that we will experience coal mine bumping 
in the Wasatch Plateau Coal Fields, when we reach depths of 
about 1,000 or 1,200 feet. So, the mine design should always be 
prepared to handle these type of things.
    Now, to mitigate the frequency of gate road pillar bumps in 
these mines in the Utah area, over the years mine operators in 
the area have used what is called a two-entry gate road 
yielding road configuration. Now, the gate roads are the 
entries which are developed to access the coal area of a long-
wall panel, and if you look on the map up there, you will see 
that there are two entries there, going back to where the long 
walls were.
    Mine crews, supplies, ventilation air, and extracted coal 
are moved through these entries. This approach attempts to 
soften the ground around the gate road system, thereby 
restricting bump-
inducing stresses, to deep within the confines of the adjacent 
barrier pillars.
    In general, this approach has been very successful when 
employed correctly. Problems, however, arise when pillar sizes 
are too large or too small, and the improperly sized pillars 
are termed critical pillars, and these are the ones most likely 
to suffer a bump.
    There are several techniques commonly accepted in the coal 
fields: de-stressing of the pillars, volley firing, hydraulic 
fracturing--all of these are an attempt to soften the pillar by 
one means or another, and actually move the stresses deeper 
within the pillar so they don't fracture out where they can 
actually injure miners.
    NIOSH and its predecessor agency, the Bureau of Mines, has 
done an extremely good job, in my opinion, of preparing the 
industry for handling coal mine bumps, they have issued a lot 
of publications, they have done a lot of research. The Denver 
Center, in Colorado, did a lot of computer modeling of coal 
mine bumps, and have issued many, many publications on this. 
Probably the most noteworthy at this time is the NIOSH 
Publication 1-95, which was published in 1995, and it's really 
considered the Bible of bump control. There are other NIOSH 
publications addressing this topic, also.
    In more recent years, in 1995, NIOSH developed the ARMPS 
program with some of the panel members you talked about 
earlier. This program has been proven and it is readily 
available through the Internet. It is available to consultants, 
to mining companies, and to anyone who wants to use it.
    They have also developed the program called ``The Model.'' 
These technologies were developed, documented, and have been 
distributed freely as engineering design tools to assist both 
long-wall, and room and pillar coal operators in their daily 
decisionmaking process. The tools are particularly useful 
during the mine planning stage, pillar design and layout, and 
the retreat mining warning of early red flags of potential 
catastrophic events.
    The second aspect of computer modeling is you have to have 
physical property testing, which you can put into the models. 
And this has to be realistic. Again, NIOSH has created a 
comprehensive database that includes more than about 4,000 
tests, strength tests, from 60 different coal seams, and these 
data were compared with about 100 case studies of in-mine 
pillar performance in the Retreat Mining Stability Database, 
and are available on a default basis in the computer programs.
    So, we have the publications and we have the techniques to 
handle bumps.
    Now, in the Crandall Canyon Mine disaster, in the pre-
planning mining configuration, both pillars--the north and the 
south of the main entries there--the main entries are actually 
the lifeline of the mine--all of your ventilation comes in 
through this, the coal is removed, mining crews travel these 
entryways, so the mine operator will protect those entries at 
all costs. If he loses those entries, he loses the mine.
    But, in this case, they are both--both barrier pillars are 
subjected to loading and stress build-up, one from the adjacent 
gob areas, and your drawing up there does not show the gob area 
to the north, but it's about the same size as what the one on 
the south is, and it goes up to the ceiling there. These 
adjacent gob areas are caved areas left after the long-wall 
mining process, and they are definitely areas to be considered 
when you are modeling any of these type of things.
    The Chairman. Is this more reflective of what you were 
just----
    Mr. Ferriter. That's more reflective, yes, because that 
shows the gob areas both to the north and to the south of the 
main entries. Yes.
    Thank you.
    The Chairman. Thank you.
    Mr. Ferriter. Naturally occurring overburden above the coal 
seams--and in this case, we had something in the neighborhood 
over 1,700 to 2,200 feet--the loading created by the planned 
cave-in event on the extracted pillars in the pillar-robbing 
area, basically taking these barrier pillars, some 415 feet in 
length, when Murray coaled this, this was kind of a salvage 
operation of the mine. I mean, you would not operate the mine 
unless those pillars were in place for a long period of time, 
and in my opinion, Murray was merely trying to get recoverable 
coal resources out of the mine, because it was going to be 
abandoned. So, I would classify this as a salvage operation.
    Now, we know we had bumps in the North Barrier pillar, and 
we moved to the South. This, to me, is a real red flag. We had 
the same geologic conditions in the South Barrier that we had 
in the North Barrier, we've had bumping in the North Barrier, 
we've made minor changes in the mining plan in the South 
Barrier, and then we went in there and started mining again.
    The first few months, as you would expect, as you retreat a 
pillar mining section, you will develop your cave behind the 
pillar line, so we probably did not see any bumps in the first 
few months. But as that cave area gets bigger and bigger, and 
then you load the pillar line, and then you will see bumping.
    Now, I checked MSHA's accident data files, and I did not 
see any reported bumps in the South Barrier pillar in the 
months of May, June or July. However, my experience tells me 
that bumping probably did occur. I suggest that the committee 
interview miners who worked in the South Barrier pillar, and 
they will either confirm or counterject this opinion.
    Miner interviews should also be conducted to validate if 
visual signs of excessive pillar loading, such as stress 
buildup or pillar hour glassing, floor heave, unstable roof, 
the abnormal breaking of pillars--all of these things are 
indications, visual indications, which can be attributed to 
over-stressing of the pillars and they should be taken 
seriously to prevent a major catastrophic event.
    Now, there's been some erosion of bump expertise in the 
West. The Wilberg Mine disaster, which I'm sure some of us here 
remember, was not caused by a bump, but the Wilberg Mine 
disaster was a mine fire in December 1984.
    The Chairman. We're going to give you another minute and a 
half or so, just so you know.
    Mr. Ferriter. OK, I'll just--we have a broken system here 
with the approval of the plan. Let me just make a couple of 
recommendations and then you can ask questions.
    In my opinion, the recommendations that the committee 
should take is the rescue effort at the Crandall Canyon Mine 
was severely hampered by the inability to both locate the 
missing miners and determine their physical condition, heart 
beat, respiration, etc. The importance of through-the-earth 
two-way communications and tracking was spotlighted in the 
development of new technology to alleviate this condition needs 
to be addressed. The sooner the better.
    Also, I would strongly recommend to the committee, that 
accidents involving multiple fatalities or disasters, should be 
investigated by a Federal entity, independent of the regulatory 
department. To protect the validity of the investigation and to 
ensure impartiality and fact finding, an independent entity 
needs to conduct these investigations. This will allow an 
unbiased determination of process errors, misjudgments by all 
involved parties, and speed the requirements for corrective 
actions to further improve workplace safety for our Nation's 
most valuable resource, the miner.
    If this is not done, I don't believe anything will change 
and these miners will have died in vain. So I would strongly 
make that recommendation to you.
    Thank you for your time and attention and I will answer any 
questions.
    [The prepared statement of Mr. Ferriter follows:]
    Prepared Statement of Robert L. Ferriter, EM, PE, CMSP and Nick 
                           Kripakov, MSME, PE
    Good morning Mr. Chairman and other distinguished members of the 
committee. My name is Robert Ferriter. I am the Director of the Mine 
Safety and Health Program at the Colorado School of Mines in Golden, 
Colorado. I very much appreciate the opportunity to address the 
committee today to present my views on the events and conditions which 
led to the disaster at the Crandall Canyon Mine, and the actions of 
both the operator and the Mine Safety and Health Administration (MSHA) 
during the failed rescue attempt. Based on my observations of the 
recent disaster, my experience as a mining engineer, an MSHA employee 
(27 years) and supervisor (17 years), and frequent evaluator of 
underground mining practice in the Utah coal fields, I believe there is 
much that needs to be done to improve safety and workplace conditions 
in western underground coal mines to protect our Nation's most valuable 
resource--the miner.
    To offer my views in an orderly fashion, I will briefly revisit the 
Crandall Canyon disaster in chronological order, adding pertinent 
geologic information, explanation, historical safe mining practices, 
and applicable MSHA safety regulations and contributing events which 
framed the disastrous event of August 6, 2007.
                            a. first reports
    (a) Earthquakes. On the morning of August 6, 2007, the company 
reported to the news media that a seismic event, or earthquake, caused 
a major underground mine collapse at the Crandall Canyon Mine located 
in Carbon County near Huntington, Utah. These reports were immediately 
challenged by various mining experts who had studied the coal mine bump 
phenomena in the Wasatch Plateau and Book Cliff coal fields in east-
central Utah. By Tuesday, August 7, 2007, the very next day, 
seismologists and the U.S. Geological Survey's National Earthquake 
Center in Golden, Colorado established that the August 6, 2007 event 
recorded on various seismographs throughout the west was indeed an 
implosion, or mine collapse located at the Crandall Canyon Mine. There 
is no debate among professionals that this was a mining-induced seismic 
event (coal mine bump).
    (b) Coal Mine Bumps. Coal mine bumps have presented serious mining 
problems in the United States throughout the 20th century to the 
present day. Fatalities and injuries have resulted when these 
destructive events occurred at the working face of the mine. Persistent 
bump problems have caused numerous fatalities and serious injuries, the 
abandonment of large coal reserves, and premature mine closure and loss 
of coal reserves. Bumps are characterized as releases of energy 
associated with unstable yielding that occurs with progressive mining. 
An unstable release of energy occurs when the coal and rock is not able 
to absorb the excess energy released by the surrounding rock during the 
yielding process. Holland (BuMines Bulletin 535, 1954) defined a bump 
as a sudden and explosive-like failure of a single pillar, part of a 
pillar, or several pillars with varying degrees of violence accompanied 
by a very loud noise.
    Through the years, a variety of techniques were proposed and 
implemented to mitigate bumps. Mining history is rich with examples of 
innovative proposals that, at best, temporarily alleviated this complex 
problem. From the 1930's to the present, NIOSH (former USBM) has 
conducted fundamental research on the geologic environments and failure 
mechanisms responsible for coal mine bumps and on methods to control 
them.
    During the 1930's, USBM research indicated that both geology and 
mining practice (geometry and sequence) play key functions in bump 
occurrence. Strong, stiff roof and floor strata not prone to failing or 
heaving were cited as contributing factors when combined with deep 
overburden. Various poor mining practices that tended to concentrate 
stresses near the working face were identified and discouraged. 
Although such qualitative geologic descriptions and design rules-of-
thumb have persisted through the years, the need to better quantify 
bump-prone conditions remains.
    Mine operators take little comfort in generalities when they have 
experienced a bump and must determine if another is imminent. Specific 
questions about the influence of individual factors and the interaction 
among factors arise but are often difficult to answer owing to the 
limited experience at a given mine. Often, many parameters change 
simultaneously, i.e., strength and stiffness of roof and floor, 
proximity of strong lithologic units in a coal bed, depth of 
overburden, mine geometry, and mining rate. (Above discussion 
referenced from--Occurance and Remediation of Coal Mine Bumps, by 
Iannacchione and Zelanko, 1995.)
                b. geologic conditions which cause bumps
    (a) Strong Roof and Floor Strata. Strong floor strata immediately 
below the coal seam and strong roof strata within 30 to 50 feet of the 
seam have long been recognized as major contributors to coal bumps 
(Holland and Thomas, 1954; Iannacchione and DeMarco, 1992; Peparakis, 
1958). In fact, the confinement offered to the coal seam by these 
stronger, stiffer strata appears necessary to generate levels of stored 
energy sufficient to cause bumps within and immediate to the coal seam 
structure (Babcock, 1984).
    (b) Sandstone Channels in Immediate Roof. Sandstone channels are 
stress-concentrating structures that are directly related to bumping 
along longwall panels nationwide. The massive nature of many of these 
units appears to be the major factor affecting bump initiation 
immediate to these features.
    (c) Strong Coal Seams. While it has been shown that most U.S. coals 
can be made to bump under the right combination of confinement and 
loading conditions (Babcock, 1984), it is worthwhile to mention the 
seam characteristics in some Western operations that appear to 
influence bumps. The two most prominent contributors are: (1) randomly 
changing coal cleating, and (2) the presence of strong rock splits in 
the mid to upper portion of the seam. While it is not necessary for 
these conditions to be present for bumps to occur, they have been 
linked to some of the worst bump conditions documented in Western 
mining.
    (d) Fault and Shear Zone Structures. Investigations of fault and 
shear zone structures in the central Utah coalfields point to basic 
concerns: (1) the effect of significant changes in the stress field in 
the vicinity of these discontinuities, and (2) the loading potential of 
isolated blocks of strata above the seam. Whether strike-slip movement 
along fault structures is responsible for dynamic load changes has yet 
to be more thoroughly determined (Boler, 1994), but changes in loading 
conditions have been noted as major contributors to bumping when mining 
approaches a discontinuity (Iannacchione and DeMarco, 1992; Peparakis, 
1958).
    (e) My personal experience in dealing with coal mine bump problems 
in the Utah coal fields have indicated that one should always 
anticipate bumping when mining deeper than about 1,200 feet, and 
develop the mining plan accordingly.
            c. mining techniques to reduce bump occurrences
    (a) Mine Design. To mitigate the frequency of gate road pillar 
bumps, over the years mine operators in the Wasatch-Book Cliffs 
coalfields have implemented the use of two-entry, yielding-pillar gate 
road configurations. (Gateroads are the entries which are developed to 
access the coal extraction area of a longwall panel. Mine crews, 
supplies, ventilation air and extracted coal are moved through these 
entries.) This approach attempts to soften the ground around the 
gateroad system, thereby restricting bump-inducing stresses to deep 
within the confines of the adjacent panel abutment. In general, the 
approach has been very successful when employed correctly. Problems 
arise, however, where pillar sizes are too small or too large. These 
improperly sized pillars are termed ``critical pillars'' and their use 
can result in the most extreme hazard possible.
    (b) Destressing. Coal, or in some instances roof and/or floor rock, 
is intentionally fractured and made to fail. As a result, high stress 
accumulations can not occur in the fractured part of the mine 
structure. Unfortunately, destressing can occasionally trigger a bump 
in another section of the mine.
    (c) Volley Firing. Destressing by volley firing has successfully 
reduced the number of bumps in several Western coal mines. In this 
method, explosives are used to fracture the coal face to a certain 
depth before mining. The method is used prior to face advance or entry 
development to advance the high stress zone away from the working face.
    (d) Hydraulic Fracturing. This method involves the injection of 
fluid under pressure to cause material failure by creating fractures or 
fracture systems. Hydraulic fracturing is most effective in the roof 
and coal seam ahead of the longwall face.
    (e) Recent Publications. Special Publication 01-95, U.S. Bureau of 
Mines (BOM)(Function transferred to NIOSH).
    Papers presented at a BOM technology transfer seminar describes the 
causes of violent material failure in U.S. mines, measurement 
techniques for monitoring events that result in violent failure, and 
mitigation techniques for controlling failure. The BOM looked at 16 
mines--both coal and hard rock--and analyzed 172 bumps or mining-
induced seismic events. The BOM publication describes new monitoring 
and analysis techniques developed as tools for assessing violent 
failure; and seismic methods for determining source locations, 
calculating energy release, and determining source mechanisms are 
described. USBM studies identified the advantages using both yielding 
and stable pillars for coal bump control. A computer program has been 
developed as an aid for selecting room-and-pillar layouts. Additional 
available references include:

    <bullet> Deep Cover Pillar Extraction in the U.S. Coal Fields (see 
NIOSH Web Site).
    <bullet> Preventing Massive Pillar Collapses in Coal Mines (see 
NIOSH Web Site).

    (f) Modeling Programs. NIOSH (former BOM) has developed three 
computer-based technologies for use by the mining industry to evaluate 
proposed mine designs. The programs are called LAMODEL, ALPS and ARMPS. 
These technologies were developed, documented, and have been 
distributed freely as engineering design tools to assist both longwall 
and room-and-pillar coal operators in their daily decisionmaking 
process. The tools are particularly useful during: (1) the planning 
stage (pillar design and layout), and (2) retreat mining, as an early 
warning of potential impending failure.
    (g) Physical Property Testing. NIOSH (formerly BOM) created a 
comprehensive database that includes more than 4,000 compressive 
strength test results from more than 60 coal seams. These data were 
compared with 100 case studies of in-mine pillar performance from the 
Analysis of Retreat Mining Pillar Stability (ARMPS) database.
    There is also evidence showing why laboratory strength does not 
always correlate with pillar strength. The data showed clearly that the 
``size effect'' observed in laboratory testing is related to coal 
structure. Laboratory tests do not account for large-scale 
discontinuities, such as roof and floor interfaces, which apparently 
have more effect on pillar strength than a small-scale laboratory 
mining structure.
                      d. evaluation of mining plan
    (a) Pre-pillar mining configuration. Prior to the practice of 
retreat mining in the Crandall Canyon Mine, previous mine development 
by Andalex Mining Co. had left a five-entry primary ventilation, belt 
conveyor, and services conduit known as Mains West. This primary access 
to the mine was protected on both the north and south sides by a 
massive ``barrier pillar'' of solid coal approximately 500-ft. wide. 
Longwall extraction panels had been extracted both to the north and 
south of Mains West barrier pillars. Apparently, this configuration was 
stable, as no indication of bumping or roof falls were recorded in the 
area of planned retreat pillar mining. In several areas, both the North 
and South barrier pillars lie beneath approximately 1,700 to 2,200 feet 
of massive sandstone and various sedimentary strata.
    In the pre-pillar mining configuration, both barrier pillars are 
subjected to loading and stress buildup from: (1) the adjacent longwall 
gob areas, (2) naturally occurring overburden above the coal seam 
(1,700 to 2,200 ft.), and (3) loading created by the planned cave in-by 
the extracted pillars. Therefore, the pillars to be extracted are 
subjected to the combined loading from these three separate sources, 
which create high stress levels in the pillars and increase the 
probability of bumping. The geologic environment in the mining area is 
known to be conducive to the occurrence of coal mine bumps. In spite of 
these known conditions, the complete removal of all the weight bearing 
pillars was planned.
    (b) Mining of North barrier pillar. As the North barrier pillar was 
mined and the coal pillars removed, a cave developed in-by the pillar 
line. Apparently, bumping problems occurred about x-cut 137 and two 
rows of pillars were left to alleviate the bumping. However, weight 
transfer overrode these pillars and major bumping occurred when the 
three pillars at x-cuts 133 through 135 were mined. This forced 
abandonment of coal extraction in the North barrier pillar near the end 
of March 2007 and movement of the extraction process to the South 
barrier. One should note that the overburden in both mining areas is 
1,700-plus feet in thickness indicating that very high static ground 
pressures existed in both mining areas.
    (c) Mining of South barrier. Pillar extraction was initiated in the 
South barrier sometime in May 2007. Extraction pillars were increased 
in size from 80 ft. by 92 ft. to 80 ft. by 129 ft. This increase was 
intended to isolate bumps to the face area and reduce the risk of 
larger bumps over-running the crews in out-by locations. The South 
barrier was also slabbed to a depth of about 40 feet to improve caving 
conditions and reduce concentrated loads at the face. (To slab in 
mining means to remove additional coal from the barrier pillar, thereby 
reducing the effective width of the barrier.) Again, it is noted that 
the geologic environment in the North and South barrier pillars is 
similar. Minor changes to the pillar sizes were made to reduce bumping 
at the face; however, basically a similar mining plan was in effect. 
Considering the similarities in geologic conditions, the similar pillar 
extraction plans with only minor modification, the history of bumping 
in the immediate mining area, and the development of an active cave in-
by pillar extraction mining, one could reasonably anticipate the 
occurrence of additional coal mine bumps. The risk was quite clear.
    MSHA accident files do not document any reported bumps in the South 
barrier area during the months of May, June and July, 2007. However, my 
experience tells me that bumping to some degree most likely occurred, 
even though it is not documented. Interviews with miners who worked in 
the South barrier pillar area will either confirm or contradict my 
opinion. Miner interviews should also be conducted to validate if 
visual signs of excessive pillar loading and stress buildup (pillar 
``hour-glassing'', floor heave, unstable roof, abnormal breaking of 
pillars, roof and/or floor) were observed. These are all common visual 
expressions of stress build-up which should be evaluated by competent 
technical personnel.
    (d) Post-Seismic Event Observations. Two observations of interest 
are readily apparent from the August 6, 2007 MSHA Web site postings and 
seismic event records: (1) the reported elapsed time of seismic event 
is approximately four (4) minutes. Based on my experience in similar 
investigations, this means that the event was initiated in one or more 
pillars (probably in the active pillar extraction area) at some 
location in the mine, and that not all pillars bumped at the same time. 
Rather, after the initial pillar(s) disintegrated, a weight transfer 
occurred, overloading adjacent pillar(s), which then disintegrated and 
transferred their load to successive pillar(s), in effect creating a 
domino effect, or ``cascading pillar failure.'' This would account for 
the extraordinarily long run of the bump; and (2) all the pillars that 
failed appeared to be located under approximately 1,700 feet or more of 
overburden. In my opinion, this indicates that all pillars under 1,700 
feet or more of cover were subjected to combined loads (as previously 
explained) which created stress levels somewhat under the failure level 
for the pillar. As the ``domino effect'' of the failure mechanism 
occurred, the weight transfer from the failed pillars to the adjacent 
pillar(s) increased the stress level of the receiving pillar(s) to the 
failure level, etc. Pillar(s) under less than 1,700 feet of cover had 
lower initial stress levels and, therefore, were able to accept the 
weight transfer without reaching unacceptable (failure) stress levels.
     e. continuing erosion of coal mine bump expertise in the west
    (a) Wilberg Mine Disaster (1984). Although not caused by a bump, 
the Wilberg Mine disaster (mine fire in December, 1984) focused 
significant attention on the geologic environs of the Utah coal 
deposits, their depths, bump occurrence, and the stability of deep 
(2,000 ft.) underground coal mine entries.
    In the Wilberg disaster, 27 miners lost their lives due to carbon 
monoxide poisoning. An underground compressor overheated, igniting and 
setting fire to the surrounding coal bed which burned for nearly 1 year 
before it could be extinguished. The miners underground at the time 
were trapped, unable to escape and died from poisonous gases.
    The mine used the two-entry retreat longwall mining method for 
removing coal. Access to the longwall panels was by what is known as 
the two-entry longwall gateroad access system. This system requires 
MSHA approval of an operator initiated 101 (c) Petition for 
Modification to use two-entry gateroads rather than three entries (one 
for intake air, one for return air, and one for the conveyor belt to 
remove coal from the longwall face). With only two-entries, the 
conveyor belt must be placed in either an intake or a return entry. 
Either case is a violation of current MSHA regulations, mandating 
approval of a 101 (c) Petition to use only two access entries.
    (b) MSHA's Two-Entry Longwall Task Force (1985). Immediately 
following the Wilberg mine disaster, the United Mine Workers of America 
(UMWA) began criticizing the use of the two-entry longwall mining 
system. The basis for their criticism was that with only two entries 
available for escape, the Wilberg miners were trapped, and that only 
three-entry longwall gateroad systems should be allowed by MSHA. Stung 
by this criticism and lacking any technical study to rebut the UMWA's 
charges, MSHA, in partnership with the U.S. Bureau of Mines, convened 
its Two-Entry Longwall Task Force to study all aspects of the Two-Entry 
system including, but not limited to: ground control, ventilation, fire 
prevention, electrical, dust control, escapeways, etc. The resulting 
report overwhelmingly endorsed the two-entry system because of its 
proven ability to reduce the occurrence of devastating coal mine bumps 
in western deep coal mines. The report, however, recognized the 
reduction in escapeways from face areas of the mines, and compensated 
for this reduction by recommending numerous safeguards, in addition to 
those required by MSHA regulations. The two-entry longwall gateroad 
system is now commonly used by Utah mine operators developing longwall 
extraction panels under more than 1,000 feet of overburden.
    (c) Elimination of U.S. Bureau of Mines (1995). In 1995, the 
Secretary of Interior disbanded the U.S. Bureau of Mines. All research 
centers were closed with the exception of the Spokane Research Center 
and the Pittsburgh Research Center. The effect on western coal mines 
was significant with the closing of the Denver Research Center and the 
termination of much of the research effort focused on coal mine bump 
prevention and multi-seam mining in western coal mines. Although a few 
new modeling programs have been written in the intervening years, 
significant new research efforts in bump prevention have not been 
undertaken.
    (d) Closing of MSHA's Denver Safety and Health Technology Center 
and Transfer of All Positions to Eastern Centers. Arguably the most 
significant negative impact on western coal mine bump remediation 
occurred when MSHA closed its Denver Safety and Health Technology 
Center. With the transfer of approximately all 50 technical positions 
to West Virginia and Pennsylvania when the closure was announced, the 
western mining community lost easy access to technical experts in 
ventilation, ground and roof control, bump prevention, industrial 
hygiene, hoisting, and practically all technical disciplines found in 
western coal mining. Of the 50 employees at the Denver Center, only 
approximately four (4) employees elected to transfer to West Virginia 
and Pennsylvania. Included in loss of technical expertise was a small 
group of six (6) highly qualified mining engineers and geologists who 
had been engaged in western coal mine bump evaluation for 15 to 20 
years. This group regularly reviewed roof control plans for MSHA's Coal 
Mine District 9, ran computer simulations, and investigated bump 
occurrences and roof falls in western mines. Unfortunately, with the 
closure of the Denver Technology Center, all but one member of the 
group left MSHA. In my opinion, if this group or a similarly qualified 
group had reviewed the Crandall Canyon roof control plan, the disaster 
would not have occurred.
    (e) Summation--Are Western Miners Less Valuable Than Eastern 
Miners? Ever since the Wilberg Mine Disaster in 1984, and the resulting 
Two-Entry Task Force Study, MSHA has known that western deep mines are 
highly susceptible to explosive-like disintegration of coal pillars. 
Apparently MSHA's technical capability to analyze roof control plans 
for conditions and mining practices which would encourage bump 
occurrence has deteriorated to an unacceptable level. Does MSHA have 
any plans to reinvigorate its western technical expertise? With western 
coal mines reaching deeper into the earth for their resources (3,000 
feet below the surface) (the shallow, easy to mine resources have 
already been mined), more hazardous mining conditions will be 
encountered. Western miners are as valuable as Eastern miners and 
deserve the same protections under the law. As Crandall Canyon has 
demonstrated, these protections are not being provided by MSHA.
                          f. the rescue effort
    (1) Initial Response. Initial public briefings were always 
conducted by Murray Energy Company. MSHA was noticeably in the 
background giving some comments later in the briefings. The message 
conveyed to the public was ``its Robert Murray's mine, he's in charge 
and can do whatever he thinks is right.'' MSHA was not the primary 
communicator the first couple of days, allowing for a poor public 
image.
    (2) Reporters and TV Crews Filming Underground. Five reporters, 
including CNN, were allowed underground while the rescue was taking 
place. While the videos were informational, the video and photos did 
not in any way aid the rescue effort. In fact, another bump occurred 
while the reporters were underground. If one of the crew had been 
injured, MSHA would have had another disaster to deal with. Other non-
involved mines in the Price, Utah area probably would have allowed 
visits for informational purposes if asked by MSHA.
    (3) Safety of Rescue Crews. Anyone involved with mine rescue work 
knows that the safety of the rescuers is of primary importance. It must 
be assumed that the victims may be fatalities. To risk rescuers for 
bodies is unacceptable. Even though Assistant Secretary Stickler stated 
that the rescue crews had installed steel sets every 2.5 feet, this 
protection proved inadequate, emphasizing the explosive-like force of a 
coal mine bump. A more appropriate protective device would have been 
pre-fabricated tunnel liners (large U-shaped steel sections) which 
construction crews work under when tunneling through unstable soil or 
rock.
    MSHA standard 75.202 Protection from falls of roof, face and ribs 
states:

          (a) The roof, face and ribs of areas where persons work or 
        travel shall be supported or otherwise controlled to protect 
        persons from hazards related to falls of the roof, face or ribs 
        and coal or rock bursts.
               g. u.s. bureau of land management reports
    The following excerpts from Bureau of Land Management (BLM) 
Inspection Reports document mining conditions in the West Mains as 
described by the BLM inspector. Generally the statements of the 
inspector describe deteriorating conditions, bumping, roof falls, etc., 
as mining of both the North and South barrier pillars progressed. 
Typically the BLM inspector was Steve Falk and the company 
representative was mining engineer Tom Hurst unless otherwise noted.

    1. Inspection Report of November 4, 2004:

          Andalex mining engineer John Lewis
          Conditions were deteriorating (west portion of the West 
        Mains) and access through the area near impossible.
          The barrier planned on both sides looked like it was designed 
        to only hold up for only a short while. The north entry was 
        taking weight and extra roof supports and re-bolting had to be 
        done. Now the situation is even worse.
          . . . (overburden) is about 1,500 feet and rises to 2,000 
        feet . . .
          It was apparent from traveling down the intake that the area 
        is taking unacceptable weight.
          It is apparent the pressure arches from both side gobs are 
        sitting right down on the main entry pillars.
          The situation in Main West is untenable for future pillar 
        recovery.
          No mining company in the area has ever pulled pillars in main 
        entries with mined out sides and under 1,500 feet of cover.
          Genwal's thoughts and plans to try pillar recovery was 
        wishful thinking. . . .

    2. Close Out Discussion--1/24/05:

          . . . the pillars in Main West are failing over time with 
        greater than 1,700 feet of cover.
          Caves are occurring at intersections by irregular 
        intersection dimensions.
          . . . attempts to split pillars under this depth could not 
        hold the top and prevent pillar outbursts.
          Weight on the pillars is substantial and dangerous conditions 
        are present.
          Mining any of the coal in the pillars will result in 
        hazardous mining conditions such as pillar bursts and roof 
        falls.

    3. Inspection Report of August 1, 2006:

          Genwal is continuing to pull pillars from south to north in 
        the South Mains . . .
          Pillar pulling has been pretty good. Depth at this area is 
        less than 1,000 feet.
          The crew is getting adept at this pillaring as they now had 
        about 2 years experience.
          Though Tom Hurst is new, he is not as pessimistic as the 
        previous engineer. . . .

    4. Inspection Report of December 2006:

          The sale of Andalex is complete to Bob Murray's Utah 
        American.
          The new 3 entries in the barrier now would leave 130 foot 
        barrier to the north gob.

    5. Inspection Report of February 27, 2007 (North barrier pillar) :

          This section finished driving 4 entries on 92 foot entry 
        centers and 80 foot crosscut centers.
          So far no inordinate pillar stresses have been noted, though 
        thing(s) should get interesting soon. The face is under 1,600 
        feet of cover now and will increase to over 2,000 feet by 
        crosscut 139.

    6. Close Out Discussion--March 5, 2007 (North barrier pillar) :

          This section is mining coal that was not considered minable 
        in the previous plan .
          . . . BLM is pleased to have them try for coal that was 
        thought unminable but warned them to beware of the depth above 
        the ridge and mining a barrier pillar that has been sitting for 
        a number of years. Pulling pillars will be interesting if even 
        MSHA will OK a ventilation and roof control plan for the 
        section.

    7. Inspection Report of March 15, 2007 (North barrier pillar) :

          . . . Utah American obtained the property in August 06 . . .
          . . . water inflows much greater than available pumping 
        facilities. This was at crosscut 158 which was about 400 feet 
        short of the back end of Main West next to Joe's Valley Fault.
          The section pulling the two bottom pillars on retreat out 
        this area (between 133 and 132 crosscut) experiencing greater 
        stresses on the pillars.
          Pillar bumps were increasing and some damage to the stopping 
        to the north bleeder entry were occurring.
          Genwal tried to stop the stress override and left two rows of 
        pillars at 137 to 135 and then started up again . . .
          Hurst reported that a few large bounces occurred on off shift 
        soon after start up of pillar mining which did most of the 
        damage.
          Entry ways out-by two breaks from the face has extensive rib 
        coal thrown into the entry way.
          The bounces had either knocked out or damaged all the 
        stoppings to the north bleeder entry from crosscut 132 in-by to 
        crosscut 149.
          The weight of the area will only be the same or worse as this 
        is under the ridge top on the surface.
          Hurst said the risks are too great that this event will 
        happen again out-by should they try pillar pulling again and 
        east.

    8. Inspection Report of June 13, 2007 (South barrier pillar) :

          They moved over to this section from the North Barrier block 
        at the end of March when pillar pulling in the North Barrier 
        block was halved about half way through due damaging bumps and 
        out-by pillar loading.
          . . . back in March when they were having the tough 
        conditions in the North Barrier and asked to leave the rest of 
        the pillars.

    After receiving the various reports, it is obvious that mining 
conditions in the barrier pillars were extremely hazardous, yet the 
removal of coal pillars from the barrier pillars continued.
                           h. recommendations
    (1) The rescue effort at the Crandall Canyon mine was severely 
hampered by the inability to both locate the missing miners and 
determine their physical condition (heartbeat, respiration, etc.). The 
importance of through-the-earth, two-way communications and tracking 
was spotlighted, and the development and implementation of the 
technology clearly needs to be accelerated.
    (2) Using a single or very few runs of the LAMODEL structural 
analysis program, or any computer modeling program, does not properly 
frame the risk (probability for failure). Rather, varying the values of 
input parameters over their practical ranges is important. These input 
parameters should include but not be limited to:

    a. coal strength (unconfined and confined),
    b. peak strain in an element of the model,
    c. coal modulus of elasticity,
    d. Poisson's ratio,
    e. angle of internal friction,
    f. depth of cover, and
    g. progressive mining steps from initial entry development through 
the completion of retreat mining.

    By doing this, a practical range of stability factors could have 
been calculated for various scenarios of mining (mining entries and 
crosscuts in the barrier as well as full or partial retreat of the 
pillars created in the barrier).
    A consulting firm does only the analyses required in the scope of 
work issued by the mine operator, who pays for the analyses. If a risk 
assessment with a sensitivity analysis is not requested by the mine 
operator, then it will not be done, i.e., it costs more money to run 
many more analyses (varying parameters). If MSHA would require a more 
thorough risk-based sensitivity analysis, then the company would be 
required to do it in order to gain approval of the proposed mining 
plan. Requiring a sensitivity analysis with varying parameters would 
frame the level of risk mining in bump-prone mines.
    (3) MSHA should reevaluate its policy for reviewing and approving 
roof control plans (mining plans) and require, as a minimum, several 
computer analyses using a range of input data. NIOSH has developed the 
Analysis Retreat Mining Pillar System (ARMPS) program by Dr. Chris 
Mark. This program is readily available, easily run, and is based on 
150 case studies. Some updating of the program may be required to 
include deep-cover pillar design.
    (4) MSHA should revisit its policies on rescue team safety and 
Command Center decisionmaking training. The loss of three rescuers, 
including one Federal inspector during a rescue mission, and six 
injured rescuers is not acceptable.
    (5) Clearly, the technical expertise to recognize and remediate 
bump hazards associated with coal mining within the geologic environs 
found in the coal-producing areas of Utah and western Colorado has been 
lost to both industry and MSHA by the abolishment of Federal offices 
(U.S. Bureau of Mines and MSHA's Denver Safety & Health Technology 
Center). With the depletion of easily mined, high-grade coal deposits, 
mine operators are forced to consider mining deeper deposits with the 
ensuing risk of accentuating coal mine bump problems, or leaving large 
blocks of coal un-mined (loss of valuable resource). It is recommended 
that Congress mandate the creation of a small staff of highly qualified 
engineers and geologists within an existing Federal agency to focus 
attention on the bumping problem. The office should be easily 
accessible by western coal mine operators in Utah and Colorado.
    (6) MSHA, through its Mine Health and Safety Academy and its 
Educational Field Services Office, should develop new and informative 
training material on coal mine bumps, geologic environments and hazard 
recognition for operator and miner use. Availability of this material 
would enhance the miner's knowledge of hazards and allow early 
recognition and remediation of hazardous conditions.
    (7) In the long-term, industry should review current pillar load 
monitoring technology and determine its acceptability for in-mine use 
and remote monitoring of pillars in bump prone areas. Systems such as 
current CO and methane monitoring data recorders which can be 
continuously read outside the mine are envisioned. This would allow 
continuous monitoring of pillar stress buildup in active mining areas.
    (8) MSHA's public image at the Crandall Canyon mine was not 
impressive. It is obvious that additional training should be provided 
to Command Center personnel and Public Information Officers. The 
critical role of objectivity and staying on point in briefing the press 
and families of victims needs to be emphasized.
    (9) The cooperation between the Bureau of Land Management and MSHA 
needs to be reviewed. From the referenced BLM Inspection Reports, BLM 
noted the effects of the bumps in the North barrier pillar and 
expressed concern. Although BLM's primary focus is resource recovery, 
their inspectors appear to be quite knowledgeable of underground 
hazards, and an early exchange of information between the two Agencies 
may have focused MSHA's attention on the bump problems at the Crandall 
Canyon mine.
    (10) As evidenced by both the Sago and Crandall Canyon disasters, 
the need for training of mine rescue crews (teams) and both operator 
and MSHA command center personnel remains great. Congress should 
consider funding the establishment of several mine rescue training 
centers in mining areas throughout the United States.
    (11) Accidents involving multiple fatalities should be investigated 
by a Federal entity independent of the regulatory Department. To 
protect the validity of the investigation and to ensure impartiality in 
fact finding, an independent entity needs to conduct these disaster 
investigations. This will allow an unbiased determination of process 
errors and misjudgments by all involved parties, and speed any 
requirements for corrective actions to further improve workplace safety 
for our Nation's most valuable resource--the miner.

    The Chairman. Thank you very much.
    Mr. Watzman.

   STATEMENT OF BRUCE WATZMAN, VICE-PRESIDENT FOR SAFETY AND 
              HEALTH, NATIONAL MINING ASSOCIATION

    Mr. Watzman. Thank you, Mr. Chairman. NMA appreciates the 
opportunity to appear before you to discuss the efforts to 
improve mine safety since passage of the MINER Act of 2006, and 
the challenges that remain to realize our goal to return every 
miner home after each shift.
    The Crandall Canyon accident has affected our Nation's 
entire mining community and we mourn our fallen colleagues. We 
are determined to return to the path that existed for much of 
the past three decades, when steady reductions in fatalities 
and serious injuries were achieved. We've heard testimony about 
a possible cause of the Crandall Canyon incident. All should 
exercise extreme caution and not draw conclusions until the 
results and the findings of the various investigations have 
been completed. To do otherwise would be premature, given the 
complexity of the event.
    As you know, the coal industry worked with this committee, 
the Congress, and others to pass the most sweeping mine safety 
legislation in more than three decades. The requirements 
recognize that good safety practices continually evolve, based 
upon experience and technologic development, and that every 
underground coal mine presents a unique environment. What may 
work in one mine, may well not in another.
    Since passage of the act, the industry has moved 
aggressively to identify technology that satisfies the law's 
requirements as quickly as possible. Our written submittal 
details some of the progress that has been made, while much 
more needs to be done to reach our ultimate goal.
    The recent accident at Crandall Canyon spotlighted our 
continuing challenge to develop reliable, two-way devices that 
could help locate and communicate with trapped miners. Most 
Americans are well connected to each other through cell phones 
and wonder why we can not communicate with miners underground. 
We understand why. Sending a signal through rock deep 
underground is far more challenging than signaling through the 
air. Despite these challenges, the industry is not sitting idly 
by until a reliable system reaches acceptable functionality 
under all circumstances.
    A recently approved tracking system, that was developed by 
one of our member companies, Alliance Coal, is one of several 
systems that uses radio frequency identification tags and bi-
directional readers to track miners' movement throughout the 
mine. This is an improvement over earlier systems, and is 
considered state-of-the-art. Yet it, too, is susceptible to 
damage. The system currently requires a connective through the 
mine fiber optic cable that is vulnerable to damage and could 
potentially render the system useless.
    As we continue to work with our colleagues to develop the 
technologies to meet the act requirements, we are beginning to 
turn our sights to work with recognized experts to develop 
safety management systems that encourage integration of safety 
into the entire suite of business management systems. In so 
doing, we hope to reestablish a safety culture of prevention 
throughout the industry. Our efforts will build upon the 
recommendations in the report of the Mine Safety Technology and 
Training Commission, to formalize risk assessment and 
management practices, to identify, eliminate, and manage 
conditions or practices that have the greatest potential to 
cause harm.
    To conclude, the mining industry is eager to learn from our 
experience with implementing the MINER Act and with all who 
share our determination to safeguard our miners. Fatalities are 
tragic, but failing to learn from them and failing to act on 
what we learned would be inexcusable. We will not let that 
happen.
    Thank you, Mr. Chairman. I'd be happy to answer any 
questions you or any members have.
    [The prepared statement of Mr. Watzman follows:]
                  Prepared Statement of Bruce Watzman
                              introduction
    Mr. Chairman, members of the committee, I am Bruce Watzman, Vice 
President, Safety, Health and Human Resources for the National Mining 
Association. Thank you for providing us this opportunity to share our 
thoughts regarding the issues we face as we strive to meet the mandates 
of the Mine Improvement and New Emergency Response Act (MINER) Act of 
2006 and the challenges that remain as we strive to return each miner 
home safely to their families after each shift.
    Today I want to discuss two related issues: safety technology and 
safety culture. But, before turning to the specific issues before the 
committee let me again express our sympathy to the families of the 
fallen miners at the Crandall Canyon mine. We mourn their losses and 
are determined to return to the path that existed for much of the past 
three decades, when steady reductions in fatalities and serious 
injuries were the rule. That is why we supported strong new mine safety 
legislation last year, established an independent commission to provide 
recommendations for new safety risk-based systems and continue to 
partner with the National Institute for Occupational Safety and Health 
to develop and test new safety and communication technology.
    In 1977 Congress declared in the Mine Act that ``the first priority 
and concern of all in the coal or other mining industry must be the 
health and safety of its most precious resource--the miner.'' The 
mining industry strives to reflect this priority through performance. 
Indeed, the industry's commitment is reflected in 35 years of 
decreasing injuries and fatalities. And, while last year this steady 
progress was tragically interrupted by a series of accidents, 83 
percent of our Nation's operating mines worked the entire year of 2006 
without a single lost-time accident. Nonetheless, these recent 
accidents are a powerful reminder that indicates a need for the 
industry to reinforce the ``safety-first'' culture that exists within 
companies throughout our industry.
                               miner act
    Last year, NMA joined you in supporting passage of the most 
sweeping mine safety legislation in more than 30 years. The MINER Act, 
as implemented through Emergency Response Plans, recognizes the need 
for a forward-looking risk assessment, that good safety practices 
continually evolve based upon experience and technological development, 
and that every underground coal mine presents a unique environment and 
what may work in one may not be effective or desirable in another.
    Since passage of the MINER Act the industry has moved aggressively 
to identify technologies that satisfy the law's requirements as quickly 
as possible. While more work needs to be done, the industry has made 
significant investments and progress. Briefly,

    <bullet> 100,000 additional self-contained self-rescuers (SCSRs) 
have been placed into service, with another 100,000 on back order.
    <bullet> All underground coal mines have submitted emergency 
response plans including plans to supply breathable air and other 
supplies to sustain miners trapped underground. Units to meet these 
requirements are being ordered and installed without the normal testing 
that a device such as these would normally receive.
    <bullet> All underground coal miners have received new training and 
will continue to receive quarterly training.
    <bullet> Underground coal mines have implemented procedures to 
track miners underground.
    <bullet> Existing communications systems have been hardened and 
redundant systems installed.
    <bullet> More than 35 new mine rescue teams have or will be added 
around the country.

    This progress is only the beginning of our continued commitment for 
reaching our desired goal, to protect our Nation's miners.
    The recent accident at Crandall Canyon spotlighted our continuing 
challenge to develop reliable two-way communication devices that could 
help locate and communicate with miners trapped underground. At a time 
when most Americans are well-connected with each other through cell 
phones, many wonder why miners cannot communicate from underground to 
the surface. Intuitively, we understand why: Sending a signal through 
rock deep underground is far more challenging than signaling through 
the air.
    Apart from these fundamental technical barriers to in-mine or 
through-the-earth signal propagation, explosions, fire and roof falls 
produce destructive forces that can damage or destroy system components 
and render the system inoperable. At present, there is simply no 
available single system that can withstand all potential scenarios 
while maintaining mine-wide communications.
    Despite these daunting technological challenges, the industry is 
not sitting idly by until a reliable system reaches acceptable 
functionality under all circumstances. Today one member of NMA, 
Alliance Coal, has developed one of several systems that use radio 
frequency identification (RFID) tags and bi-directional readers to 
track miner's movement throughout the mine, pre-event. This is an 
improvement over earlier systems and is considered state-of-the-art. 
Yet, it too is susceptible to damage by destructive forces that will 
affect its functionality. The system currently requires a connective 
through-the-mine fiber optic cable that is vulnerable to damage and 
could potentially render the system useless.
    NMA member companies recently conducted tests of communication 
technology being developed primarily for Department of Defense use. The 
results indicate that improved communication systems are possible. The 
Kutta system, a subterranean wireless communication system having the 
ability to couple onto and transmit radio signals using the existing 
metallic infrastructure in the mines, including metal core lifelines, 
phone cables, tracks, etc. holds great promise. Its ability to 
interface with a mine UHF leaky feeder communication system has the 
potential to integrate an analog and digital hand-held multifrequency 
radio and complementary repeaters to overcome traditional barriers to 
enhanced wireless communication.
    Obviously there are other improvements in communication that can be 
achieved. Our concern is not that additional communication requirements 
will be mandated, nor is it the cost of communication systems. Rather, 
it is that realistic expectations of what is technologically achievable 
drive whatever requirements become the industry practice. Working with 
researchers at the National Institute for Occupational Safety and 
Health (NIOSH) we continue to approach this issue through sound science 
and realistic timeframes for implementation.
    In sum, there is no silver bullet technology yet available. True 
``through-the-earth'' wireless technology does not yet exist. Until we 
overcome the technical barriers that preclude transmission of signals 
through the earth, the systems will require some form of underground 
backbone and infrastructure, which are susceptible to damage. 
Nevertheless, the perfect solution may still be beyond reach, we will 
not be deterred in the quest to find and deploy it.
                    creating a culture of prevention
    We have so far commented on technical improvements and these are 
clearly important. But perhaps the most important element in improving 
safety is the relentless focus on ``safety culture.'' For successful 
companies safety culture exists at every level of the organization. In 
those companies with outstanding safety performance safety is 
emphasized at every meeting, at every shift at the mines and is an 
integral part of the business model.
    In a recent speech to the Utah Mining Association, J. Brett Harvey, 
President and Chief Executive Officer of Consol Energy, Inc. stated 
this succinctly. Let me quote key passages from his speech:

          ``To achieve our goal, we will need to join the science of 
        safety with a culture of safety.
          The science of safety is technology-driven. We use technology 
        to help us monitor conditions, to provide early identification 
        of problem areas, to improve communications between sites 
        underground or between the underground and the surface, and to 
        enhance the safety of equipment.
          By deploying technology to augment the efforts of our 
        employees, we can minimize physical conditions in a mine as a 
        source of accidents. We are great engineers, and we intend to 
        engineer our mines so that the physical conditions in the mine 
        are as predictable as those inside this room.
          The culture of safety, on the other hand, involves engaging 
        the mind of every employee. We want to make safety their core 
        value. You do that in many ways: with constant training 
        regarding safe work practices, with regular discussion of 
        safety issues--both at work and at home, and with programs that 
        acknowledge and reward safe work practices and safety 
        achievements.''

    Mr. Harvey's remarks reflect what so many in the industry have come 
to recognize, that safety must be a core value that ``trumps 
production, it trumps profits, it trumps all other rules, policies or 
procedures.'' These same views were captured by the Mine Safety 
Technology and Training Commission (MSTTC) in its December 2006 report, 
Improving Mine Safety Technology and Training: Establishing U.S. Global 
Leadership. In the section on prevention the Commission stated that:

          Prevention requires that systematic and comprehensive 
        approaches be used to manage risks. Compliance is an important 
        aspect of prevention, but it is more important to realize that 
        it is only a starting point in a more comprehensive process of 
        risk management.
          A critical action to ensure success of the process for any 
        company is the creation of a ``culture of prevention'' that 
        focuses all employees on the prevention of all accidents and 
        injuries. . . . In essence the process moves the organization 
        from a culture of reaction to a culture of prevention. Rather 
        than responding to an accident or injury that has occurred, the 
        company proactively addresses perceived potential problem areas 
        before they occur.

    To achieve these goals we will be working with recognized experts 
to develop a safety management system that encourages integration of 
safety into the entire suite of business management systems.
    Our efforts will build upon the strong leadership demonstrated last 
year by the industry through the establishment of the MSTTC as an 
independent body of safety experts charged with examining how advanced 
technology and training procedures can be more readily adapted for use 
in our mines. The commission provided a pro-active blueprint for 
achieving zero fatalities and zero serious injuries in U.S. underground 
coal mines and our actions going forward will further the adoption of 
the commission's blue-print.
    Risk assessment and management are well-established practices that 
are employed in many industrial settings. Our goal is to formalize this 
process for use throughout the mining industry so that we can identify, 
eliminate and manage conditions or practices that have the greatest 
potential to cause injury. In so doing we hope to develop a system that 
recognizes the MSTTC objective to foster an approach that is ``founded 
on the establishment of a value-based culture of prevention that 
focuses all employees on the prevention of all accidents and 
injuries.''
    Our objective is prevention of accidents, injuries and illnesses 
and reinforcing a culture of prevention. Decisions will be based upon 
sound science recognizing technologic limits, where they exist. By 
developing risk-based safety priorities we will identify and focus 
resources on conditions that most directly place miners in potential 
peril. Our goal is to foster industry-wide partnerships among coal 
companies and equipment and service supply providers for the research, 
development and commercialization of new practices and technology that 
will raise the performance bar industry-wide.
                               conclusion
    Some believe we must do something quickly with mining legislation 
otherwise nothing will change. Mr. Chairman let us assure you that 
things are changing and will continue to change until we reach our 
mutually shared goal. We would submit to this committee that 
legislation without the support of science and facts is not progress. 
This committee and the public must not rush to judgment on the 
necessity for additional legislation. We achieve more as a total mining 
industry to solve a problem, without agendas, when we pool the 
collective efforts of industry, labor and government representatives.
    Today, mine safety and health professionals face challenges far 
different from those anticipated when the Mine Act was enacted. Today's 
challenge is to analyze why accidents are occurring at a mine, then use 
that analysis as a basis for designing programs or techniques to 
eliminate or manage the accident promoting condition or cause. Where 
existing technology is not sufficient, mine operators must be afforded 
the flexibility to use all existing, non-traditional means to protect 
miners.
    Mr. Chairman, once again, on behalf of the members of the National 
Mining Association, thank you for the opportunity to give our 
perspective on this vital public policy matter. If you or the other 
members of the committee require additional information, we stand ready 
to provide it.

    The Chairman. Thank you, thank you very much.
    Let me ask you, Mr. Ferriter, would you go in that mine and 
mine?
    Mr. Ferriter. Having looked at the roof-control plan and 
having knowledge of the North Barrier pillar, I might make a 
quick visit to look and see if there are any developing signs 
of instability in the South Barrier, but I would not work a 
crew in there. My visit would be very limited and very short.
    The Chairman. OK.
    Let me ask Mr. O'Dell, at what points in the approval 
process do you think mistakes were made?
    Mr. O'Dell. I think it's--it's just a matter of looking at 
the map. I mean, it's very obvious that anybody with any mining 
experience at all, can look at that map, and when you heard 
what Mr. Ferriter had said, as far as all the mineable coal had 
already been gone. That should have set a red flag up as the 
approval was submitted to MSHA. I mean, that would have been 
the first thing I looked at, is there's nothing around us to 
protect them.
    So the damage didn't just occur--if you look in the north 
end, that area wasn't developed, Mr. Murray developed that. So 
if you look at that, when he developed that, that actually 
started damage to the area. Then when they started pillaring it 
out, it became worse. So, I mean, you have coal miners that 
could look--I represent coal miners, and when they saw this 
map, they just could not believe that it was approved.
    The Chairman. Well, I think many of us believe that coal 
miners are really the most knowledgeable about safety 
conditions. I mean, these are men, some women, who in many 
instances spent a lifetime in these different circumstances and 
know, too often, of lost friends or loved ones in these. But 
they have an accumulated kind of knowledge and sense that 
certainly ought to be protected.
    Let me just ask you finally, maybe the panel, just quickly 
on this, about outside evaluation. We've had this, Agapito did 
this evaluation. We looked into it briefly. I guess it's a 
highly regarded company, but there were important mistakes that 
were made in this particular evaluation. You get the situation 
where they're being paid by the companies themselves. I mean, 
that's the way that the system is done. Are you troubled by 
that? Should this be something that we ought to be interested 
in, concerned about? Does this end up being too cozy a 
relationship? What's your own experience on this? Just from 
left to right.
    Mr. O'Dell. Yes, it troubles me. I mean, you always have 
heard ever since I was a little kid, that the customer's always 
right. So whatever they're paying for, they're going to get. 
So, that pretty much sums it up.
    The Chairman. Mr. Ferriter.
    Mr. Ferriter. Yes, I am very troubled about this. I think 
it's a broken system. We had a consultant that obviously made 
mistakes on the analysis. That was forwarded by the operating 
company. The operator should have been very--they have 
experienced people, they should know this. They should be able 
to take and make corrections, tell the consultant to change it. 
And then it was approved by MSHA.
    When I was in MSHA, we had a small group of about six 
people that did this for District Nine. We had about 25 years 
experience there, geologists, mining engineers. We spent a lot 
of time in the Utah coal fields. We spent a lot of time 
reviewing these roof-control plans, we used computer 
simulations. Quite frankly, I do not know what MSHA does today, 
but just a simple run of the ARMPS program, NIOSH's ARMPS 
program, I think would have put a lot of red flags out there 
that somebody should take a real detailed look at this. I don't 
know if this was done by MSHA or not.
    The Chairman. Mr. Watzman.
    Mr. Watzman. Thank you, Senator. It is not uncommon for 
mine operators to use third-party consultants to assist them in 
the development of mine plans for submittal to the Agency. I 
would venture to guess that that's probably a common practice 
in other industries as well, where the company does not have 
the expertise in-house to do the detailed work itself. That 
work is submitted to the Mine Safety and Health Administration, 
who ultimately passes judgment on the validity of it one way or 
another.
    So, I'm personally not troubled by the fact that there are 
third-party consultants used to assist in the preparation of 
documents that are submitted to the Agency.
    The Chairman. Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    First of all, I want to thank the Mining Association and 
the United Mine Workers for working together with us on the 
MINER Act that we passed. I'm hoping that we'll get the same 
kind of cooperation on anything that comes out of the 
investigation or ideas that come out of college or ideas that 
come from inventors, and approaching any solutions that we can 
come up with in the future.
    Dr. Ferriter, I'm an accountant, I'm not an engineer. You 
mentioned these bumps could happen if the pillar was too small 
or too large. I can understand too small. I don't understand 
how too large creates bumps.
    Mr. Ferriter. Too large, if it's too big and you want it to 
yield, you want it to crush slowly, you want it to take and 
disintegrate in a controlled fashion. If it's too big, then it 
will not do that and it will store the stress in the pillar and 
load up, primarily in the core of the pillar. So if you--
especially in a gate-row design. You want that to soften a 
little bit to soften the stresses around the gate-rows. So 
that's why you have to kind of get that right size in there. If 
it gets too big, then it will store too much.
    Senator Enzi. OK. I didn't realize that that was in the 
process of removal, that we were talking about there. Thank 
you.
    Mr. Watzman, in addition to the changes that were brought 
about by the MINER Act, MSHA has recently changed its penalty 
assessment formula. Could you give us an indication of what the 
effect of those changes have been, in terms of increases in the 
size of assessed penalties? Of course, I'm particularly 
interested in the non-serious and substantial penalties.
    Mr. Watzman. Thank you, Senator. It must be recognized that 
MSHA's regulations governing the assessment of penalties does 
not provide the agency the ability to differentiate between 
what one would consider a good operator and, on the other hand, 
a bad operator. They're driven by the size of the operation.
    I will share with the committee and submit to the record, 
the results provided by one of our member companies for the 
period April 23, when MSHA's new regulations came into effect, 
and September 26. They compared 2006 and 2007. This is a 
company that operates solely underground coal mines, many 
underground coal mines throughout the country.
    [The information previously referred to follows:] 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Watzman. Their 2007 incident rate was 2.1, that's less 
than half the industry average. I think everyone would consider 
this to be a well-run company with a good safety record.
    Comparing those two periods of time, their penalties 
increased 624 percent. Their non-S&S penalties increased 838 
percent. So this is nothing more than punitive behavior or 
punitive action directed toward that company.
    This did nothing to improve safety in that company. This 
company has demonstrated time and time again, that they will do 
what it takes to improve the safety conditions for their 
miners. There are many examples of this across the industry. 
I'm not going to say that this represents the entire industry, 
it doesn't. But this is just one example of the result that has 
come about through MSHA's regulatory change.
    Senator Enzi. Thank you.
    I have a number of questions that I'll be submitting to Mr. 
Stricklin, that deal with some of the questions about targeted 
inspections. I'd like all of your opinions on targeted 
inspections, because effective management of an entity always 
involves the best allocation of finite resources.
    I'm an accountant. When you're doing audits, you pick on 
those you most suspect of needing auditing. Then you audit 
others just to see if your evaluation is correct on that. 
Doesn't it seem like targeted inspection enforcement would be 
the best use of an agency's resources, instead of requiring 
that every mine get an inspection on a regular basis? Wouldn't 
you pick on those that you think need it the most, the ones 
that there are indications that there are problems? I'm trying 
to get this from a laymen's perspective here.
    Dr. Ferriter.
    Mr. Ferriter. I think MSHA already has that authority, they 
have what they call a spot inspection. So, if there's a 
ventilation problem, or a ground-control problem, they can go 
in that mine and inspect that particular thing. There could be 
a miner complaint, that would be phoned in or called into the 
local office, and MSHA could go out there and check that out.
    So, I think that mechanism already exists in MSHA.
    Senator Enzi. OK, any disagreement, or----
    Mr. O'Dell. I would just say, you have to be real careful 
when you look at how inspections are made at different mines, 
because you've heard other folks tell you today that, depending 
on the size of the mine, the number of employees of the mine is 
going to dictate how many inspection hours are going to be 
spent at that mine.
    You may have a small mine that only has one section, and it 
may only get four inspections, in a quarter, and then they're 
done with them. And they may not be back again for another 
quarter, that's a long time to go without an inspector being 
back there to see what's going on.
    Then, you may have a large mine that has four or five 
advancing sections, and maybe one or two longwall sections. You 
may have a couple of inspectors there daily, it's going to take 
them longer to inspect the area, because there's just more 
there to inspect.
    The other thing that people don't understand is, the 
inspectors don't always spend inspection hours when they're at 
the mine. When they write a citation or a violation, they have 
to go back to look at that same area to make sure it's abated. 
So, you have to be very careful when you look at--I do believe 
all mines have to be inspected as they are required under the 
act today, I think the mandatory standard as it is today, but 
what I do think is that it needs to be more fair and equal than 
what it's done.
    Mr. Watzman. Senator----
    Senator Enzi. I have a lot of follow up.
    Mr. Watzman. Can I just respond very quickly? I'd like to 
take it one step further than my two colleagues on the panel.
    There's a misunderstanding as to how inspections are 
carried out, the MINER Act says every underground mine must be 
inspected four times a year. For those outside the industry, 
that leaves them with the impression that inspectors are there 
4 days during the year. Nothing can be further from the truth.
    There are mines in this country--some of the safest mines 
in this country--where to complete the quarterly inspection 
means that an inspector is there every day the mine is 
operating, and when that quarterly inspection is closed out, 
the next one begins. That is not, in our estimation, a good 
allocation of resources. There has to be a better way to 
conduct inspections, and manage that program than the way we're 
currently doing it.
    Senator Enzi. Thank you, and I'll have some follow up 
questions on all of that, and my time's expired. I've got a lot 
of other questions. I appreciate the expertise of this panel, 
and the previous one, and we'll make use of it.
    Senator Murray [presiding]. Thank you, Senator Enzi, 
Senator Kennedy had to step away for a few minutes, he has 
asked me to chair in his absence.
    Let me start with you, Mr. O'Dell, do you know if any of 
the miners at Crandall were aware of the conditions at the 
North and South Barriers that they were mining?
    Mr. O'Dell. It would be unfair of me to answer that. I 
think that's something that the miners themselves would have to 
answer. But, I think if you take that a step further, you make 
an important point, and that is that any condition that is at a 
mine site that management is aware of, they need to educate the 
workers.
    The workers, you know, know certain conditions because of 
the environment that's around them, but they may not 
necessarily know what's going on above them, what they can't 
see. So, I think it's important that any education or any 
information that can be shared with the workers should be done.
    Senator Murray. OK, I have heard you say that you believe 
that the second bump that killed three rescue workers could 
have been anticipated, how did you come to that conclusion?
    Mr. O'Dell. Because we saw a history. We saw a history of 
what happened in the north end, and then we saw a history of 
what was going on during the recovery time. I mean, I think 
most people watching TV at all even saw when CNN was 
underground, that they experienced a bump that occurred. They 
had been reporting--even through the general public--that 
several bumps had occurred. I mean, it was a sign that people 
needed to pay attention to. I'm not sure that that was the 
case.
    Senator Murray. Was it surprising to you, then, that a CNN 
crew went in?
    Mr. O'Dell. I was very surprised by that, yes.
    Senator Murray. I know that you don't represent any of the 
Crandall Canyon Miners, but in your past experience and 
communications you've had with miner families, how do you think 
communications and updates to miners' families at Crandall 
Canyon could have been handled more effectively?
    Mr. O'Dell. Well, first of all, the communications should 
have started with the workers when the mine first opened and 
employees were hired. That's what's important--at mines we 
represent, and I'm sure there's other mines we don't represent 
do the same thing, from what I understand they may have done 
this--to have safety meetings and explain to miners what their 
conditions are, what their duties are, what citations are 
existing and what have you.
    After the accident occurred, I think the family members 
should have been taken to a place where they could have had--I 
don't think their questions were answered, there was a lot of 
misinformation that was given out from the very beginning. I 
think that MSHA being the person, you know, as of the MINER 
Act, who was in charge of the investigation, should have been 
the ones that was giving the information to the families. I 
think with the information, they should have been very careful 
about what they did, and they didn't tell them. Because it's so 
easy--we saw it at Sago and we saw it again at Crandall Canyon, 
it's so----
    Let me tell you something. I mean, I'm sitting on the edge 
of my seat while this whole thing's unfolding, hoping and 
praying--just as everybody else was--that the miners were okay. 
There was a lot of information that was given out that led us 
to believe that that was the case, only to find out, maybe 
hours later, just for example, the first information we got was 
that the oxygen was good underground. So, that left us to 
believe that there was hope, that they had oxygen to sustain 
their life. But hours later, they tell us it was below 7 
percent, and we know that won't sustain life.
    So, you know, that up and down roller coaster, you should 
not put anybody through that, especially the family members.
    Senator Murray. One other question for you, I heard Dr. 
Ferriter talk about the regulatory agency being the same one 
doing the inspection--what is your opinion of that? Or doing 
the investigation, I'm sorry, MSHA doing both the regulation, 
and the investigation?
    Mr. O'Dell. Are you asking me?
    Senator Murray. I'm asking you.
    Mr. O'Dell. I think MSHA plays a role in investigating what 
occurs, but when you only have the Agency and the operator 
doing the investigation, I don't think you get a fair 
investigation, because those are the two parties with most at 
risk, just as I had mentioned in my testimony.
    So, I think you need an independent source that comes in. 
That's what we pride ourselves on, the United Mine Workers. We 
consider ourselves a voice for the miners, because when any 
investigation I've ever been involved in, we demand answers for 
our miners, for our family members, and somebody has to be in 
there that can do that.
    So, we say, ``OK, there's going to be an independent 
investigation,'' according to Ms. Lynn Chao, Secretary Chao, 
and she hires two former MSHA employees. I don't think that's a 
fair, independent investigation. I think a fair independent 
investigation would be, maybe, a mine operator, an MSHA 
employee, somebody who represents labor, somebody from a 
government, somebody from academia--I mean, you have to have a 
well-rounded group of people with some knowledge to do an 
investigation, but not just in a small group that is 
investigating themselves, and that's what's going on today.
    Senator Murray. Thank you, and I'm out of time.
    But I did want to ask Dr. Ferriter that--I understand as we 
progress in mining out a lot of the Nation's coal reserves that 
conditions for underground coal miners are expected to worsen. 
Can you give us what recommendations you would have for MSHA to 
proactively prepare for these increasingly dangerous 
conditions?
    Mr. Ferriter. Yes, in the Utah area, of course, we're now 
down to about 3,000 feet, which is quite--we have to take in, 
you know, miner education is another thing that has to be 
stressed. We have to take and develop new computer modeling 
techniques, to make sure that we can analyze these conditions. 
We need to look at different mine designs, because there are 
obviously, more coal resources left underground to provide 
additional support, so we have to take and develop some 
guidelines on that--it's a whole new world that we need to look 
at and analyze what is going to happen, and what are going to 
be the dangers down there?
    Senator Murray. Thank you very much.
    Mr. Watzman, we had a chance to meet and talk a short while 
ago, and I talked to you about my Family Assistance Program 
thoughts and asked for some response back from any of your 
representatives. If you could get back with us and share any of 
their thoughts, I would really appreciate it.
    Mr. Watzman. We will do so.
    Senator Murray. Thank you very much.
    Senator Hatch.
    Senator Hatch. Well, thank you, Senator Murray.
    Mr. O'Dell, let me just begin by thanking you for your 
willingness to participate on the Utah Commission that was 
ordered by Governor Huntsman to look into the Crandall Canyon 
Mine disaster, or accident.
    I wanted to make you aware that I am currently working with 
the Department of Labor to see that the government and that the 
State Commission has access to all documents and any other 
materials pertaining to that mine. So, we'll continue to work 
with you to see what we can do to make sure that you have 
access to these things.
    Mr. O'Dell. Thank you, sir.
    Senator Hatch. You bet.
    Mr. Ferriter, and Mr. Watzman, I understand that there used 
to be a technology center in Denver to examine new ways for 
miners to communicate, among other technological advancements, 
and many other thoughts in the mining industry.
    Now, this Center, as I understand it, has now been moved to 
West Virginia. I'm wondering if it might be useful, once again, 
to have a Mining Technology Center out West, perhaps even in 
Utah, because of the peculiar problems that we have in mining 
like we do, in deep mining. Do you both have an opinion on 
this? The differences between the Western and Eastern mines?
    Mr. Watzman. Senator, Dr. Ferriter has talked to that in 
his testimony, and has recommended the reestablishment of that, 
and we agree with that. It was unfortunate that Assistant 
Secretary McAteer decided to close that down and consolidate 
the Agency's functions at the facility in Beckley, WVA at their 
Approval and Certification Center. Clearly, there is a need for 
such a facility in the West.
    Senator Hatch. You feel the same way, I'm sure, Mr. 
Ferriter.
    Mr. Ferriter. I feel the same way, when the Center was 
closed, I was very much against it. There was a lot of 
expertise lost there. In my ground, you know, with the ground-
control conditions that were out in Utah, that expertise was 
totally lost, there was only one person that stayed with MSHA, 
the rest of us retired.
    I think as Senator Murray has stated here, we're going into 
a new environment, we're going deeper. I think there's going to 
be more problems, and we have to investigate those and we have 
to look at those. So, there's going to be a research and also 
an operational-type area there that we have to take and 
address. I would highly recommend reestablishment of a 
technical group out there.
    Senator Hatch. Mr. Watzman, some have tried to suggest that 
unless mandated by Congress, the mining industry will not 
invest in new safety technology and equipment. Do you agree 
with this view, and if not, could you provide the committee 
with some background on the industry's voluntary efforts, at 
least in that regard?
    Mr. Watzman. No, I don't agree with that view, universally, 
Senator. There are those who comply with the regulations. There 
are others who believe that the regulations are just the floor, 
and that to bring about true safety improvement, to develop a 
safety culture within your organization, requires much more 
than just complying with the law and the regulations.
    The industry continually works on new technologies, both in 
terms of productivity and safety, that will bring about 
improvements in the industry, in the absence of regulatory 
requirements. Things like proximity-detection devices that are 
being developed by equipment manufacturers in conjunction with 
Massey Energy. Those are not mandated by regulation, but the 
company is investing in that with an outside vendor to develop 
that technology for introduction into the mines.
    There are numerous examples of that, where the industry has 
gone above and beyond the regulatory requirements to bring 
about improvements in safety.
    Senator Hatch. I'm pretty well aware of the mine safety 
violations going from almost nothing to very serious 
violations. I think we need to--you know, one of the things we 
need to answer is just how serious were these violations there 
at that mine, and were these miners sent down into a mine that 
was unsafe. At least, according to the knowledge that existed 
at that time.
    It's always easy in retrospect to blame people and to find 
fault. On the other hand, if we knew enough about it before, 
and I think Mr. O'Dell's testimony has been very interesting on 
that, as well as Mr. Ferriter's testimony has been--we ought to 
get down to brass tacks on that. Because there's a lot of 
people that are suffering, as a result of this particular 
mining accident. I just hope that we get to the bottom of it, 
and I'll do everything in my power to make sure that our Mining 
Commission in Utah gets the information that it needs to make 
careful evaluations.
    Because we've got--it is different mining in the mountains 
than it is mining in Beckley, WVA or Pennsylvania. Sometimes it 
can be safer, and it can be more dangerous. We need to do 
everything we possibly can to make sure that this never happens 
again. In the process, do everything we can to help these 
families who are left after this mining disaster.
    I just want to thank you all, I'll submit some questions, 
my time is up, but I want to thank you for your testimony and 
your help in this matter. Thanks.
    Senator Murray. Thank you very much, Senator Hatch.
    Senator Enzi, unless you have further questions?
    Well, I want to thank all of our panelists who have been 
here today, it's been very helpful to this committee. We will 
leave the record open for the next 10 days for any additional 
questions, we would ask all of you to respond promptly to 
those.
    To the family members, I again, want to thank all of you 
for being here. We can not change your tragedy, but we 
certainly can look at what we are doing to make sure that we're 
doing everything possible to make sure that no one else suffers 
what you have suffered. Your being here today helps us do that, 
and I want to personally thank you.
    With that, this committee is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

             Department of Health & Human Services,
                                      Washington, DC 20201,
                                                September 28, 2007.
Hon. Edward M. Kennedy,
U.S. Senate,
Washington, D.C. 20510.

    Dear Senator Kennedy: I am writing in response to your letter of 
September 19, 2007 requesting an ``analysis, using ARMPS and LaModel, 
of retreat mining in the North and South Blocks, Main West of Crandall 
Canyon.''
    Please find enclosed an analysis pertaining to the evaluation and 
control of coal bumps using the ARMPS and LaModel tools.
    If you should have any questions regarding the technical analysis 
contained in the enclosed, please contact Jeffrey Kohler, Ph.D., at 
412-386-5301.
    I am also sending the enclosure to Senator Murray who co-signed the 
September 19th letter with you.
            Sincerely,
                               John Howard, M.D., Director,
             National Institute for Occupational Safety and Health.

    [Editor's Note: Due to the high cost of printing, previously 
published materials are not reprinted. To view the analysis referred to 
above, please go to http://www.cdc.gov/niosh/mining/
NIOSHCrandallCanyonReport.pdf.]
                                 ______
                                 
                    United Mine Workers of America,
                                    Fairfax, VA 22031-2215,
                                                   August 21, 2007.
Hon. Harry Reid,
Senate Majority Leader,
U.S. Congress,
Washington, DC.

Hon. Nancy Pelosi,
Speaker of the U.S. House of Representatives,
U.S. Congress,
Washington, DC.

    Dear Senator Reid and Representative Pelosi: I write to urge 
Congress to appoint an independent bi-partisan committee of coal mine 
safety experts to investigate the Crandall Canyon disaster. The public 
needs a reliable way to obtain meaningful information and insights 
about this horrific tragedy: both the initial trapping of six miners 
and the subsequent rescue efforts, which resulted in three deaths last 
week. I do not believe the American public and our Nations' coal miners 
will be well-served by another instance of MSHA investigating itself in 
this disaster.
    Just last year this Nation was witness to three dramatic multi-
fatal accidents beginning with the Sago mine explosion on January 2, 
2006, followed less than 3 weeks later by a mine fire at Aracoma, and 
then an explosion at the Darby mine. Together these three disasters 
took 19 lives, and devastated entire communities. Since the beginning 
of last year, 64 coal miners have been killed on the job. That's an 
average of three each month.
    In a demonstration of bi-partisan support for the Nation's coal 
miners, Congress enacted the MINER Act which President Bush signed into 
law on June 15, 2006. The MINER Act served as an important first step 
for improving miners' health and safety. However, it was the first 
piece of miners' safety and health legislation in nearly 30 years, and 
did not address all the shortcomings in the laws that are needed to 
protect miners. One of the many things that bill did not accomplish was 
to change the way mining accidents are investigated.
    The problem with the status quo is that the Mine Safety and Health 
Administration (``MSHA'') investigates mine accidents. However, time 
and again MSHA's performance has been found to have had a role in 
sanctioning the very conduct that developed into subsequent disasters. 
For example, MSHA must approve mining plans, ventilation plans and roof 
control plans, not to mention to ensure through enforcement procedures 
that each operator adheres to all the plans once the respective MSHA 
District approves them. Yet, after the disasters of 2006, MSHA's 
Internal Review determined that:

          [At] Aracoma . . . the majority of contributory violations 
        were obvious and should have been identified by MSHA inspectors 
        prior to the fatal fire that killed two miners. The team 
        determined that inspection personnel failed to exercise their 
        authority in a manner that demonstrated an appreciation for the 
        importance of strict enforcement of the Mine Act and failed to 
        conduct inspections in a manner that reliably detected 
        violations.
          Inspection personnel also demonstrated a lack of technical 
        know-how necessary to effectively evaluate and address complex 
        safety and health conditions, and failed to comply with MSHA 
        policies and procedures that, if followed, would have 
        significantly improved the scope, quality and effectiveness of 
        mine inspections. The lack of effective management oversight 
        and controls also contributed to enforcement deficiencies at 
        Aracoma. MSHA has referred its findings at Aracoma to the Labor 
        Departments Office of Inspector General for further 
        investigation of employee misconduct.
          The Sago internal review found that . . . failure by 
        personnel to follow inspection procedures, coupled with 
        inadequate managerial oversight, resulted in a number of 
        enforcement deficiencies. Among the areas cited as needing 
        improvement was the district's mine emergency response 
        capabilities.
          The Darby internal review found that district personnel did 
        not effectively utilize the mine operator's history of repeat 
        violations to elevate the level of enforcement. Failure to 
        follow inspection procedures, along with inadequate managerial 
        oversight, resulted in many of the deficiencies identified in 
        the report.

From MSHA press statement 07-975-NAT, dated June 28, 2007.

    Three different MSHA District offices, but all three substantially 
failed in their primary responsibility of protecting the miners. What 
makes this MSHA statement especially frustrating is that the Agency 
came to the same kind of conclusions following an explosion that took 
13 miners' lives at the Jim Walters Mine #5 in Alabama back in 2001. 
There is an integral problem at the very heart of the Agency where 
there seems to have developed a culture of accepting the status quo and 
not rocking the boat.
    MSHA has had many opportunities to correct what is wrong; yet it 
still has not arrested its well-documented problems. We need an outside 
group of experts to analyze what happened at the Crandall Canyon mine 
in Utah, not only on August 6, 2007 and during the subsequent rescue 
efforts, but also the events that set the stage for the August 6 
disaster. We also would welcome the recommendations such independent 
experts could make about how the Agency should change to better keep 
all miners safer.
    The status quo simply isn't working to protect miners. Miners at 
Crandall Canyon and their families deserve better. In the same 
bipartisan fashion that Congress demonstrated on the heels of the three 
coal mining disasters last year, we urge you to appoint an independent 
committee of experts to investigate what went wrong for the Crandall 
Canyon workers.
            Respectfully,
                                          Cecil E. Roberts.
                                 ______
                                 
Prepared Statement of Jennifer Joy Wilson, President and CEO, National 
          Stone, Sand, and Gravel Association, Alexandria, VA
    Mr. Chairman and members of the committee, the National Stone, Sand 
and Gravel Association (NSSGA) appreciates the opportunity to submit a 
statement for the record of this hearing on the Miner Health and Safety 
Enhancement Act of 2007 (S. 1655).
    Based near the Nation's capital, NSSGA is the world's largest 
mining association by product volume according to the U.S. Geological 
Survey. NSSGA's member companies represent more than 92 percent of the 
crushed stone and 75 percent of the sand and gravel consumed annually 
in the United States, and abide by three sets of guiding principles: 
safety and health of workforce and communities; environmental 
stewardship and compliance; and sustainability. Nearly three billion 
tons of aggregates (crushed stone, sand and gravel) were produced in 
2006 at a value of approximately $21 billion, contributing over $40 
billion to the GDP of the United States. Every $1 million in aggregate 
sales creates 19.5 jobs, and every dollar of industry output returns 
$1.58 to the economy.
    There are more than 11,000 construction aggregate operations 
nationwide. Seventy percent of the Nation's counties and virtually 
every congressional district are home to a crushed stone, sand or 
gravel operation. Aggregates are used in nearly all residential, 
commercial and industrial building construction and in most public 
works projects, such as roads, highways, bridges, railroad beds, dams, 
airports, water and sewage treatment plants and tunnels. While the 
American public may not be familiar with the uses of these raw natural 
materials, aggregates are the majority ingredient of asphalt and 
concrete, and also have environmental benefits with erosion control, 
storm water runoff, flue gas desulpherization, acidity control on land 
and in waters, and offer many reclaimed benefits to communities. 
Pulverized aggregates are used in the manufacture of glass, paper, 
paint, pharmaceuticals, cosmetics, chewing gum, household cleansers, 
and many other consumer goods.
    The first priority of the aggregates industry is and will continue 
to be the safety and health of its workers. The safety record of the 
aggregates industry has improved due to the heightened level of effort 
invested by the industry to sustain an improved performance. The 
improvement in the aggregates industry safety record is attributable to 
several factors. The first is that aggregate companies have realized 
that to stay competitive in today's business environment, companies 
must provide a safe and healthy workplace or they will not be able to 
attract the best workforce possible. Companies realize that to remain 
competitive in America today you must care about your people.
    The Mine Improvement and New Emergency Response Act of 2006 (MINER 
Act) was signed into law on June 15, 2006. We believe the Miner Health 
and Safety Enhancement Act of 2007 (MHSE Act) is premature because it 
comes before MSHA and the industry have had adequate time to fully 
implement the MINER Act and, therefore, could undermine the success 
that has been achieved. Further, imposing another layer of regulation 
on an industry that already is highly regulated and has shown continued 
safety improvements at this time would create confusion and threaten 
further progress.
    The MHSE Act takes a one-size-fits-all approach that fails to 
recognize that mines are unique. NSSGA members have achieved a 
continuously improving safety performance record. In fact, NSSGA 
members have never experienced an accident similar to the recent 
tragedies in the coal sector. Written as a result of these tragedies in 
the coal sector, the MINER Act has impacted the aggregates industry. 
Further extension of the MHSE Act to the stone, sand and gravel 
industry is not warranted and contradicted by the industry's safety 
performance.
    Notice and comment rulemaking is a precept fundamental to the MINER 
Act and its predecessor statutes. The basic purpose of such rulemaking 
is to afford stakeholders the due process required by law of providing 
a reasoned forum that allows all interested parties to comment on 
proposed regulations. The MHSE Act would circumvent this crucial 
rulemaking process in key areas. The MHSE Act would require MSHA, with 
no opportunity for public comment, to automatically adopt the 
recommended exposure limits developed by the National Institute of 
Occupational Safety and Health (NIOSH) as legally enforceable 
Permissible Exposure Limits (PELs). The bill would also require MSHA to 
automatically adopt standards, such as the Hazard Communications 
standard, established by private and quasi-governmental organizations. 
To impose statutory health standards on the mining industry without 
benefit of notice and comment rulemaking to develop a rulemaking record 
that evaluates risk of material impairment of health, as well as 
technology and economic feasibility, is unwise, unjustified and could 
be counterproductive.
    We are concerned that the MHSE Act changes the rules and 
responsibilities of MSHA and NIOSH in a number of key respects. It also 
introduces an organization unfamiliar with the mining industry into the 
safety process which will create regulatory confusion. Under the 
Federal Mine Safety and Health Act of 1977, the role of NIOSH in 
standard-setting is advisory in nature. The MHSE Act would require 
NIOSH to establish the frequency of dust sampling rather than MSHA. The 
MHSE Act would also require MSHA to adopt technology designed and 
certified by NIOSH. This would undermine a well-established and 
effective standard setting regime by mandating that MSHA simply accept 
NIOSH recommendations. It would circumvent the current approval and 
certification process.
    The MHSE Act contains several provisions that are impractical and 
will be administratively difficult to implement. For example, it would 
require all mine operators to notify MSHA of a number of incidents that 
are not likely to cause injury or are otherwise life-threatening. 
Notifying the agency of a near miss incident or other events that are 
not clearly defined by the MHSE Act will lead to confusion and a waste 
of valuable time and resources by both operators and MSHA inspectors.
    It is imperative that when a serious accident or mine disaster 
occurs, that a comprehensive and unbiased investigation takes place to 
prevent a recurrence. The MHSE Act would permit a ``miner's 
representative'' or a representative of the injured party's family to 
request a public hearing or special investigation. This process does 
not lend itself to an objective investigation of the facts. Other 
motives, such as politics, labor-management issues, or potential future 
civil litigation should take a back seat to determining the facts 
contributing to an incident for purposes of prevention.
    The MINER Act substantially increased penalties. In addition to 
proposing more penalty increases, the MHSE Act requires the Secretary 
of Labor (the Secretary) to revise section 104(e) of Federal Mine 
Safety and Health of 1977, which addresses ``pattern of violations,'' 
or POV, and restricts the ability of mine operators to contest 
inappropriate enforcement actions. MSHA published new civil penalty 
regulations, covering all mines, on March 22, 2007. The new regulations 
addressed the statutory requirements of the MINER Act related to civil 
penalties. They also revised the agency's formula for calculating 
assessments related to violations. MSHA estimated that the cost 
increase of these new penalty regulations would range from 127 percent 
to 228 percent. Many conservative estimates from mine operators project 
penalty cost increases of 200 percent to 300 percent. MSHA's new 
penalty regulations should be given a chance to work before any further 
statutory changes are made.
    The MHSE Act would require mine operators to escrow the assessment 
related to a contested violation pending resolution of dispute. This 
requirement is clearly designed to discourage mining companies from 
contesting enforcement actions, thereby forcing many small businesses 
to choose between placing funds in escrow and meeting payroll for their 
employees. It also would limit the ability of mine operators to defend 
themselves against unfair treatment and inappropriate actions. A 
significant consequence of this provision would place another burden on 
an individual miner who has a bona fide disagreement with a personal 
citation the miner receives if the miner wishes to contest the 
citation. By requiring an individual miner to escrow payment when there 
is simply a difference in opinion, the MHSE Act unduly burdens the 
individual miner that the statute would protect.
    If enacted, the MHSE Act will result in many mines installing 
inappropriate or unnecessary technology. The proposed legislation is 
prescriptive, as opposed to being risk-based in design. Mine operators 
would be required to adopt technology that is neither proven to be safe 
nor commercially viable at this time. While the majority of aggregate 
operations are above ground, there are a significant number of other 
types, ranging from water-based dredging to underground operations that 
may require different types of technology.
    In addition to increased penalties, the industry continues to 
endure a lack of consistency from MSHA during inspections and issuance 
of citations. Lack of consistency also may be due to inadequate 
training. MSHA inspectors do not necessarily have training facilities 
which clearly differentiate between the various mining sectors and the 
different types of product within each sector (i.e., granite mine, 
limestone mine, sand and gravel operation). Proper training of 
inspectors ensures an improved consistency in inspection and issuance 
of citation, and therefore, an improved compliance on behalf of 
operators. NSSGA strongly supports improving the training capabilities 
of MSHA inspectors, so they are prepared to conduct consistent and 
comprehensive inspections of stone, or sand and gravel operations.
    Unlike coal, underground stone mines produce material that is non-
combustible and non-flammable. No combustible gas such as methane is 
present, and no underground stone mine is categorized as liberating 
methane or containing a combustible ore. MSHA-approved 
(``permissible'') equipment is not required in underground stone mines 
because mine fires or explosions cannot occur due to electrical 
equipment contacting an explosive gas, since explosive gas is not 
present. Mining methods create large open spaces for access by large 
equipment. Large openings accommodate emergency equipment used by non-
mine emergency services. More stable mineral formations result in 
stable mine roofs, minimizing the need for additional roof supports and 
emergency escape is easier due to the large spaces in the mine. Because 
of large open spaces and mining methods, mechanical mine ventilation 
generally is not required since natural ventilation provides an 
atmosphere in which people can work.
    Additionally, while most quarries are mined for decades, some sand 
and gravel operations move rapidly from one site to another. Also, 
there is a wide range of climate differences among the 11,000 plus 
operations nationwide that may make certain safety technologies more 
feasible than others. Operators should have the flexibility to 
introduce the types of technology best suited to their mines and 
specific circumstances. In other words, ``one-size-does-not-fit-all.''
    NSSGA developed and agreed to a set of safety principles to assist 
member companies in their efforts to understand the importance to their 
individual organizations, as well as to the industry as a whole. In 
addition, a safety pledge was developed in 2002 incorporating the 
safety guiding principles. More than 90 percent of the NSSGA member 
companies now have agreed to the pledge, signifying the importance of 
safety and a commitment toward ensuring the safety and health of all 
their employees.
    NSSGA was one of the first organizations that formalized an 
alliance with MSHA. Subsequently, MSHA has entered into alliances with 
other industries it regulates, as well as with labor organizations, 
including the International Association of Bridge, Structural, 
Ornamental and Reinforcing Iron Workers and the International Union of 
Operating Engineers. Important alliances also exist with the National 
Safety Council and the American Society of Safety Engineers. While some 
argue that these alliances have aligned the agency too closely with the 
regulated community, we would argue the opposite. In 2002, NSSGA and 
MSHA set forth a cooperative agreement to develop programs and tools 
for the improvement of safety and health in the aggregates industry. 
The reduced incidence rates that resulted speak for themselves. Through 
these alliances, individual working miners have gained access to more 
educational materials from their companies, and MSHA has been able to 
enhance its mission of protecting worker safety and health.
    Another collaborative effort resulted in the MSHA Part 46 
``Training and Retraining of Miners'' regulation in 2000. This 
effective regulation ensures every miner knows and understands how to 
perform their job safely by covering the important safety and health 
information prior to starting work and annually thereafter. This 
regulation was developed collaboratively, with input from both labor 
and industry groups, guaranteeing support of the rule by all involved 
stakeholders and assuring their commitment to the ultimate goal of 
injury reduction. The Coalition for Effective Miner Training included 
many industry groups working in a joint industry/labor arrangement in 
conjunction with MSHA to develop an effective standard for the 
aggregates industry, and the part 46 miner training resulted from the 
group's combined efforts.
    Another example of an effective collaboration between MSHA and 
NSSGA is a cooperative workplace-based training program of noise and 
dust monitoring workshops. Agency and association leadership developed 
and signed an agreement, and the training workshop program launched on 
December 1, 1997. These workshops have been given every year since 
1997, and training specialists from the Mine Safety Academy have 
educated miners in dust and noise issues. The joint venture aimed at 
reducing hearing loss and silicosis through a program of recognition, 
evaluation and control of workplace hazards has won two awards from 
Innovations in American Government.
    The NSSGA/MSHA Alliance does not interfere with the compliance 
program of the agency, but instead enhances communications and 
understanding of risk for improved education and training. MSHA has an 
important role in ensuring that aggregates mines and quarries maintain 
safety standards that protect employees. The MSHA enforcement program 
operates independently of any of the cooperative industry alliances. 
Unlike any other safety and health enforcement agency enabling 
legislation, the act requires complete inspections of every mine 
property two or four times per year depending on whether it is surface 
or underground, respectively.
    It is imperative that Congress allow the original MINER Act to be 
fully implemented in order that the overall impact of it can be 
comprehensively measured. Congress should exercise caution before 
rushing to impose another layer of regulations on the already highly-
regulated mining sector so as not to jeopardize the progress being made 
in enhancing the safety of miners. Congress must look to MSHA to 
develop a model that combines enforcement with incentives for safety 
performance and with education and training and assistance on best 
safety practices rather than penalties as the sole motivator.
    The first priority for the aggregates industry is and will continue 
to be the safety and health of its miners. The industry recognizes that 
its employees are its most valuable asset, an asset that must be 
protected for the well-being of the industry now and in the future.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Responses to Questions of Senators Enzi, Murray, Isakson, and Hatch 
                            by Dennis O'Dell
                              senator enzi
    Question 1. Like you, I would prefer, during a situation like the 
disaster at Crandall Canyon, that there was no public comment by anyone 
not in possession of all the facts, or anyone attempting to advance 
their own agenda in the wake of such a tragedy. That would include not 
only a mine owner, but the media, outside commentators, and all others, 
as well. However, I am sure you recognize that there are serious 
practical and constitutional issues implicated here. In a situation 
such as Crandall Canyon should the Federal Government impose 
limitations on the free speech rights of individuals? Should the 
Government limit freedom of the press by placing restrictions on news 
reporters? Would UMWA be opposed to Government action that would limit 
its speech rights in these circumstances?
    Answer 1. The Government should not limit freedom of press on news 
reporters.

    Question 2a.  The availability and utility of communication 
equipment in particular is routinely misrepresented to the public. 
Mandating equipment that does not work does absolutely nothing but 
create false confidence and waste resources that could be better 
utilized in achieving real technical progress to enhance miners' 
safety. There is no question that we share that common goal. With this 
in mind I would ask: What exactly, by name or operational description, 
is the communication/tracking technology you claim should have been 
required at Crandall Canyon, and would have survived and been usable 
post-accident?
    Answer 2a. If approached correctly, possibly the PED, see response 
2d. Also see attached MSHA report.

    Question 2b. Again, exactly, by name or operational system, what is 
the wireless technology that can accomplish one or two-way 
communication through substantial amounts of solid material?
    Answer 2b. Again, though the earth could have been established with 
the use of the boreholes drilled, the experts needed to think outside 
of the box.

    Question 2c. I'm sure you are aware that some have advocated that 
we mandate so-called ``leaky feeder systems'' as underground 
communication ``gold standard.'' However, virtually every expert agrees 
that a leaky feeder system at Crandall Canyon would have been 
inoperable post-accident. Do you agree? And, if not, why not?
    Answer 2c. See attached MSHA report.

    Question 2d. As you know, many argued that the so-called PEDs 
tracking system was the way to ensure the ability to locate a lost or 
trapped miner. I'm sure you're aware that there was a full PEDs system 
in place at Crandall Canyon, however, it was wiped out by the collapse, 
and immediately ceased working. What is the tracking system that you 
believe should have been installed and would have survived the 
collapse?
    Answer 2d. If the agency would have thought outside the box, they 
could have overcome the problem of the limited use of the PED's caused 
by the mine collapse. If the UMWA would have been a part of the command 
center where the decisions were made, we would have suggested that the 
agency drop a receiver down the various boreholes that had been drilled 
to see if they could have detected any response from the PED's. Because 
this was not done we really aren't sure if these devices failed or not.

    Question 3. Could you detail the specific evidence on which you 
rely to support your claim that the investigatory panel named by 
Secretary Chao to investigate the Crandall Canyon accident is ``not 
independent.'' As I read your testimony, the sole basis for that claim 
is that two of the panel members were once employed by MSHA. Is 
everyone who has previously worked for MSHA. for example, another 
witness on the panel Dr. Ferriter, not independent or impartial?
    Answer 3. The United Mine Workers of America is the only true 
independent voice for miners.

    Question 4. I gather from your testimony that UMWA believes it 
should be present and should participate in MSHA's interview of all 
witnesses and have immediate access to all documents pertinent to 
MSHA's accident investigation, is that correct? Are you aware of any 
other situations in which a labor organization has the right to be 
involved as a virtual partner in the Government's law enforcement 
functions? Does Section 103(f) of the Mine Act on which you appear to 
rely say anything about post-accident investigations? Isn't it limited 
to inspections, and inspection conferences held at the mine?
    Answer 4. The United Mine Workers of America has always been a part 
of MSHA's investigations where we have been designated as 
Representative of the miners. The union and MSHA have always been able 
to work collectively through this process because they (MSHA) recognize 
that we have a lot to offer during these types of investigations. 
Responsible operators have also encouraged this type of co-operation 
between all parties. It is usually the bad operators that have 
something to hide that tries to keep this joint co-operation from 
occurring.

    Question 5. The Secretary of Labor and the Solicitor of Labor have 
both noted that allowing access and participation by non-government 
entities in the investigatory process could ``compromise the integrity 
of the investigation and potentially jeopardize MSHA's ability to 
enforce the law.'' In your testimony, you say that UMWA is skeptical of 
the validity of these claims. What is the factual basis for UMWA's 
skepticism?
    Answer 5. This has nothing to do with MSHA's ability to enforce the 
law or compromising the integrity of the investigation. It is all about 
accountability. If there is no honest broker to hold the parties 
accountable, then a fair investigation may not take place. In many 
cases, the agency, MSHA, is glad that we are a part of their 
investigations because we support them by testifying on behalf of the 
agency when the operators challenge them in court.
    One example is the Jim Walters Resource #5 case where we were a 
party to the agency in the hearings against the company. There are many 
more examples where MSHA relies on the union to support them from mine 
inspections, violation conferences, accident investigations, to 
comments on rulemaking. In this statement where you quote that the 
Secretary of Labor and the Solicitor of Labor has noted that allowing 
access and participation by non-government entities in the 
investigatory process could compromise the integrity of the 
investigation and potentially jeopardize MSHA's ability to enforce the 
law. . . . rather than you asking what is the basis for the UMWA's 
skepticism, you should be asking MSHA, if they did everything that they 
should have done and have nothing to hide, then why would they deprive 
a designated representative such as us, the same access that they have 
given us at every union operation that we represent.

[News Release-U.S. Department of Labor, Office of Public Affairs, Jan. 
                               31, 2008]

  (Contact: Amy Louviere 202-693-9423 or Matt Faraci, 202-693--9406; 
                      Release Number: 08-126-NAT)

              msha approves first wireless tracking system

     New technology represents significant progress under MINER Act

    ARLINGTON, VA.--The U.S. Department of Labor's Mine Safety and 
Health Administration (MSHA) announced it has issued its first official 
approval of a wireless tracking system for use in underground mines. 
The approval was issued by MSHA's Approval and Certification Center to 
Venture Design Services Inc. for the MineTracer Miner Location 
Monitoring System.
    ``Since the Sago Mine disaster, MSHA has received dozens of 
proposals from manufacturers and distributors of emergency 
communication and tracking systems,'' said Richard E. Stickler, acting 
assistant secretary of labor for mine safety and health. ``This 
approved system provides a wireless means for mine operators to track 
miners underground both before and after an emergency event.'' The 
system components normally will be interconnected with low-voltage DC 
power cables; however, in the event of an emergency, the power cables 
become de-energized, and the system will resort to battery power and 
can remain operational wirelessly. Although not yet incorporated in the 
design, Venture Design intends to add text messaging and gas detection 
to the system in the future.
    Since 2006, MSHA has issued 36 new or revised approvals for 
communications and tracking systems, including a hand-held portable 
radio, several leaky feeder systems and several radio frequency 
identification (RFD)) tracking system components. MSHA currently is 
examining 41 additional communications and tracking approval 
applications, including several wireless communications and tracking 
systems.
    The Mine Improvement and New Emergency Response (MINER) Act of 2006 
requires that each mine evacuation plan include provisions for tracking 
the pre-accident location of all underground miners. Furthermore, the 
MINER Act requires that mine operators adopt wireless communications 
and electronic tracking systems by June 2009.
    MSHA's Approval and Certification Center tests a wide range of 
mining equipment, components, instruments and materials to ensure that 
they meet government standards for safe design and construction. This 
work helps to ensure that the various products will not contribute to 
an explosion, fire, electrical failure, vehicle crash or other kind of 
accident. The center, located near Wheeling, WV, houses laboratories, 
explosion galleries and offices that perform administrative work and 
recordkeeping.
                                  ***
    (U.S. Department of Labor releases are accessible on the Internet 
at www.dol.gov. The information in this news release will be made 
available in alternate format (large print, Braille, audio tape or 
disc) from the COAST office upon request. Please specify which news 
release when placing your request at 202-693-7828 or TTY 202-693-7755. 
The Labor Department is committed to providing America's employers and 
employees with easy access to understandable information on how to 
comply with its laws and regulations. For more information, please 
visit www.dol.gov/compliance.)
          MSHA Approved Communications & Tracking Technologies

                          (Updated 01/25/2008)

                         Handheld Two-Way Radios
------------------------------------------------------------------------
          Manufacturer                Model Number         Approval #
------------------------------------------------------------------------
Kenwood USA Corporation.........  TK-290, TK-390.....       23-A060002-0
------------------------------------------------------------------------


                   Leaky Feeder Communication Systems
------------------------------------------------------------------------
          Manufacturer                Model Number         Approval #
------------------------------------------------------------------------
Mine Radio Systems..............  Flexcom                         9B-219
                                   Communications
                                   Systems.
Varis Mine Tech.................  Model IS Leaky            23-A050001-0
                                   Feeder
                                   Communication
                                   System.
DAC.............................  Type RFM 2000 Radio             9B-201
                                   System.
EL-EQUIP, INC...................  Model VHF-1 Radio               9B-196
                                   System.
Tunnel Radio of America.........  Model UltraComm           23-A070005-0
                                   Distributed
                                   Antenna
                                   Communication
                                   System.
------------------------------------------------------------------------


                            Mine Page Phones
------------------------------------------------------------------------
          Manufacturer                Model Number         Approval #
------------------------------------------------------------------------
Comtrol Corporation.............  ``Loudmouth'' Page               9B-71
                                   Phones.
Gai-Tronics.....................  Model 491-204 Mine              9B-221
                                   Dial Page Phone.
Gai-Tronics.....................  Part Nos. AM7011,               9B-155
                                   AM7012, AM7021,
                                   AM7022
                                   Loudspeaking
                                   Telephones.
Pyott Boone.....................  Model Nos. 112 and      9B-102, 9B-163
                                   112P, 118 and 119
                                   Page Phones.
Pyott-Boone.....................  Model 128 Mini Page             9B-158
                                   Boss.
Mine Safe Electronics...........  Model IIA Mine                  9B-164
                                   Phone.
Mine Safety Appliances (MSA)....  Pager III..........              9B-85
------------------------------------------------------------------------


         Radio Frequency Identification (RFID) Tracking Systems
------------------------------------------------------------------------
          Manufacturer                Model Number         Approval #
------------------------------------------------------------------------
Mine Site Technologies..........  Model TAG IV                 2G-4162-0
                                   Transmitter.
Mine Site Technologies..........  ICCL Integrated         23-ISA080001-0
                                   Communications Cap
                                   Lamp with Optional
                                   Tracker.
Marco...........................  Model PRIM Model          23-A060001-0
                                   PTT-1.
Matrix Design Group, LLC........  Model MatrixTracker       23-A060003-0
                                   T1000 RFID Tag.
NL Technologies.................  Model Standalone          23-A070001-0
                                   WiFi RFID Tag.
NL Technologies.................  Cap Lamp with RFID      23-ISA070001-0
                                   Tag.
Venture Design Services.........  MLT Mobile Location       23-A070003-0
                                   Transponder Tag.
Wholesale Mine Supply...........  Model i-Q8X rfid          23-A070004-0
                                   Tag.
Koehler-Bright Star.............  Model TAG5 Tracker       23-ISA07000-2
                                   Tag Module.
Koehler-Bright Star.............  Model MultiTAG TP1       23-ISA07000-3
                                   Transmitter TAG
                                   PCB Assembly.
Mine Radio Systems..............  Model TP2/ISPT.....       23-A070006-0
American Mine Research, Inc.....  Mine Net Tag.......       23-A070007-0
------------------------------------------------------------------------


                      Paging/Text Messaging Systems
------------------------------------------------------------------------
          Manufacturer                Model Number         Approval #
------------------------------------------------------------------------
Mine Site Technologies..........  Model PED1.........            6D-46-0
Mine Site Technologies..........  ICCL Integrated         23-ISA080002-0
                                   Communication Cap
                                   Lamp with Optional
                                   PED.
Nl Technologies.................  Model Gil Cap Lamp      23-ISA070004-0
                                   with Messenger
                                   Circuit.
Stolar Horizon..................  RGU104-001 Remote         23-A070002-0
                                   Graphical User
                                   Interface.
------------------------------------------------------------------------


                         Wired Intercom Systems
------------------------------------------------------------------------
          Manufacturer                Model Number         Approval #
------------------------------------------------------------------------
Con-Space Communications........  Model CSI-2000                9B-199-0
                                   Confined Space
                                   Intercom System.
------------------------------------------------------------------------

                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       
                                                       <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                       

                             senator murray
    Question 1. After reviewing the details of the Mine Disaster Family 
Assistance Act, how helpful do you think this initiative could be to 
the families of mine victims and mine operators? Do you have any 
recommendations?
    Answer 1. I am hopeful that this can be a valuable tool for 
families that lose their loved ones as a result of a tragic disaster. 
For many years, families have been placed aside and not dealt with in a 
respectful and proper manner.
                            senator isakson
    Question 1. Have you had a chance to review the official MSHA 
investigation reports from Sago, Darby, and Aracoma mine disasters? If 
so, do you believe these reports were done in a biased manner? 
Similarly, do you believe these reports were done in a careless or 
hasty manner?
    Answer 1. Yes and to a certain degree yes. They could have gone 
farther.

    Question 2. Do you believe that MSHA's resources are allocated 
properly? How would you recommend MSHA target their enforcement 
efforts?
    Answer 2. All miners have ever asked is that the agency enforce the 
laws that they have on the books. If this were to be done across the 
board, miners would be safer today. Is there room for improvements? 
Yes. Hopefully with the passage of the Miner Act, and now the S-Miner 
Act that Congress just passed, additional protections will be put into 
place along with the hiring of additional inspectors to better protect 
our miners in the future.
                             senator hatch
    Question 1. Are you aware of effective policies implemented at the 
State level to promote mine safety? What areas of State involvement 
have been the most effective in promoting safer mines?
    Answer 1. Although they may not have gone far enough, I am hopeful 
the recommendations sent to the Governor from the Utah mining 
Commission will help the State to be more pro active towards protecting 
miners health, safety, and training.

    Question 2. Do deep underground mining operations in Utah require 
special safety measures in the areas of communications, miner tracking, 
air supply, and rescue chambers?
    Answer 2. All operators should be required to comply with the Miner 
Act, as all mines in the country are required. Each mining State has 
its own uniqueness that needs to be dealt with. Although the 
recommendations of the Utah mining Commission may not have gone far 
enough, hopefully the Governor will take it to the level it needs to 
overcome any roadblocks of conditions that exist in Utah that other 
States don't have.

    Question 3. Do the mining plans for deep underground mining 
operations in Utah require a higher level of scrutiny for safety than 
other operations?
    Answer 3. No all mining operations across the country deserve a 
high level of scrutiny for approving plans.

    Question 4. In addition to MSHA, what parties, including the State, 
should be involved in reviewing of the mine operators' overall mining 
plan for the purpose of promoting mine safety?
    Answer 4. The miners.

    Question 5. Do miners who are employed in Utah mines require 
specialized training due to the deep underground conditions in which 
they work?
    Answer 5. No, but hopefully more detailed training will occur.

    Question 6. Do mine rescue teams and other emergency responders 
need special training and additional emergency response support for the 
risks posed by deep underground mining in Utah?
    Answer 6. This should be covered under the passage of the Miner 
Act.

    Question 7. Is the current MSHA regulatory structure designed and 
staffed to address the safety issues associated with the underground 
mining technique known as retreat mining?
    Answer 7. No response until I have had a chance to review MSHA's 
final investigation results of Crandall Canyon.

    Question 8. Are there areas of technical expertise that are 
especially well-suited to address the unique safety issues associated 
with deep underground mining in Utah?
    Answer 8. Current law provides this if properly enforced. Before 
budget cuts took place, MSHA had experts in the field of roof control 
specialist as well as other areas that dealt with their areas of 
expertise only. Because of the lack of manpower, they are taken away 
from these duties to help finish regular inspections at the mine sites, 
therefore spending less time on their primary duties.

    Question 9. Are there safety benefits in having the State involved 
with MSHA in the review and approval of mine operators' emergency 
response plans?
    Answer 9. Yes.

    Question 10. What role should State and local government play in 
the emergency response to a critical incident involving an underground 
coal mine?
    Answer 10. Hopefully the Utah mining Commission recommendations 
will help spell this out. We found this was of great importance based 
on testimony before the Commission.

    Question 11. What are the areas of greatest potential for effective 
partnerships involving Federal, State, and local government in 
promoting mine safety? (E.g., training, inspection, accident 
prevention, accident response)
    Answer 11. All of the examples given in the question plus 
communication.

    Question 12. Do you have any specific recommendations for Utah 
State Government that would increase mine safety and help prevent an 
incident like the Crandall Canyon Mine disaster from ever happening 
again?
    Answer 12. I have addressed these with the Utah Mining Commission. 
I think that it is of great importance that the State of Utah 
establishes a division or office of miners health safety and training.
        Response to Questions of Senator Enzi by Robert Ferriter
    Question 1. Would overall mine safety benefit from re-ordering our 
priorities, and in a world of finite resources, devoting an increased 
share to research, the acquisition of more technical expertise and the 
development of better safety equipment?
    Answer 1. Overall mine safety, especially in western coal 
operations would clearly benefit from admitting mistakes were made 
beginning in 1995 as part of Federal budget cuts and re-ordering 
funding priorities. As mentioned in my testimony and as evidenced by 
the Crandall Canyon tragedy, arguably the most significant impact on 
western coal mine bump remediation occurred when MSHA closed its Denver 
Safety & Health Technology Center and the Bureau of Mines was 
abolished. These two budget actions eliminated competent bump control 
experience within MSHA and forward looking research conducted at the 
BOM's Denver Research Center. In spite of valiant efforts to save these 
organizations, the impact of the decisions to eliminate them were 
somehow justified, rationalized and minimized by arguing that their 
functions could be easily handled from eastern offices or from the 
existing NIOSH office in Spokane, Washington. In reality, these offices 
appear to have shown little interest and may not have received the 
proper resources to provide the necessary technical support to western 
coal operators. Now, years later, we see the impact of these decisions.
    The more pressing question that needs an answer is . . . how could 
the Crandall Canyon tragedy occur? I offer the following observation. 
MSHA's District 9 in Denver does not maintain the technical expertise 
to review high-risk mine design plans. MSHA requires an operator to 
justify (prior to approval) the safety of any proposed roof control 
plan. Various consultants are retained by the operator to perform risk 
analyses. Problems arise because MSHA often lacks adequate technical 
support. Having only past experience and common sense, the approving 
official in MSHA's District 9 office may primarily rely on the 
consultant's report as the basis for a decision. The operator of course 
is concerned about the safety of the workforce, but at the same time is 
concerned about production. The operator may not be willing to spend a 
lot of money on engineering analyses. So the operator is able to 
justify, rationalize and minimize the importance of a more thorough 
assessment in a high risk bump prone area to get his roof control plan 
approved by MSHA. The consultant is somewhat caught in the middle. The 
consultant will only run the amount of analyses required to satisfy the 
operator (his boss) or he will not be retained. The problem is not of 
any one entity, but of the system. As I see it, the solution is to fix 
the approval system by re-establishing technical expertise, both office 
and field experience, in close proximity to where bump problems occur, 
and encouraging additional research of the conditions which contribute 
to the occurrence of bumps, and developing mining techniques that 
reduce the probability of these occurrences. The $1 million seed money 
recently provided to NIOSH by the committee to study retreat mining at 
depths greater than 1,500 feet is a good start, but not the final 
solution.

    Question 2. Is there any comprehensive research currently available 
that has studied pillar stress levels as a predictive factor in coal 
mine bumps?
    Answer 2. Prior to the abolishment of the U.S. Bureau of Mines in 
1996, two significant references were published: IC 9315--Proceedings 
of the Workshop on Coal Pillar Mechanics and Design (1992); and Special 
Publication 01-95 Proceedings: Mechanics and Mitigation of Violent 
Failure in Coal and Hard-Rock Mines.
    The papers published in Special Publication 01-95 (noted above) 
were presented at a U.S. Bureau of Mines technology transfer seminar, 
and describe the causes of violent material failure in U.S. mines (rock 
bursts and coal bumps), measurement techniques for monitoring events 
that result in violent failure, and mitigation techniques for 
controlling failure. Specific factors contributing to violent failure 
are identified on the basis of geotechnical monitoring in 16 U.S. hard-
rock and coal mines and on the statistical analyses of 172 coal bump 
events. New monitoring and analysis techniques developed as tools for 
assessing violent failure; geo-tomography methods that provide new 
capabilities for the study of material failure and stress changes over 
large areas; and seismic methods for determining source locations, 
calculating energy release, and determining source mechanisms are 
described. Fair correlations have been established among seismic 
parameters, elastic stresses, face support load, and violent events. 
USBM studies identified the advantages using both yielding and stable 
pillars for coal mine bump control, and the practical aspects of 
implementing a de-stressing program to mitigate coal mine bumps.
    Since the abolishment of the USBM and the transfer of MSHA's Denver 
Safety and Technology Center positions to eastern locations, a limited 
amount of new research in this area has been produced. The state-of-
the-art essentially remains at the 1996 level. It should be noted, 
however, that extensive research has been done on this topic in South 
Africa, Canada, and possibly other countries, e.g., Russia. At present, 
coal mine bumps and rock outbursts cannot be predicted, but the seismic 
activity associated with changing stress levels can be monitored to 
estimate the increased level of risk for entering impacted work areas. 
The case studies documented in NIOSH's computer code called ARMPS 
(Analysis of Room and Pillar Systems) do embrace, to a limited extent, 
the pillar stability factors in the bump prone areas of Colorado and 
Utah, and give a lower limit for a stability factor (0.85), beyond 
which the risk for a coal mine bump increases significantly. The ARMPS 
software plots pillar stresses that can be expected as well.
    In summary, although minimal new research into the coal bump 
phenomena has been conducted since the closing of the USBM, the above-
noted publications provide a substantial body of information on 
conditions which have contributed to coal mine bumps, and the 
techniques to mitigate their occurrence. NIOSH's ARMPS program was 
updated in 2003 to include mines located at great depths (generally 
1,500 feet or deeper). In addition, the LaModel stress analysis tool 
has been available for quite some time to assist mining operations in 
assessing their site specific conditions. Although, a substantial body 
of knowledge is available, research needs to continue to ensure safer 
mining conditions as coal reserves extend under deeper cover. New 
researchers and engineers need to be trained to apply the research and 
correctly interpret model results. As of this date, to my knowledge, no 
focused effort has been made to reestablish the expertise lost 
following the closure of MSHA's only western technology center, or the 
coal mine bump research program at the USBM's Denver Research Center. 
If knowledgeable researchers and engineers experienced in coal mine 
bump mitigation were available to the Crandall Canyon mine operator and 
MSHA for consultation, the mine planners would have been cautioned 
against initiating the proposed mining plan.

    Question 3. Is there any way to reliably predict seismic activity?
    Answer 3. To my knowledge, seismic activity cannot be accurately 
predicted, although it certainly increases with mining activity 
extending deeper than 1,500 feet. Seismic monitoring can be used to get 
a sense of increasing seismic activity in an area of a mine, and the 
related risk it represents.
    Prior to the closure of the USBM's Denver Research Center, 
significant advances were made in studies conducted to monitor micro-
seismic activity surrounding active coal mine workings. These studies 
were coupled with static pressure cells installed in pillars to monitor 
pressure buildup in individual pillars just prior to failure. To my 
knowledge, this research was minimized with the closing of the U.S. 
Bureau of Mines.

    Question 4. Could you explain in a bit more detail what you mean by 
a ``risk-based sensitivity analysis?''
    Answer 4. Risk-based sensitivity analysis involves assessing the 
impact of different parameters on mine safety. Using a single or very 
few runs of any structural analysis computer modeling program does not 
properly frame the risk (probability of failure). Rather, varying the 
values of input parameters over their practical ranges is important. 
Geotechnical modeling should address at least best-case, average-case, 
and worst-case scenarios in assessing the stability in active mining 
areas. These input parameters should include, but not be limited to:

    a. coal strength (unconfined and confined)
    b. peak strain in an element of the model
    c. coal, roof and floor modulus of elasticity
    d. Poisson's ratio (ratio of lateral/longitudinal strain of 
compressed rock)
    e. angle of internal friction
    f. depth of cover
    g. progressive mining steps from initial entry development through 
the completion of retreat mining

    By performing multiple analyses, a practical range of stability 
factors can be calculated under various scenarios of mining (mining 
entries and crosscuts in the barrier pillar, as well as, full or 
partial retreat of the pillars created in the barrier).
    For illustration purposes, if one uses NIOSH's ARMPS program and if 
one-half of the calculated stability factors are above 0.85 and one-
half are below 0.85, then intuitively, there is a significant risk 
(possibly as high as 50 percent) for pillar failure in a region prone 
to coal mine bumps.
    A consulting firm does only the analysis required in the scope of 
work sanctioned by the mine operator, who pays for the analyses. If a 
risk assessment with a sensitivity analysis is not requested by the 
mine operator, then it will not be done, i.e., it costs more money to 
run many more analyses (varying parameters). If MSHA would require a 
more thorough risk-based sensitivity analysis (or perform these 
analyses themselves), then the company would be required to do it in 
order to gain approval of the proposed mining plan. Requiring a 
sensitivity analysis with varying parameters would frame the level of 
risk when mining in bump-prone mines.
      Response to Question of Senator Isakson by Jeffrey L. Kohler
    Question 1. Last time you were here, we discussed ``piggy-back'' 
technology whereby a trapped miner can replenish his oxygen supply 
underground. What is the status of that research?
    Answer 1. The research has made good progress and should be 
completed early in 2008. We expect to receive the first commercial 
products resulting from this research later in 2008.
    The goal of the research is to develop a new generation of belt 
wearable self-contained self-rescuer (SCSR) respirators, and the most 
important feature is the ``docking'' or ``piggy-back'' capability that 
would allow a fresh oxygen cartridge to replace the spent one without 
the need for the miner to remove his mouthpiece. This new device would 
include other improvements as well.
    NIOSH awarded a contract to Technical Products, Inc. (TPI) in 
February 2007 to design and fabricate an oxygen-supplying SCSR 
respirator with ``piggy-back'' technology to allow a trapped or 
escaping miner to replenish his oxygen supply while underground. The 
new SCSR design includes a docking port mechanism that allows the user 
to plug in additional oxygen units without opening the breathing 
circuit to the potentially poisonous atmosphere. The docking port 
requires that a second oxygen unit be plugged in before the valve can 
be repositioned to the alternate port. Other innovative materials and 
design features will make the SCSR easier to manufacture and more 
comfortable to wear and use.
    Researchers completed testing of the prototype on August 8, 2007. 
The device met the requirements of the contract and regulations for 
SCSR certification. However, a subsequent focus group of industry 
representatives, assembled in August 2007, provided recommendations for 
making the device easier for the miner to wear. A contract for the 
Ergonomically Enhanced Self Contained Self Rescuer (E2SCSR) was awarded 
in November 2007, and the first production units should be delivered to 
NIOSH for initial testing by March 2008. In-mine testing is expected to 
begin by May 2008. Commercial versions of the new SCSR should be 
submitted to NIOSH for certification testing by the fall of 2008.
      Response to Questions of Senator Isakson by Robert Ferriter
    Question 1. Have you had a chance to review the official MSHA 
investigation reports from Sago, Darby, and Aracoma mine disasters? If 
so, do you believe these reports were done in a biased manner? 
Similarly, do you believe these reports were done in a careless or 
hasty manner?
    Answer 1. I have read in detail the MSHA investigation report on 
the Sago mine; however, due to pressing work demands, I have only 
conducted a cursory review of the Darby and Aracoma investigation 
reports. Based on these reviews, I believe that the reports were done 
in an honest, forthright manner and basically documented the disasters 
and the rescue efforts in a deliberate, factual manner. MSHA should be 
commended for these reports.
    However, that said and to draw your attention to the more important 
issue of an independent investigative panel for mine disasters, I would 
like to comment on the MSHA initiated Internal Review Reports issued on 
the Sago Mine, the Aracoma Alma No. 1 Mine, and the Darby No. 1 Mine, 
all issued on June 28, 2007. These reports severely criticize MSHA's 
enforcement of mandatory regulations written to safeguard underground 
coal miners. Although the writers of the reports, indicate in all three 
reports, and specifically state in the Darby report, that ``Although 
the internal review team identified significant deficiencies in MSHA's 
actions, the team did not find evidence that these deficiencies cause 
or contributed to the fatal explosion.'' (Refer to MSHA Internal Review 
Report on Darby No. 1 Mine Explosion on May 20, 2006, Harlan County, 
KY.) This report was issued on June 28, 2007.
    A random selection of enforcement deficiencies noted in a cursory 
review of these internal review reports reveal:
                     aracoma mine--msha district--4
    <bullet> Inspectors at Aracoma failed to notice absent stoppings, 
failed to act on chronic accumulations of coal dust, and failed to 
discover mis-marked escapeways, non-functional firefighting equipment, 
a deficient carbon monoxide monitoring system, and other hazards.
    <bullet> ``Inadequate supervision and management contributed 
greatly to the failure of the MSHA personnel to provide an adequate 
level of enforcement'' at Aracoma.
    <bullet> Inspectors at the mine disproportionately made required 
spot inspections at fans and portals on the surface, rather than 
traveling underground.
                      darby mine--msha district 7
    <bullet> Inspectors apparently failed to notice numerous missing 
entries in the required safety examination books.
                       sago mine--msha district 3
    <bullet> Inspectors performing regular inspections neglected to 
inspect SCSR's, observe or discuss fire drills, travel with pre-shift 
examiners, check the carbon monoxide monitoring system and cover some 
other aspects of a complete regular inspection.

    In my 26 years of employment with MSHA, I have never seen such 
harsh internal reviews of MSHA actions, and Assistant Secretary Richard 
Stickler deserves great credit for ``blowing the whistle'' on his own 
agency and establishing the new Office of Accountability. I sincerely 
hope that this office will enhance MSHA's enforcement programs for the 
safety of our miners. In my career in MSHA, I can remember instances 
where such criticisms would never have been published, and in fact were 
removed from final reports.
    With respect to the Crandall Canyon disaster, MSHA is even more 
involved, as it has presumably technically reviewed, inspected the area 
and approved the mine operator's inadequate mining plan (retreat mining 
of massive barrier pillars). As you will note in the NIOSH Critique of 
the Agapito report recommending ``full pillar extraction'' in the North 
and South barrier pillars, NIOSH states that the calculated stability 
factors were substantially below recommended values and both of the 
ARMPS and LAMODEL analysis programs were incorrectly used. However, 
MSHA accepted and approved the mining plan. MSHA was the last line of 
defense between life and death for the mine's miners and the rescuers 
killed in the Crandall Canyon disaster. MSHA failed to provide that 
defense. Therefore, I stand solidly behind my recommendation:

          ``Accidents involving multiple fatalities should be 
        investigated by a Federal entity independent of the regulatory 
        Department. To protect the validity of the investigation and to 
        ensure impartiality in fact finding, an independent entity 
        needs to conduct these disaster investigations. This will allow 
        an unbiased determination of process errors and misjudgments by 
        all involved parties, and speed any requirements for corrective 
        actions to further improve workplace safety for our Nation's 
        most valuable resource--the miner.''

    Even though the recent internal reviews are admirable, the tendency 
to absolve the Agency of any misconduct, or staffing or technical 
review inadequacies still exists. Therefore, only an outside, 
independent investigation will convince miners, unions and the public 
that MSHA is committed to improving its enforcement activities and 
protecting the safety and health of our Nation's miners. An outside, 
independent investigation of the Crandall Canyon disaster would be a 
major step in restoring MSHA's severely damaged public image. This 
investigative entity should be focused on investigating disasters at 
industrial facilities (e.g. refineries, manufacturing facilities, 
mines, etc.), and should be structured similar to the National 
Transportation Safety Board. Only in this manner can miners, unions and 
the public be assured that the Federal oversight Agency is doing the 
job it is mandated to do, and that problems that may require corrective 
actions can be quickly and fairly corrected.
    MSHA's involvement in the Crandall Canyon disaster is undeniable. 
MSHA's questionable approval of a reckless mining plan must be 
investigated and explained in an open and honest manner. Some will say 
that we are already seeing an attempt to direct the outcome of any 
investigation by the appointment of two former MSHA employees (Earnie 
Teaster and Joe Pavlovich) to conduct the Department of Labor's (DOL) 
investigation of the incident. Although these gentlemen may be the most 
honest people in the world, the mere fact that anyone from MSHA was 
chosen to conduct a DOL oversight investigation breeds thoughts of 
insuring the outcome (favorable to MSHA and DOL) of the investigation. 
I believe many people would see a conflict of interest here. Only by an 
outside, independent investigation and necessary corrective actions can 
miners, unions, operators and especially the public regain their trust 
and respect for MSHA.

    Question 2. Do you believe that MSHA's resources are allocated 
properly? How would you recommend MSHA target their enforcement 
efforts?
    Answer 2. In my opinion, MSHA's resources are poorly allocated and 
geographically distributed. If one was to conduct an unbiased and 
factual study of the location of the Nation's coal and metal and 
nonmetal mines and compare the number of inspectors servicing the 
various centers of mining activity with the number of operating mines 
at these locations, I believe the study would show a dramatic 
difference in the number of MSHA inspectors at eastern locations, while 
western mines are serviced by a significantly lower number of 
inspectors per mine. Accentuating this presumed inspector deficiency at 
western mines is the significantly greater dispersion of western mines 
(eastern inspectors can generally travel to several mines in 1 day and 
be back home that night; whereas, western inspectors may need to travel 
1 whole day just to get to a mine). Thus, western inspectors most 
likely spend considerably more time traveling, and less time 
inspecting, than their eastern counterparts.
    A glaring example of poor resource allocation is the existence of 
two technical centers within approximately 40 miles of one another near 
Pittsburgh, PA while no technical support group exists outside of this 
area. Therefore, little, if any, technical support is readily available 
to western enforcement districts or mine operators.
    Earlier in my answers to your first question, I cited MSHA's 
internal reviews of the Sago (District-3), Aracoma (District-4) and 
Darby (District-7) mines which indicated staffing deficiencies in 
technical areas such as ventilation plan reviews, electrical 
specialists, and other technical specialists. With two technical 
centers within a 1 day's drive to any of these eastern coal districts, 
one wonders why MSHA management did not attempt to assign some of the 
technical center's specialists to temporarily fill the staffing 
shortages at the District level. Is this a reflection on MSHA 
management's ability to maximize the use of scarce resources? I 
consider this an enlightening example of MSHA's poor resource 
allocation.
    To more effectively target MSHA enforcement efforts I would 
strongly urge Congress to reduce the mandatory four (4) underground 
inspections per year to two (2) mandatory underground inspections per 
year. This would free-up thousands of underground inspector hours per 
year to address safety issues in the less safe mines. Another way to 
accomplish this increased emphasis on poor performers without 
increasing inspector resources would be to allocate more inspector 
hours during each of the four quarters to poor operator inspections by 
cutting inspector hours at good operations with proven records (based 
on Pattern of Violation analysis). Then, I would reinforce to industry 
that it is their primary responsibility to safeguard their work force 
and comply with all safety regulations. If these measures prove 
ineffective, I would raise the monetary penalty significantly at all 
levels.
    I would use the pattern of violation program to target mines with 
poor safety performances, and expend a large portion of the inspection 
hours gained from reducing the four (4) mandatory underground 
inspections per year, or reallocation of inspection hours to these 
mines. In other words:

          ``If management is actively addressing safety issues and 
        holding accident occurrences to a minimum, they will see less 
        of MSHA. If management is not addressing safety issues and the 
        mine is experiencing a high number of accidents, they can 
        expect to see a lot of MSHA inspectors.''

    Give MSHA District Managers the flexibility to manage their limited 
resources.
    However, to use the pattern of violations program as a tool to 
target poorly performing mines, some modifications to the existing 
program would probably be required, and, in all fairness, give the 
operator a better understanding of how he is being evaluated. The 
program's general formula should be modified to adjust the index number 
by a mine's major hazards experience, as gleaned from reported data on 
fires, explosions, roof falls, bumps, etc., and violations related to 
the major hazards, such as citations on fire fighting systems, rock 
dusting, combustible material accumulations, roof falls, escapeways, 
mine inspections for major hazards, ventilation and methane control 
plan, roof and rib control plan, etc.
    In addition to these actions, I would anticipate scheduling more 
spot inspections of critical items such as ventilation stoppings, roof 
control and ventilation plan compliance, rock dusting in coal mines, 
accumulation of combustible materials, and other hazardous occurrences 
as identified from MSHA's accident and citation data bases.
    I would encourage more interaction with the miner's representatives 
and union safety committee men at all mines. These miners know their 
mines and the hazards being confronted.
    I would incorporate into the law a requirement that all mines spend 
1 day per year reviewing accidents that occurred at that mine during 
the previous year, the cause of the accidents, and the corrective 
actions taken by the mine. If the mine accumulated less than five (5) 
lost-time accidents, per year, the allotted time could be spent on 
other applicable safety and health training.
    I believe these actions would send a strong message to the 
industry, and give MSHA the ability to apply its resources to the 
``problem mines'' and the most significant safety problems in a timely 
manner; thus improving safety and health conditions industrywide.
    Response to Questions of Senator Hatch by Dr. Jeffrey L. Kohler
    Question 1. Are you aware of effective policies implemented at the 
State level to promote mine safety? What areas of State involvement 
have been the most effective in promoting safer mines?
    Answer 1. A number of States, including Pennsylvania and West 
Virginia, have mining agencies that provide oversight and guidance for 
promoting miner health and safety. We are not aware of evaluations 
investigating the effectiveness of these State activities, but the 
State agencies may have conducted or funded evaluations of their own 
activities.

    Question 2. Do deep underground mining operations in Utah require 
special safety measures in the areas of communications, miner tracking, 
air supply, and rescue chambers?
    Answer 2. Underground mining operations have some conditions that 
need to be dealt with on a mine specific basis, and there are also 
conditions of particular concern across a certain region or within a 
specific coal basin. For example high gas content, and subsequently 
high methane emissions, are of particular concern in the underground 
coal mines in Alabama and Virginia. While all underground coal mines 
have to deal with methane emissions, these mines have to provide 
additional engineering solutions to prevent the accumulation of 
explosive concentrations of methane. The underground coal mines in 
Utah, because of the topography, the depth of mining operations, and 
the coal characteristics, face high stresses and the potential for coal 
bumps. Bump-prone mines also exist in Colorado, Virginia and West 
Virginia, and mines in those areas have to be designed and operated 
accordingly. Each mine must conduct major hazard risk analyses and plan 
to manage their principal risks, such as gas explosions or coal bumps.

    Question 3. Do the mining plans for deep underground mining 
operations in Utah require a higher level of scrutiny for safety than 
other operations?
    Answer 3. All underground coal mining operations require a high 
level of scrutiny. The level of risk associated with each particular 
hazard may differ for mines in different parts of the country but risk 
assessment and management are important for every mine. Each mine plan 
should be scrutinized with a particular emphasis on the highest risk 
hazards of that mine. For example, the ground control plan for a deep 
mine in Utah would address the bump hazard, and the ventilation control 
plan for a deep mine in Alabama would address the hazards associated 
with high-methane liberation rates. Nonetheless, a mine in Utah would 
also address explosion hazards and a mine in Alabama would also address 
failure-of-ground hazards.

    Question 4. In addition to MSHA, what parties, including the State, 
should be involved in reviewing of the mine operators' overall mining 
plan for the purpose of promoting mine safety?
    Answer 4. Mining plans should be reviewed comprehensively and 
rigorously. Any system of safety review, such as in mining, should 
include safeguards commensurate with the risks, but NIOSH does not have 
a view regarding the extent to which such safeguards should be internal 
to MSHA or should involve additional reviews by other agencies.

    Question 5. Do miners who are employed in Utah mines require 
specialized training due to the deep underground conditions in which 
they work?
    Answer 5. Each specific mining operation has training requirements 
that address concerns and issues that are particularly relevant to that 
particular site. These training topics are generally developed as part 
of the MSHA-mandated training requirements and are covered during 
annual refresher training. Thus, Utah miners should be given specific 
training on coal bump hazards as part of the MSHA-
mandated training course.

    Question 6. Do mine rescue teams and other emergency responders 
need special training and additional emergency response support for the 
risks posed by deep underground mining in Utah?
    Answer 6. All mine rescue teams should be trained to deal with the 
hazards and operational issues specific to the mine designs and the 
geological and geotechnical conditions of the types of mines where they 
would be responding. Training at the mine site is optimal and the mine 
rescue team members should be composed of experienced miners.

    Question 7. Is the current MSHA regulatory structure designed and 
staffed to address the safety issues associated with the underground 
mining technique known as retreat mining?
    Answer 7. The current MSHA regulatory structure provides the means 
to address safety issues associated with retreat mining. For example, 
30 CFR Part 75, Subpart C, ``Ground Control'' addresses the principal 
hazards associated with retreat mining. Moreover, 30 CFR 75.220, which 
requires an approved roof control plan for each mine, requires that the 
particularly relevant conditions and attendant hazards are addressed.
    NIOSH is not an expert on staffing at MSHA but is aware that MSHA 
employs some recognized and respected ground control engineers who 
evaluate ground control plans, including those for retreat mining 
operations.

    Question 8. Are there areas of technical expertise that are 
specially well-suited to address the unique safety issues associated 
with deep underground mining in Utah?
    Answer 8. Specialized ground control expertise would be 
particularly important to address the safety challenges posed by the 
high stress and bump-prone mines in Utah. Ventilation expertise is also 
particularly important.

    Question 9. Are there safety benefits in having the State involved 
with MSHA in the review and approval of mine operators' emergency 
response plans?
    Answer 9. In the case of emergency response, there is often 
involvement by State and local agencies. Thus, presumably the State 
agency would provide input and concurrence on their role as it is 
written into a mine's emergency response plan.

    Question 10. What role should State and local government play in 
the emergency response to a critical incident involving an underground 
coal mine?
    Answer 10. State and local agencies can be invaluable to MSHA, as 
was demonstrated during the Quecreek Inundation, the Sago Mine 
Explosion, and the Crandall Canyon Mine Collapse. State and local 
officials worked closely with MSHA during these rescue efforts 
providing operational support, technical expertise, and a wide range of 
services including security, equipment, food, water, medical, and 
spiritual support. The value of these local and State efforts has been 
documented in hearing testimony and State reports. There are also, 
however, important coordination issues that arise with the involvement 
of multiple agencies. We believe that the primary goal at the mine site 
during the crucial incident is the safe rescue of trapped miners. 
Accordingly, MSHA should have ultimate control of the site. The 
ancillary roles of the various State and local agencies should be 
planned, understood by all, and documented as part of the mine's 
emergency planning activities.

    Question 11. What are the areas of greatest potential for effective 
partnerships involving Federal, State, and local government in 
promoting mine safety? (E.g., training, inspection, accident 
prevention, accident response)
    Answer 11. Partnerships can be important for accident response, as 
discussed above. MSHA has used an ``Alliance'' concept with its 
stakeholders to promote safety in a range of areas, which it can 
address in more detail. NIOSH has partnerships to address specific 
high-priority health and safety needs of the mining community. These 
include partnerships on dust monitoring, mine emergency communication 
systems, coal and metal and nonmetal diesel emissions control, and rock 
shield systems. These partnerships have been instrumental in expediting 
advancements in these areas. These partnerships include representatives 
from labor, industry, Federal and State agencies.

    Question 12. Do you have any specific recommendations for Utah 
State Government that would increase mine safety and help prevent an 
incident like the Crandall Canyon Mine disaster from ever happening 
again?
    Answer 12. NIOSH is not likely to be aware of all ongoing 
activities but MSHA has a State grants program that might be used to 
improve the safety of mining operations in Utah. The MSHA accident 
investigation on the Crandall Canyon Mine disaster, once completed, 
should be useful for identifying opportunities for State involvement in 
improving mine safety in Utah.

    [Whereupon, at 12:10 p.m. the hearing was adjourned.]

                                    

      
</pre></body></html>
